<html>
<title> - FORMING A COMPREHENSIVE APPROACH TO MEETING THE WATER RESOURCES NEEDS OF COASTAL LOUISIANA IN THE WAKE OF HURRICANES KATRINA AND RITA</title>
<body><pre>[Senate Hearing 109-1009]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1009

 FORMING A COMPREHENSIVE APPROACH TO MEETING THE WATER RESOURCES NEEDS 
                  OF COASTAL LOUISIANA IN THE WAKE OF 
                      HURRICANES KATRINA AND RITA

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 9, 2005

                               __________

  Printed for the use of the Committee on Environment and Public Works


      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________





                        U.S. GOVERNMENT PRINTING OFFICE

37-442                         WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001


























               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED NINTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
LINCOLN CHAFEE, Rhode Island         BARBARA BOXER, California
LISA MURKOWSKI, Alaska               THOMAS R. CARPER, Delaware
JOHN THUNE, South Dakota             HILLARY RODHAM CLINTON, New York
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
JOHNNY ISAKSON, Georgia              BARACK OBAMA, Illinois
DAVID VITTER, Louisiana
                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director

                                  (ii)




























                            C O N T E N T S

                              ----------                              
                                                                   Page

                            NOVEMBER 9, 2005
                           OPENING STATEMENTS

Carper, Hon. Thomas R., U.S. Senator from the State of Delaware, 
  prepared statement.............................................    46
Clinton, Hon. Hillary Rodham, U.S. Senator from the State of New 
  York, prepared statement.......................................    46
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..     5
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....     3

                               Witnesses

Brink, Peter H., senior vice president, Programs, National Trust 
  for Historic Preservation......................................    30
    Prepared statement...........................................    64
    Responses to additional questions from Senator Jeffords......    68
Curole, Windell, general manager, South Lafourche Levee District.    28
    Prepared statement...........................................    62
    Responses to additional questions from Senator Jeffords......    63
Dunlop, George, principal deputy assistant secretary, civil 
  works, U.S. Army...............................................     8
    Prepared statement...........................................    47
    Responses to additional questions from Senator Jeffords......    49
Ellis, Steve, vice president, Taxpayers For Common Sense.........    34
    Prepared statement...........................................    75
    Responses to additional questions from Senator Jeffords......    77
Faber, Scott, water resources specialist, Environmental Defense..    32
    Prepared statement...........................................    71
Mittal, Anu, director, Natural Resources and Environment, U.S. 
  General Accountability Office..................................    10
    Prepared statement...........................................    56
    Responses to additional questions from Senator Inhofe........    61
    Responses to additional questions from Senator Jeffords......    60
Riley, Don T., Major General, director of civil works, U.S. Army 
  Corps of Engineers.............................................     9
    Prepared statement...........................................    50
    Responses to additional questions from Senator Jeffords......    52

                          Additional Material

Reports:
    The Center For Progressive Reform; Broken Levees: Why they 
      failed.....................................................    80
    The U.S. General Accounting Office; Improved Planning Needed 
      by the Corps of Engineers to Resolve Environmental, 
      Technical, and Financial Issues on the Lake Pontchartrain 
      Hurricane Protection Project...............................    93
.................................................................
.................................................................



















 
 FORMING A COMPREHENSIVE APPROACH TO MEETING THE WATER RESOURCES NEEDS 
    OF COASTAL LOUISIANA IN THE WAKE OF HURRICANES KATRINA AND RITA

                              ----------                              


                      WEDNESDAY, NOVEMBER 9, 2005

                                        U.S. Senate
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
406, Senate Dirksen Building, Hon. James Inhofe (chairman of 
the committee) presiding.
    Present: Senators Inhofe, Thune, Isakson, Vitter, Jeffords, 
Carper, Clinton.

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Senator Inhofe. We will ask the hearing to come to order. 
It happens today that I have an amendment on the floor, and 
Senator Vitter has been good enough to say that he would chair 
this meeting.
    I would ask unanimous consent that my statement be made a 
part of the record. Without objection, so ordered.
    [The prepared statement of Senator Inhofe follows:]

   Statement of Hon. James M. Inhofe, U.S. Senator from the State of 
                                Oklahoma
    Good morning and welcome to our third full committee hearing in 
response to Hurricane Katrina. Our first two hearings focused on 
initial Federal Agency responses to the storm, while this one will look 
at the future--specifically near-term, intermediate and long-term steps 
by the Army Corps of Engineers needed to facilitate the rebuilding of 
coastal Louisiana.
    I want to thank all of our witnesses for coming today. I know some 
of you have been here before, and I appreciate your willingness to 
speak with us again. We also have a couple newer faces on this issue, 
and I look forward to hearing ideas from a fresh perspective.
    As everyone here knows, the Senate Environment & Public Works 
Committee has sole jurisdiction over the Civil Works mission of the 
Army Corps of Engineers and will be the focal point for the development 
of any legislation necessary to direct the corps' activities, as well 
as for providing oversight of these activities. As chairman of this 
committee, I take that responsibility very seriously, and I am pleased 
we have heard from so many willing to help us fulfill our mission.
    The committee held a stakeholders meeting on October 20th for staff 
to hear from a broad range of interested parties, local and national, 
as to what needs to be done to ensure the recovery of the region.
    One of the common themes to emerge was the importance of taking a 
comprehensive and integrated approach to the three main missions of the 
Army Corps in coastal Louisiana, which are flood and storm damage 
reduction, navigation and wetlands restoration. Today we will further 
explore this idea to find out how such an approach might be structured 
and how we can ensure its effectiveness.
    By anyone's measure, the Federal investment to be made in 
rebuilding and protecting the city of New Orleans and the surrounding 
coastal area will be substantial. It is vital that this investment be 
made in the context of a well-thought-out plan and with maximum 
coordination with State and local planning decisions.
    Another common theme from the stakeholders meeting is that it is 
the people who live there, not the Federal Government, who should be 
deciding where and how to rebuild the area. As a former mayor myself, I 
agree that it is unacceptable to have the Federal Government making 
local planning decisions, but I am afraid it could happen by default if 
we don't receive a clear message from the local communities as we move 
forward with Federal activities to provide storm protection.
    We also have to ensure that there is proper oversight and cost 
controls on these Federal activities--we cannot afford to do this wrong 
or for it to be a free spending boondoggle. I look forward to hearing 
from the witnesses their ideas on what safeguards might be appropriate 
and most effective.
    I do want to add that before we get too far down the road of 
deciding what we should do when rebuilding, we must first know what 
happened to the levees and why the city was flooded. There are a number 
of experts taking a look at this very issue and we will remain in close 
contact with those investigations. When we have facts and the time is 
appropriate, the committee will hold a hearing on the findings and take 
whatever steps are necessary.
    While it is too early for final conclusions, I understand that the 
corps has been making some adjustments when restoring the current 
protection to take into account initial findings. I hope to hear more 
details from General Riley and Mr. Dunlop.
    Once again, thank you all for coming today. I look forward to 
hearing your testimony and to discussing some topics more in-depth 
during questions.

    Senator Inhofe. One thing I would like to ask at the 
appropriate time, and perhaps you can do it for me, there has 
been some confusion, and we have a witness from the GAO. I had 
felt, after researching after the tragedy of Katrina took place 
that in 1977 there was an effort by the Corps of Engineers to 
do something recognizing that it wasn't a matter of if but when 
we would have a more devastating type of a hurricane. They were 
talking about enhancing the levee at that time.
    That was enjoined by an environmental group that, my 
feeling was after studying it, if they had not done that, they 
would have corrected that situation and we would not have had 
the devastation that Katrina produced for us.
    There was a GAO report that came out that said no, that was 
not the case. I understand that Ms. Mittal, you are going to 
clarify that. So I would like to ask, since I won't be here, 
Mr. Chairman, that you be sure that you pursue that for me, if 
you would do that.
    Senator Vitter. Absolutely.
    Senator Inhofe. I thank you very much, sir.
    Senator Vitter. [Presiding] Thank you, Mr. Chairman, and 
thank you for calling this hearing and this meeting to order. I 
don't know if you had any other opening comments.
    Senator Inhofe. No, for the record is fine. Oh, I do have 
one more thing here. I want to introduce somebody in the 
audience, John Berry. Stand up John. John is chief of the 
Quapaws.
    While we are not dealing with Superfund in this particular 
hearing, the most devastating Superfund site in America is 
located in northern Oklahoma, called Tar Creek. We have 
something where we think that, in helping our situation, we can 
also help the recovery and the rebuilding of the levee that you 
and I and Chief Berry will be meeting on later on today. So 
welcome to our hearing, Mr. Chairman.

 OPENING STATEMENT OF HON. DAVID VITTER, U.S. SENATOR FROM THE 
                       STATE OF LOUISIANA

    Senator Vitter. Welcome, Mr. Chairman, and thank you for 
that--the other Mr. Chairman.
    I have a brief opening statement. Again, I want to thank 
the chairman of the committee for calling this hearing today. 
It is a vital step in understanding the unique situation in 
south Louisiana and the vital need, the vital national need to 
design a new, innovative and effective program to move forward.
    I want to thank all of our witnesses for agreeing to 
testify before the committee, especially Windell Curole, who 
traveled from Louisiana to be with us today. I also 
particularly look forward to discussing the protection plans 
with the corps representatives here today, George Dunlop and 
Major General Riley from the Army Corps of Engineers.
    The important point here is that the old system did not 
work and we need to move forward under a dramatically new and 
improved structure.
    Over the past few months the devastation from Hurricanes 
Katrina and Rita has brought attention to how reliant our 
Nation is on south Louisiana's ports, our energy resources, our 
seafood and trade. Americans have felt the economic impact of 
the storms through increased prices at the gas pump, higher 
payments for their electric and heating bills, disruption to 
commerce, particularly trade and seafood. Of course, 
Louisianans have felt the impact both economically and 
emotionally, and they have lost their homes, their jobs, their 
communities in some cases.
    Those are only some of the reasons why it is important that 
we rebuild Louisiana quickly, not only so Louisianans can get 
their lives together and return home, but so Americans across 
the United States can feel relief in energy costs and so 
commerce can continue to flow and all of those vital services 
to the Nation can continue.
    Louisianans want to come back home and our businesses want 
to rebuild. But more than anything else, they need reassurance 
that their homes and businesses will not wash away come the 
next storm. A comprehensive and integrated approach is 
necessary to rebuild and meet the water resources needs of 
coastal Louisiana.
    That integrated approach includes strong hurricane 
protection, much stronger than what we had before, strong flood 
prevention, ecosystem restoration and efforts to meet vital 
navigation needs. We must make sure this tragedy we have all 
experienced and lived through and observed never happens again.
    And there is really no reasonable time line to do that. We 
need the levees rebuilt now, we need stronger hurricane 
protection now. Rebuilding to pre-Katrina conditions is not an 
option, since that was clearly inadequate. By June 2006, the 
start of the next hurricane season, we need a stronger level of 
protection than was there right before Katrina. Of course, 
better design and better technology must be incorporated into 
those efforts.
    We cannot rebuild the same as before and expect different 
results. This time around we need better, stronger hurricane 
protection. Our protections need improvement with the use of 
better design and technology. Of course, coastal restoration 
efforts must be fully integrated with these protection efforts, 
because coastal land is the first defense against hurricanes 
and is an important part of the overall picture.
    Two months before Hurricane Katrina hit Louisiana, I sat 
before the Commerce Committee hurricane preparedness hearing 
and said that we could spend millions now preventing hurricane 
damage to south Louisiana or we could spend billions later 
responding to a major hurricane disaster. Unfortunately, those 
words came true just 2 months later.
    We can't make this mistake again. Congress has already 
responded to Hurricane Katrina by providing almost $70 billion 
in emergency relief. About 1,000 of my constituents have lost 
their lives. Had we an expedited corps process and just a 
fraction of these funds, we could have virtually eliminated the 
need for that loss.
    Just as the traditional corps project and appropriation 
process was inadequate before the storm, it is clearly 
inadequate now after the storm. We need to rebuild, so people 
are safe from future hurricanes. We need hurricane protection 
levees that will sustain a category 5 hit. The only appropriate 
response to these needs has to include programmatic authority 
to implement strong hurricane protection and flood prevention 
in an expedited manner.
    In closing, I want to re-emphasize that we have already 
appropriated or provided tax incentives totaling twice the cost 
of even the most generous estimates for armoring all of south 
Louisiana and fully restoring our coast. Our delegation has 
been fighting for this proactive effort for years. Now that 
over 1,000 lives have been lost, we have to do this. We have to 
do it right and quickly so that we don't suffer those losses 
again.
    I look forward to working with this committee, working with 
all of our witnesses and many others on advancing a new, 
comprehensive, integrated, system-wide, streamlined, expedited 
program to do all of this. Thank you very much.
    [The prepared statement of Senator Vitter follows:]

    Statement of Hon. David Vitter, U.S. Senator from the State of 
                               Louisiana
    Mr. Chairman, thank you for holding this very important hearing. 
Today's hearing is a vital step in understanding the unique situation 
in south Louisiana and designing a new, innovative and effective 
program to move forward.
    I would like to thank all of the witnesses for agreeing to testify 
before the committee, especially Windell Curole who traveled from 
Louisiana to be with us today. I also look forward to discussing 
protection plans with the corps here today--George Dunlop and Major 
General Riley from the Army Corps of Engineers. The important point 
here is that the old system did not work and we should not be moving 
forward under the same structure.
    Over the past few months, the devastation from Hurricanes Katrina 
and Rita has brought attention to how reliant our nation is on South 
Louisiana's ports, energy resources, seafood, and trade. Americans have 
felt the economic impact through increased prices at the gas pump, 
higher payments for their electric and heating bills. Louisianans have 
felt the impact both economically and emotionally--they have lost their 
homes, their jobs, their communities.
    Those are only some of the reasons why it is important that we 
rebuild Louisiana quickly--not only so Louisianans get their lives back 
together and return home, but also so Americans across the United 
States can feel relief in energy costs.
    Louisianans want to come back home and our businesses want to 
rebuild but they need reassurance that their home will not wash away 
come the next storm. A comprehensive and integrated approach is 
necessary to rebuild and meet the water resources needs of coastal 
Louisiana. Integrated approach should include strong hurricane 
protection, flood prevention, ecosystem restoration and navigation.
    We must make sure this never happens again. There is no reasonable 
timeline. We need the levees rebuilt now. We need stronger hurricane 
protection now. Rebuilding to ``pre-Katrina conditions'' is not an 
option. By June 2006--the start of the next hurricane season--we need a 
stronger level of protection. It is the only option. Better design and 
better technology must be incorporated into our ongoing efforts.
    We can not rebuild the same as before and expect different results. 
This time around we need better, stronger hurricane protection. Our 
hurricane protections need improvement with the use of better designs 
and technology. Coastal restoration efforts should be fully integrated 
with these protection efforts.
    Two months before Hurricane Katrina hit Louisiana, I sat before a 
Commerce Committee hurricane preparedness hearing and said that we 
could spend millions now preventing hurricane damage to south Louisiana 
or we could spend billions later responding to a major hurricane. 
Unfortunately, we have chosen the later. We must not make this mistake 
again. Congress has already responded to Hurricane Katrina by providing 
over $60 billion in emergency relief and approximately 1,000 of my 
constituents have lost their lives. Had we had an expedited corps 
process and just a fraction of these funds, we could have virtually 
eliminated the need for this emergency relief spending.
    Just as the traditional corps project and appropriation process was 
inadequate before the storm, it is inadequate after the storm. We need 
to rebuild Louisiana so people are safe from future hurricanes. We need 
hurricane protection and levees that will sustain a category 5 
hurricane. The only appropriate response to the protection of south 
Louisiana must include programmatic authority to implement strong 
hurricane protection and flood prevention in an expedited manner.
    In closing, I would like to reemphasize that we have already 
appropriated or provided tax incentives totaling twice the cost of 
fully armoring all of south Louisiana and fully restoring our coast. 
Our delegation had been fighting for this pro-active effort for years. 
Now that 1,000 lives have been lost and we have spent billions and 
billions of dollars--and will spend much more--let us act quickly and 
wisely in insuring we protect our citizens with a new process, a new 
program and a bright, new future for south Louisiana.
    I look forward to working with the committee and hearing from all 
of the witnesses on advancing a new, comprehensive, integrated, system-
wide, streamlined and expedited program to address the hurricane, flood 
and coastal protection and navigation program for south Louisiana.

    Senator Vitter. Now I will ask Senator Jeffords, our 
Ranking Member, if he has opening comments.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. Yes, I do. I want to thank you for 
holding today's hearing on water resource needs in the wake of 
Hurricane Katrina. In the eyes of many, taking action on water 
resource issues is really the first step in the recovery of 
southern Louisiana. Without adequate flood control, 
redevelopment will be impossible.
    Today's hearing is a follow-up from the stakeholders' 
meeting we held several weeks ago, at which time more than 30 
people came before our committee to provide their views on the 
next steps. Today we are hearing from a smaller group. But our 
work has already been influenced by that larger gathering. I 
know some of our witnesses today were at the previous meeting 
and I want them to know I value their insights.
    Today we are essentially covering two main questions: why 
do we need investment in water resources and what do we need to 
do. I look forward to hearing from our witnesses on those 
points.
    At the stakeholders meeting we heard several major themes 
that I see are echoed in today's written testimony. We have 
heard the personal stories of how Katrina impacted the lives of 
so many people. We have heard about the special, unique 
features this area of the Country brings to us.
    For me, this is why, this is the why of investment in our 
water resources. I will never tire of hearing these stories, 
and I encourage our witnesses to share your experiences with 
us.
    We have heard that the water resource investment must be 
comprehensive and include flood control, ecosystem restoration, 
and navigation. Piecemeal solutions will not solve the problem.
    We have heard the message loud and clear that time is of 
the essence. People in Louisiana are frustrated with the lack 
of progress in developing a WRDA proposal and enacting that 
critical reauthorization bill. We need to move quickly but 
balance the need for speed with the need for safety. We should 
not rebuild an entire levee system without incorporating the 
lessons learned from the failure of that system.
    I am a little dismayed that there is an $8 million study 
included in the Energy and Water Conference Report that covers 
only flood control. This seems to be a narrow evaluation that 
will take a long time, rather than a comprehensive study that 
will be finished quickly. It seems to be the exact opposite of 
what we have been hearing that we need.
    We have also heard that local redevelopment plans must 
guide future spending decisions. We may or may not need 
category 5 flood protection everywhere. The Mayor of New 
Orleans testified before our committee last week that he has a 
group working on this, as does the Governor. I would like to 
hear from each of the witnesses as to how you think this 
process is going.
    To give some additional perspective to today's hearing, I 
want to emphasize as I have in our last several Katrina events 
a little bit of the history about disaster response. Over the 
past 200 years, our Nation has moved from an ad hoc approach to 
a coordinated, orderly approach with the help of the Stafford 
Act.
    In the aftermath of Hurricane Katrina, I believe we 
witnessed the degradation of our Nation's response system as a 
result of a bad decision to move FEMA into the Department of 
Homeland Security. There, FEMA became lost in endless 
bureaucracy, and we have seen the tragic consequences. I have 
joined Senator Clinton in an effort to correct that mistake.
    Mr. Chairman, since my good friend, Senator Bob Stafford of 
Vermont, for whom the Stafford Act was named, was a member of 
this committee, we have traditionally been the go-to committee 
for emergency response. We have an opportunity here with the 
Army Corps of Engineers to continue in that tradition and take 
meaningful action to change the way we do business and help 
Louisiana recover.
    I stand ready to help and to make that happen. Thank you, 
Mr. Chairman.
    [The prepared statement of Senator Jeffords follows:]

 Statement of James M. Jeffords, U.S. Senator from the State of Vermont
    Good morning. Mr. Chairman, I want to thank you for holding today's 
hearing on water resource needs in the wake of Hurricane Katrina.
    In the eyes of many, taking action on water resource issues is 
really the first step in the recovery of southern Louisiana. Without 
adequate flood control, redevelopment will be impossible.
    Today's hearing is a follow-up from a stakeholders' meeting we held 
several weeks ago, at which more than 30 people came before our 
committee to provide their views on next steps. Today we are hearing 
from a smaller group, but our work has already been influenced by that 
larger gathering. I know some of our witnesses here today were at that 
previous meeting, and I want them to know that I value their insights.
    Today we are essentially covering two main questions: Why do we 
need investment in water resources, and what do we need to do? I look 
forward to hearing from our witnesses on those points.
    At the stakeholders meeting, we heard several major themes that I 
see are echoed in the written testimony for today. We have heard the 
personal stories of how Katrina impacted the lives of so many people, 
and we have heard about the special, unique features this area of the 
country brings to us. For me, this is the ``why'' of investment in 
water resources. I will never tire of hearing these stories, and I 
encourage our witnesses to share your experiences with us. I want us 
all to remember that it is the people of this region we are talking 
about at this hearing.
    We have heard that water resource investment must be comprehensive, 
and include flood control, ecosystem restoration, and navigation. 
Piecemeal solutions will not solve the problem. We have heard the 
message loud and clear that time is of the essence. People in Louisiana 
are frustrated at the lack of progress in developing a WRDA proposal 
and enacting that critical reauthorization bill. We need to move 
quickly, but balance the need for speed with the need for safety. We 
should not rebuild an entire levee system without incorporating the 
lessons learned from the failure of that system.
    I am a little dismayed that there is an $8 million study included 
in the Energy and Water conference report that covers only flood 
control. This seems to be a narrow evaluation that will take a long 
time, rather than a comprehensive study that will be finished quickly. 
It seems to be the exact opposite of what we've been hearing we need.
    We have also heard that local redevelopment plans must guide 
Federal spending decisions. We may or may not need Category 5 flood 
protection everywhere. The Mayor of New Orleans testified before our 
committee last week that he has a group working on this, as does the 
Governor. I would like to hear from each of the witnesses on how you 
think this process is going.
    Mr. Chairman, I am disappointed that I even need to raise this next 
point, but I know that there is interest in this. The claims that 
environmental litigation is somehow responsible for flooding in New 
Orleans are false, and distract us from what I believe is our real 
purpose here: to use water resource investments as a positive tool in 
the rebuilding of the New Orleans area.
    To give some additional perspective to today's hearing, I also want 
to emphasize, as I have at our last several Katrina events, a bit of 
history about disaster response. Over the last 200 years, our Nation 
has moved from an ad hoc approach to a coordinated, orderly approach, 
with the help of the Stafford Act. In the aftermath of Hurricane 
Katrina, I believe we witnessed the degradation of our national 
response system as a result of the bad decision to move FEMA into the 
Department of Homeland Security. Once there, FEMA became lost in an 
endless bureaucracy and we have seen the tragic consequences. I have 
joined Senator Clinton in an effort to correct that mistake.
    Mr. Chairman, since my good friend Senator Bob Stafford of Vermont, 
for whom the Stafford Act was named, was a member of this committee, we 
have traditionally been the ``go to'' committee for emergency response. 
We have an opportunity here with the Corps of Engineers to continue in 
that tradition, and take meaningful action to change the way we do 
business and help Louisiana recover. I stand ready to help make that 
happen.

    Senator Vitter. Thank you very much, Senator. Now we will 
go to our first panel. We have Mr. George Dunlop, Principal 
Deputy Assistant Secretary for Civil Works at the U.S. Army; we 
have Major General Don Riley, Director of Civil Works with the 
U.S. Army Corps of Engineers; and Ms. Anu Mittal, Director of 
the Natural Resources and Environment Section of the U.S. 
General Accountability Office.
    Thank you all very much for your work, first and foremost, 
but also for being here and testifying.
    Mr. Dunlop.

    STATEMENT OF GEORGE DUNLOP, PRINCIPAL DEPUTY ASSISTANT 
               SECRETARY, CIVIL WORKS, U.S. ARMY

    Mr. Dunlop. Thank you very much, Mr. Chairman and Senator 
Jeffords. We greatly appreciate the opportunity to come and 
share our thinking with you today. I am pleased to discuss the 
role of the Department of the Army and General Riley will 
discuss the role of the Corps of Engineers and the recovery and 
rebuilding efforts that lie ahead in the Gulf Coast area.
    Our respective prepared testimonies go into detail as to 
the tasks now underway and how they provide a comprehensive and 
integrated approach that you both have addressed to meeting the 
challenges of the Gulf Coast hurricanes. I trust that our 
prepared testimonies can be entered into the record.
    Senator Vitter. Without objection, that will happen.
    Mr. Dunlop. Thank you, sir.
    General Riley will summarize the various initiatives in 
which the Administration and the corps are now engaged, and if 
you will permit me, I would like to take my time to emphasize 
seven policy issues and objectives that we believe are 
important to guide this work.
    First, we believe that careful attention must be given to 
how we can best integrate and coordinate future flood and storm 
damage reduction objectives with one another and with the needs 
of the coastal wetlands ecosystem. Second, we emphasize the 
importance of working with State and local officials as they 
plan for the future of New Orleans, for the parishes in 
southern Louisiana and Mississippi and other parts of the Gulf 
Coast.
    Third, the President has established by Executive Order the 
cabinet level White House Gulf Coast Recovery and Rebuilding 
Council to further strengthen Federal support for the recovery 
and rebuilding efforts through an effective, integrated, 
fiscally responsible coordination effort through this, what we 
trust will be an effective, integrated and fiscally responsible 
coordination from all the relevant Federal agencies working 
together. Also with the State, local, tribal Governments, the 
private sector, faith-based and other community and 
humanitarian relief organizations.
    Fourth, we believe that a comprehensive, definitive, 
forensic analysis is essential. Already, an independent team of 
the American Society of Civil Engineers is collecting 
information to apply to the development of the design criteria 
for storm protection and other features that are necessary.
    Other organizations and individuals are doing important 
work in this regard. Perhaps you have read or are familiar with 
the study from LSU, the National Science Foundation. It is our 
policy that to the extent practicable, all relevant information 
is to be carefully considered and objectively assessed.
    To assure this, the Secretary of Defense has directed the 
Secretary of the Army to convene a panel of experts under the 
auspices of the National Academies of Sciences to evaluate the 
information collected by the corps and all these other parties, 
so as to provide an independent, peer-reviewed assessment of 
the performance of the storm damage reduction system in place 
in New Orleans and the surrounding areas.
    The National Academies will report directly to the 
Assistant Secretary of the Army for Civil Works, Mr. Woodley. 
This definitive study is expected to take approximately 8 
months to complete.
    Fifth, following this forensic analysis, all of us will 
need to evaluate the broad range of options before we develop 
recommendations as to the best ways to reduce the risks in the 
future, for future storm damages for the city of New Orleans 
and the surrounding parishes. Senator Jeffords mentioned the $8 
million that was provided for in the conference report that 
would fund an already authorized feasibility study to undertake 
that kind of analysis.
    Sixth, to emphasize the importance of the coastal wetlands 
ecosystem, last week the Administration requested a 
reallocation of $250 million of the emergency supplemental 
appropriations to provide funds for the Secretary of the Army 
to undertake immediate construction activities related to the 
restoration of the natural coastal features that will help 
reduce the risk of storm damage in the greater New Orleans 
area.
    Seventh, the Administration is working with Congress and 
with the State of Louisiana to develop a generic authorization 
for the near-term Louisiana coastal ecosystem protection and 
restoration program. This generic programmatic approach will 
expedite the approval process for projects and their 
implementation.
    I think that picking up on some of the terms that I heard 
you address in your remarks, streamlining, quickly, and to 
avoid piecemeal activity, this programmatic approach will 
provide greater flexibility in setting future priorities and 
increased opportunities for the application of adaptive 
management decisionmaking.
    Such an integrated, programmatic approach to the coastal 
wetlands protection and restoration will be innovative and it 
is essential for program efficiency and efficacy.
    Mr. Chairman, this concludes my summary statement. I look 
forward to working with you, and Secretary Woodley does, and 
the ranking member of the committee and other committee members 
on matters of mutual interest and concern. Following Major 
General Riley's statement, I would be pleased to respond to any 
questions you may have.
    Senator Vitter. Thank you.
    General Riley.

  STATEMENT OF MAJOR GENERAL DON T. RILEY, DIRECTOR OF CIVIL 
              WORKS, U.S. ARMY CORPS OF ENGINEERS

    General Riley. Thank you, Mr. Chairman and Senator 
Jeffords.
    As the Director of Civil Works, I am honored to be here 
today to testify with Mr. George Dunlop on our participation in 
the Federal recovery and rebuilding efforts.
    As you know, the corps is continuing today with our 
contractors to execute the FEMA missions of debris removal and 
temporary roofing in the impacted area. Additionally, we are 
working around the clock on the repair of levees and flood 
walls to reduce the risk of damage through the remainder of 
this hurricane season as well as the rainy season this winter. 
Our goal is to repair the levee system to the authorized design 
level prior to the start of the next hurricane season in June.
    We are also actively gathering data and employing lessons 
from the recent storms and have begun an assessment of the 
existing storm damage reduction system. Furthermore, the Chief 
of Engineers has commissioned an interagency performance 
evaluation task force to conduct the engineering evaluation. 
This team includes engineers and scientists from our 
engineering research and development center, as well as other 
Federal agencies such as the Bureau of Reclamation and NOAA.
    The American Society of Civil Engineers is also supporting 
our efforts with an external review panel and will provide an 
independent oversight of the evaluation.
    Before the final team report is released in June of next 
year, all important findings are being shared with those who 
are involved in the design, engineering and repair of existing 
New Orleans levees and floodwalls. Further, we are making all 
of our findings available to the public and invite the public 
and the scientific and engineering community to share any 
information they may have.
    As Mr. Dunlop referred to the process of evaluating the 
flood and storm damage reduction system in the New Orleans 
area, we are deliberately integrating the important role of 
coastal wetlands. The proposed near term aquatic ecosystem 
restoration plans for the Louisiana coastal area would prevent 
some of the ongoing wetland losses, create new marshlands and 
nourish existing marshes.
    To close, the corps stands ready to work in close 
partnership with the States of Louisiana, Mississippi, the city 
of New Orleans and other Gulf Coast cities to assist them in an 
integrated, holistic approach to plan for their future. Again, 
I appreciate the opportunity to testify and I will be happy to 
answer any questions.
    Senator Vitter. Thank you, General.
    Ms. Mittal.

   STATEMENT OF ANU MITTAL, DIRECTOR, NATURAL RESOURCES AND 
        ENVIRONMENT, U.S. GENERAL ACCOUNTABILITY OFFICE

    Ms. Mittal. Mr. Chairman and members of the committee, my 
testimony today will cover the history, status and funding of 
the Army Corps of Engineers Lake Pontchartrain hurricane 
protection project. Hopefully my statement will clarify some of 
the confusion that Senator Inhofe referred to earlier.
    The beginnings of the Lake Pontchartrain project go all the 
way back to the early 1960's. At that time, the corps was 
considering two different hurricane protection designs that 
were expected to protect New Orleans from flooding caused by a 
standard project hurricane, which is roughly equal to a fast-
moving category 3 hurricane.
    The first design considered was known as the Barrier Plan, 
and included a series of levees and floodwalls combined with a 
set of barriers and flood control gates to prevent storm surges 
from entering Lake Pontchartrain. The second was known as the 
high level plan, and did not include the barriers and flood 
control gates, but instead relied on higher levees to protect 
the city.
    In the 1960's, the corps favored the Barrier Plan, because 
for the same level of protection, it was less expensive and 
quicker to construct. At that time, it was estimated that the 
Barrier Plan would cost about $85 million and would be 
completed by 1978. The project was authorized by Congress in 
1965 as a joint Federal, State and local project, with the 
corps having responsibility for project design and construction 
and local sponsors having responsibility for operations and 
maintenance. The Federal share of project costs was set at 70 
percent, and the State and local share was set at 30 percent.
    The corps started building the Barrier Plan in 1967, but 
almost immediately ran into a variety of challenges that caused 
the project to undergo significant design changes, caused 
delays in construction and also increased project costs. 
Specifically, lessons learned from Hurricane Betsy in 1965 and 
foundation problems encountered during construction resulted in 
design changes to the levees and the flood walls.
    In addition, parts of the project faced significant 
opposition from local sponsors, and they did not provide the 
rights of way that the corps needed to build the levees on 
schedule.
    Finally, there were serious concerns relating to the 
environmental impacts of the control barriers that were to be 
constructed at the tidal passes to the lake. This ultimately 
resulted in a legal challenge, and in 1977, the courts enjoined 
the corps from constructing the barrier complexes until a 
revised environmental impact statement could be prepared.
    After the court decision, in the mid-1980's, for several 
reasons the corps decided to change course and abandoned the 
Barrier Plan and shifted instead to constructing the High Level 
Plan. Since that time, the corps has been working to complete 
these higher levees and floodwalls. The total cost of the 
project had grown to $738 million and its completion date had 
slipped to 2015, which is nearly 50 years after it was first 
authorized. Before the Katrina damage occurred, the corps 
estimated that the project was about 60 to 90 percent complete.
    With regard to funding provided for the project, over the 
last 10 fiscal years, Federal appropriations have totaled over 
$128 million. Also through reprogramming actions, the corps has 
made an additional $13 million available for the project. 
Nonetheless, according to the corps, the budget request for 
fiscal years 2005 and 2006 and the appropriated amount for 
fiscal years 2005 were insufficient to fund new construction 
contracts.
    In recent years, questions have also been raised about the 
ability for the project to withstand hurricanes larger than 
what it was designed for. In 2002, the corps completed a pre-
feasibility study and was making plans to conduct a full 
feasibility study, which it estimated would take several years 
and cost over $8 million.
    In conclusion, Mr. Chairman, the corps faces a daunting 
challenge to effectively rebuild the hurricane protection 
system for New Orleans to pre-Katrina levels by June 2006, 
which as you know is when the next hurricane season will begin. 
This is especially true now that we know from the preliminary 
reports of the investigative teams who are studying the levee 
breaches that a number of mechanisms, and not just scouring 
caused by overtopping the flood walls, actually contributed to 
system failure in various places.
    As the corps moves forward with its efforts, it will have 
to consider this new evidence and will have to devise effective 
solutions that will allow it to appropriately rebuild the 
hurricane protection system for New Orleans.
    That concludes my prepared statement. I would be happy to 
answer any questions.
    Senator Vitter. Thank you very much, Ms. Mittal.
    Now we will get to questions in the order that Senators 
have arrived for the hearing. I will start first. This is 
really for either Mr. Dunlop or General Riley.
    I am very, very concerned that we are in the process of 
slipping back to the same old ways and the same old schedules, 
even after this major disaster. I hope we all share the goal of 
avoiding that, because that's simply not good enough. An 
example of that concern is the forensic analysis and other 
study about what caused the levee breaches after Katrina.
    As I understand your testimony, Mr. Dunlop, that analysis 
will be completed in 8 months. That's about exactly the same 
period of time that the work to fix the levees and correct for 
those design and/or construction flaws must be completed.
    Does that strike you as not making a whole lot of sense, to 
have a time table to figure out what went wrong that ends at 
the same time as all the work to fix it must end?
    Mr. Dunlop. Thank you, Senator, that is an excellent point. 
But in fact, I think that it is not inconsistent. The nature of 
the forensic study and the way that I explained about how it is 
going to be peer reviewed for the National Academies of 
Science, including the Academy of Engineering and all these 
other people, in 8 months there will be a definitive, 
comprehensive, reliable analysis available for the public, for 
Congress and others to consider.
    In the interim, while that study is ongoing, there are all 
kinds of people who are collecting information. I addressed 
some of those in my remarks, particularly as General Riley has 
gone into some detail about the interagency performance review 
team. That work is underway right now as we speak.
    As they work at this, if I can use the acronym IPET, the 
team that the corps has assembled with the interagency people, 
the work for the American Society of Civil Engineers that is 
contributing to that data collection, as that work is going on 
collecting this information, and that is, as we speak now, the 
teams are being put together by the National Academies of 
Science to assess these things, all that information is being 
able to be used by the people who are engineering this work, 
who are out there now with construction equipment mobilizing 
people and resources to do the tasks.
    So the concept of the forensic study, I emphasize the word 
definitive in my remarks because I think that we owe the 
Congress and we owe the American people a report that will be 
comprehensive and definitive. In the meantime, we will 
undertake the interim information, and we have provided for in 
our contract with the National Academies of Science that there 
will be regular reports as they are assessing information and 
data that would be used by the engineers and the people that 
the Corps of Engineers contracts with to do the work.
    General Riley, could you address some of the particular and 
specific activities that are now underway that Senator----
    Senator Vitter. If I could, the time is limited, so if I 
could just follow up on that. I guess I just respectfully 
disagree. If the work has to be done by next June, and I think 
that in itself should be pushed up in some ways, if the work 
has to be done by next June, I think we should have the 
definitive findings well before that. I don't understand why 
that's not possible.
    But in any case, since this development of understanding is 
ongoing, as we sit here today, what is your and the General's 
understanding of what caused the breaches at the 17th Street 
Canal, at London Avenue and at the Industrial Canal?
    Mr. Dunlop. General, I will let you respond to that, but do 
let me say that if we could share with you the details of the 
commission to the IPET, you will see that the comprehensive 
nature of that data collection could not reasonably be done in 
a definitive way before this 8-month period.
    Nevertheless, General, would you address the point?
    General Riley. Yes, Mr. Chairman, if I could. My 
understanding, and what I observed out there on the ground of 
the Inner Harbor Canal was clearly an overtopping. The surge 
there was a great surge. There are questions now where that 
surge came from, whether directly from Lake Borgne, how much 
the Mississippi River Gulf Outlet contributed to that, and how 
much was contributed from Lake Pontchartrain.
    So that's what the study will definitively analyze for us. 
In the interim, we are rebuilding those levees to design 
levels. So in some cases on the back side of St. Bernard Parish 
where the levees were not up to design level, our goal is to 
get those back up to design level.
    On the 17th Street Canal, clearly there is evidence of 
under-seepage as well as a soft layer under there. So what we 
have done as part of the data collecting effort, once they 
found that, is to now take the repair of the pile driving down 
to 45 feet vice the 25 feet where they were previously.
    The second thing we will do, that we have already pulled in 
from that effort that is ongoing, is acknowledging that there 
may be other locations on the 17th Street or London Canal that 
are not up to design standards, because there may be something 
on the ground that we do not now see. So we will close off the 
lake, and the canals from the lake in order to prevent any 
other storm surge.
    What the research effort that Mr. Dunlop described will 
also do is both numeric and physical modeling of those canals. 
So that will give us a better idea as we move to improve levels 
of protection later on. But in the interim, we will take steps 
to protect----
    Senator Vitter. What about London Avenue?
    General Riley [continuing]. Sir, I don't have much data on 
that myself. I know it clearly was a breach and involved some 
deep scouring that I saw and observed. I don't have the data 
from that, or any assessment now if there is an underlying 
layer of peat under there that also caused that.
    Senator Vitter. Going back to the 17th Street Canal, is 
there any significant evidence you have seen of overtopping?
    General Riley. No, sir. I have looked at the canal myself, 
and I have looked at multiple photographs. I have seen some of 
the interim reports that the American Society of Civil 
Engineers have given us. They saw no evidence of overtopping. 
The typical scour that you see behind the floodwalls, I have 
looked at a ton of photographs and have not seen that.
    Senator Vitter. So just to be clear, that would suggest a 
pure failure in terms of that system holding up?
    General Riley. That is exactly what we are interested in 
finding out, what caused the breach, if it was that under-
seepage.
    What this effort will also tell us is, you had a certain 
design level, but what were the storm conditions? Were the 
storm conditions above? It is just not the water level, but you 
had a tremendous dynamic effort in the canal of the water 
action. So was it designed for that, I don't know. That's what 
we need to find out.
    Senator Vitter. Certainly, to use layman's terms, the 
general design level has always been described as category 3. 
Certainly to my knowledge, there is no evidence that by the 
time the storm hit there that it was above category 3. Do you 
know of any such evidence?
    General Riley. Yes, sir. They are already seeing some of 
the conditions in it. It really wasn't a category 3 design, 
although it has been described as that. So you are right to 
say, the description of that. The surge was, the standard 
project hurricane it was designed against sort of varies 
between a 2, 3 and 4, depending on whether you're looking at 
surge, wind or barometric pressure.
    As a result of the conditions inside the canal and inside 
the lake, you already had the storm and the surge waters 
already pushed into the lake from the category 4 and 5 storm 
that preceded. By the time it got up there to category 3, it 
was pushing that 4 and 5 surge down into the city at 125 mile 
an hour wind speeds.
    So I have asked the evaluation team to tell me exactly what 
went on in the canal, did it exceed or was it under design 
condition. So we just don't know at this point.
    Senator Vitter. OK. I certainly have more follow-up 
questions. But we will do that in the next round. Now I will 
turn to Senator Jeffords.
    Senator Jeffords. General Riley, at our stakeholders 
meeting, and in the written testimony for today's hearings, one 
common theme is that the actions we take after Hurricane 
Katrina with regard to water resources need to be 
comprehensive. They need to involve flood control, ecosystem 
restoration, and navigation.
    the corps' traditional process is not set up that way. Can 
you describe what your plans are to respond to this desire to 
develop a comprehensive approach and if there are any barriers 
that Congress needs to remove to allow this to happen?
    General Riley. Yes, sir, and thank you for that very good 
question. We have had in our civil works planning and our civil 
works strategy a great effort to move toward a more holistic 
watershed approach. In the particular case of New Orleans, we 
are working with the State and local agencies and the Federal 
agencies to bring in all the appropriate agencies to look 
across the system, not to just look at flood control for one 
area.
    So clearly the inclusion of wetlands restoration is a very, 
very important aspect of this, as well as how it ties in to the 
impact of navigation on the flood control system and the 
hurricane protection system. Within the corps, we have made a 
lot of changes in our planning processes over the last couple 
of years to move toward that approach. We have issued planning 
circulars, engineering circulars to describe a newer process of 
how to go about making it more holistic across a watershed 
view.
    Clearly, to your last question of how we could be helped, 
certainly in any legislation that authorizes a study or 
project, if that legislation described the need for a more 
integrated, holistic approach rather than just simply a project 
focus, I think that would be helpful.
    Senator Jeffords. The National Levee Safety Program, I 
would like to refer to that for a minute, General Riley. Given 
the corps' experience in Hurricane Katrina, can you tell us if 
you feel that the Federal Government should do more to ensure 
the safety of our Nation's levee program? For example, should 
safety standards and an inspection regime be established?
    General Riley. Sir, I think there is an inspection regime. 
There is not quite, for local levees, the corps or the Federal 
Government doesn't participate in the inspection regime. I 
cannot talk to that.
    But clearly, I think it would be helpful for Congress and 
the Administration to look at certain standards for urban areas 
vice agricultural areas vice other areas. It seems appropriate 
to me. That is worth discussion.
    Senator Jeffords. Mr. Chairman, I am disappointed that I 
have to bring this up. However, I believe that the claims that 
the environmental litigation is somehow responsible for 
flooding in New Orleans I think are false and distract from 
what I believe is the real purpose here, to use water resource 
investments as a positive tool in the rebuilding of the New 
Orleans area.
    Ms. Mittal, I note that in the GAO's earlier work, the 
canal levees were identified as a critical element that 
``should have been considered earlier.'' There also appear to 
be have been some disagreements with the local sponsors on how 
to proceed.
    Is it critical that we know what happened with the failure 
of the canal levees before making judgments about what levels 
and types of flood control should be provided through the 
system?
    Ms. Mittal. My response to that, sir, is that you are 
right. the corps knew as early as 1965 that the drainage canals 
were a vulnerable spot in the whole system. In fact, the 
drainage canal work was not included in the original design of 
the system. It was something that was added on later.
    For the first 17 years, while the corps was working on 
enhancing or building the hurricane protection system, they 
could not reach agreement with the local sponsors on how to 
enhance the protection along the drainage canals. In fact, 
based on the records that we have seen, it was not until the 
early 1990's that the corps was able to reach agreement with 
the local sponsors on how to build the extra protection along 
the drainage canals.
    So that is a very important issue and as General Riley 
suggested, it is something that needs to be studied in terms of 
why did the canals fail, why did the flood walls on the canals 
fail and what factors did they consider when they developed 
that design system.
    Senator Jeffords. General Riley, the USGS has reported 
extensive wetland losses post-Katrina. Shouldn't the corps 
reevaluate its recommendations for restoration of coastal 
Louisiana in terms of their feasibility given these wetland 
losses?
    General Riley. Sir, I think there will be a continual 
evaluation of that. Clearly there have been losses before the 
storm and certainly additional losses. So I think in the 
coastal Louisiana effort that is going on right now, we will 
include all of that and incorporate it to ensure that we have 
an approach across the entire wetlands system and how much that 
contributes to storm damage reduction.
    Senator Jeffords. Thank you. Thank you, Mr. Chairman.
    Senator Vitter. Thank you, Senator.
    Senator Carper.
    Senator Carper. Thank you, Senator, and thanks to our 
witnesses for joining us today and for your testimony.
    This is one of an ongoing series of Katrina-related 
hearings that I have been privileged to participate in. I am 
leaving here shortly to go to yet another one. Let me just ask, 
what questions have you been asked to answer in your testimony 
today?
    Mr. Dunlop. Well, we've been asked to consider whether or 
not the forensic study that we believe is necessary to lay the 
foundation for all of our considerations of these things 
whether it is realistic to expect that this report in 8 months 
would be useful or is it going to be too late, is it going to 
be a day late and a dollar short.
    The response we gave to that is that, no, it is a good 
point made, but no, we have designed this in a way that we 
think the information can be used. That was the principal 
question directed to me. Then General Riley was asked some 
specific questions.
    Senator Carper. General Riley?
    General Riley. Yes, Senator. We were asked to address how 
we see ourselves working with the Federal and State and local 
agencies to move forward in an integrated and holistic fashion 
to meet the water resources needs of the hurricane damaged 
areas.
    Senator Carper. So that was the question?
    General Riley. That was the guidance we received from the 
committee staff.
    Senator Carper. Summarize again your response then to that.
    General Riley. Yes, Senator, if I may. What we are doing in 
many venues across the corps, both in Washington and at the 
division regional level as well as at local levels, working 
with the State and local and all the Federal agencies. We work 
closely with FEMA and all the agencies in the FEMA response and 
we also have our own authorities under flood control and 
hurricane protection as well as navigation.
    For instance, if I may use an example, this week, just the 
last 2 days, Governor Blanco and Admiral Allen hosted a 2-day 
town hall meeting with all the Federal agencies, the State 
agencies and the parish presidents. That ended last night, so I 
don't have the feedback from the parish presidents on what the 
end result was. They were going to give the Federal and State 
agencies what their highest priorities were.
    Second, I am flying this afternoon, Governor Blanco is 
hosting a reconstruction and rebuilding conference beginning 
tomorrow morning for 3 days where she is bringing in all the 
Federal agencies and State and local agencies to participate, 
not only in large discussions but in work group discussions to 
come out of that with, here are the priorities of the State and 
local interests and sort of here's how the Federal Government 
can help.
    So those are two examples of efforts ongoing right now as 
we work in this integrated approach with the State and local 
Governments. We can bring everything we can to bear, but we 
can't of course do anything, to direct how they want to 
rebuild. But we provide all the technical assistance we 
possibly can to do that, and working with the Federal agencies 
as well.
    Senator Carper. Would you pronounce your last name for me, 
please?
    Ms. Mittal. Mittal.
    Senator Carper. Has your name ever been mispronounced?
    Ms. Mittal. All the time, sir. No problem.
    Senator Carper. I will try not to do it.
    Ms. Mittal, what were you asked to share with us today?
    Ms. Mittal. Our focus was primarily to provide a history of 
the project. Since the work that GAO did was in 1976 and 1982, 
we looked at the project very thoroughly at those times. We did 
comprehensive reviews of the project and we were asked to 
provide a history of the project.
    Senator Carper. Summarize that again. I realize we only 
have a couple of minutes, but just take a couple of minutes and 
in your own words just summarize the history.
    Ms. Mittal. Basically this project has been ongoing for the 
last 40 years. It has been delayed for a variety of reasons, 
both technical as well as for challenges and local sponsor 
issues. It has been expanded and changed over time.
    Senator Carper. Has it been delayed from time to time 
because of lack of funds?
    Ms. Mittal. No. Lack of funding has generally not been a 
problem. It has always been a high priority project for the 
district. But it has changed. There have been technical 
changes, there have been other modifications made to the 
project which have delayed its construction. It is still not 
complete.
    Senator Carper. OK. If you were sitting in our shoes, let 
me just start with you, Mr. Dunlop, if you were sitting in our 
shoes, what would you be doing next?
    Mr. Dunlop. Well, sir, we believe that the most important 
thing for us to undertake in the immediate future is to use the 
authorities we have, the emergency authorities we have under 
law to use funds to undertake the immediate restoration of this 
activity. I think that this hearing itself is a significant 
function of the committee, because you are providing oversight 
to make sure that we are using good judgment and it is well 
considered and it is defensible.
    So the most important thing you can do, I believe, right 
now is exactly what you are doing, and that's conducting this 
kind of oversight. The other committees of the Congress that 
provide appropriations have done so. We have made some 
additional requests in the Administration to have some of those 
funds reallocated to ecosystem restoration activity right away. 
That would be very, very helpful for us to have enacted by the 
Congress at the earliest possible time, that is that 
reallocation.
    But I guess in summary the oversight function right now is 
probably the most definitive and effective thing you could do.
    Senator Carper. General Riley, same question.
    General Riley. Yes, Senator. Thank you for the question. I 
guess I have never been asked to advise Congress, but certainly 
I think----
    Senator Carper. People do it all the time.
    General Riley [continuing]. Yes. In any legislation, sir, 
that you consider, I think both the need not only to expedite 
the work but also to integrate the work with all the other 
State, local and Federal Agency work I think would be very 
helpful to us.
    Senator Carper. Ms. Mittal, last word.
    Ms. Mittal. I think you need to look at it from a 
comprehensive standpoint. Engineering solutions may not be the 
best solutions for the city of New Orleans. We should look at a 
comprehensive project that includes wetlands restoration, 
ecosystem restoration and whatever feasible engineering 
solutions make sense.
    Senator Carper. Good. My thanks to each of you. Thanks very 
much.
    Senator Vitter. Thank you, Senator.
    Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman.
    I ask unanimous consent that my opening statement be 
submitted for the record.
    Senator Vitter. Without objection.
    Senator Clinton. Mr. Chairman, I really appreciate your 
comments at the beginning and then the follow-up questions by 
my colleagues, because I do think that we are confronting a 
dilemma here. On the one hand, restoration in the short-term is 
an important goal in order to expedite the normalization of New 
Orleans and the surrounding parishes. On the other hand, it is 
going to take 8 months, apparently, to get the results of these 
studies. So it is sort of difficult to know how to proceed in 
the absence of that kind of factual analysis.
    There are many questions that I have based mostly on press 
reports of what the various civil engineering and other 
scientific experts are concluding, in a preliminary manner. I 
think Senator Carper's point is a really important one. The 
Congress is not in a position to integrate and create the 
comprehensive planning process. Somebody has to be in charge of 
that. I don't yet know who that is. I don't know the 
conferences you are going to, the advice you are getting, the 
direction you are receiving. At what point does the rubber hit 
the road and somebody says, this is what we are going to do and 
this is how we are going to go about doing it?
    For example, there has been a lot of discussion about the 
Mississippi River Gulf Outlet. It has very little navigation on 
it, and many people have urged that it be closed. I don't know 
whether that's the right thing to do, but who in this process 
is empowered to make that decision?
    I have a special feeling for what Senator Vitter and 
Senator Landrieu and the other people from Louisiana are going 
through, because they are doing the best job they can up here 
trying to figure out how to get the help that their folks need. 
But I honestly don't know where you turn. I don't know who's in 
charge.
    So I guess I would ask each of you, starting with Mr. 
Dunlop, who is making the decisions on this? Let's just take 
the example of the Mississippi River Gulf Outlet. Who might 
decide ultimately that it should remain open even though it has 
very little navigation, has never fulfilled its promise, or 
conclude that this was a mistake and it has served as a 
supercharged channel through which a lot of water can come and 
cause damage? I know the St. Bernard Parish Council in 1998 
said, close this, it's not a good deal.
    So Mr. Dunlop, who would make the decisions ultimately 
about what is going to happen here with respect to all the 
engineering issues?
    Mr. Dunlop. Senator Clinton, your question is really right 
on the mark and it really hits at one of the key policy 
concerns that all of us would have about how we proceed on 
these things, so I am delighted that you have raised that 
point.
    The normal way, the conventional way in which the Corps of 
Engineers receives its funds for projects and activities is 
through a complicated and lengthy process that involves 
reconnaissance studies that have to be authorized and 
feasibility studies that have to be authorized and funded, and 
then once those are done after several years, then other things 
that generally stretch out construction of projects as we have 
heard, 30, 40 years, 11 years is standard for a Corps project. 
This comes because of the way in which the corps receives its 
funding and its authority for a project.
    What we have asked for as an interim step in the coastal 
restoration aspect of things, we've asked for the Congress to 
consider giving us more programmatic or generic authority. A 
lot of the science, a lot of the engineering is developing, a 
lot of the state-of-the-art stuff and things, how these things 
interact, the consequences of doing this here, what will be the 
consequences over there that are not now known. In the Corps of 
Engineers we call that adaptive management.
    So if we could get authorities from the committee and 
appropriations in no-year funds so that instead of having to do 
one thing in a non-integrated way that we could use adaptive 
management to go along and make changes and modify these things 
as we learn new information.
    Very specifically, as I mentioned previously and as General 
Riley mentioned also, but we have this request for reallocation 
of $250 million to be able to allow the Secretary of the Army 
to make decisions, to go to construction, that is the term they 
use when they talk about doing stuff, going into construction, 
for some ecosystem restoration stuff that would be over and 
above and beyond anything that is in the overall comprehensive 
Louisiana coastal restoration program that we've got.
    So if we could get that kind of programmatic, generic 
authority, the Secretary of the Army would take that 
responsibility about when he has sufficient information that he 
would have to defend before this Congress to go to construction 
for a particular activity. That would be the most helpful thing 
right now.
    Senator Clinton. General Riley.
    General Riley. Yes, ma'am, and thank you for the question. 
If I may give you our perspective on that, Congress of course 
did authorize the opening of that canal and they will have to 
authorize the closure of it. In the process of doing that, we 
have been asked to study a couple of different aspects of the 
Mississippi River Gulf Outlet, both environmentally and the 
economic analysis of that to see if it is still economically 
viable.
    Once that is complete, and that is done with public comment 
and State and Agency review, Federal Agency review, then we 
bring that to the Chief of Engineers, he would issue a report 
to the Secretary of the Army, Secretary Woodley, Assistant 
Secretary of the Army for Civil Works, who would then, after he 
is satisfied, present that to Congress for a decision.
    So that is the process. That is how we bring in all the 
different agencies and the public involved in that, including 
the NEPA process and environmental impact statement. So that is 
sort of the in-charge piece of how that would work.
    Senator Clinton. Ms. Mittal, do you have any comments? I 
was very impressed by your report, which I thought was very 
thorough, easy to follow, 40 years of history in an abbreviated 
summary form. It was very helpful. Do you have any concluding 
thoughts?
    Ms. Mittal. The one thing we have heard experts say is that 
we need to move to a watershed approach for managing our 
Country. Instead of going from a piecemeal approach, like this 
is a navigation project, this is a flood control project and 
this is an ecosystem restoration project, we really need to 
start thinking in terms of watershed management. I think that 
if we start moving in that direction, both from a congressional 
perspective as well as from a leadership perspective at the 
corps, you could start seeing some of the issues and concerns 
that you raised being addressed.
    Senator Clinton. Mr. Chairman, I know my time is up. Some 
of the witnesses we will hear in the next panels make 
recommendations about the Congress acting quickly to require 
the development of a comprehensive plan that would be developed 
by a team. Obviously the corps would be involved, but outside 
experts and others would be involved as well. It could be led 
by an independent commission appointed by the President.
    I think that this has immediate impact for the Mississippi 
River Gulf Coast. But it has broader implications for much of 
the rest of the Country, where we are facing not the level of 
disaster that you have experienced but certainly a lot of 
problems that are in the making. They are either already 
happening or we predict them to, as many people predicted that 
the levees wouldn't hold in New Orleans.
    So I feel like we are, and I agree with Mr. Dunlop, we kind 
of go in a piecemeal by piecemeal basis, project by project 
basis. I just don't know if that's adequate to the task that 
these witnesses have presented to us. So thank you very much, 
Mr. Chairman.
    Senator Vitter. Thank you, Senator. I would put it 
stronger, I think it's very clearly inadequate, given the last 
several months. I would urge all of us to at a minimum 
authorize an integrated, comprehensive structure like you are 
describing for this immediate are, at least as a pilot to 
possibly broaden in the future. But to me it is a no-brainer 
that we need it in a pretty streamlined, quick way for this 
activity.
    By the way, to address your question specifically about 
MRGO, I already have a provision in WRDA that would, because 
Congress does need to act ultimately to close MRGO, we 
authorized it, we have to de-authorize it, it would mandate for 
the corps to come up with a closure plan by a date certain 
within 1-year. It would give the corps authority without even 
future action by Congress to implement that plan. I hope we can 
move forward with that in WRDA.
    We can have a second round of questions, because certainly 
I feel like I just scratched the surface.
    In terms of the ongoing sort of emergency work that's going 
on now specifically on the 17th Street Canal and the Industrial 
Canal, where we are rebuilding to a different design because 
the prior design was pretty clearly inadequate, are we building 
the whole canal to that new and different design?
    General Riley. Senator, if I may, we will build it to the 
design levels. So where we find in this investigation that what 
we see on the surface was undamaged, if we find something 
subsurface that needs repair, we need to go ahead and do that.
    Now, we don't have a cost figure on that yet.
    Senator Vitter. What I'm asking is, for instance, on the 
17th Street Canal, you're going down what, 40 plus feet?
    General Riley. Yes, sir.
    Senator Vitter. Instead of 20. Are we doing that for the 
whole length of the canal, both sides?
    General Riley. No, sir, we will only do that where we find 
that soft peat layer underneath there. Apparently that is 
fairly localized from the data I have read. So when we complete 
all the data acquisition, then we can determine the full extent 
of the damage. But we are actively seeking that, and that is a 
major concern of ours, that we don't just repair one piece and 
have the next on both sides of it that are weaker.
    Senator Vitter. How broad-based or localized is that peat 
layer you are talking about?
    General Riley. From what I read, I don't have all the 
details but I understand it is pretty much around the area that 
failed. So up to 300, 400 feet. From reports I have read of 
boring data that they have, it was fairly localized, and the 
rest of the canal did not have that problem that they saw right 
there.
    Senator Vitter. That surprises me. Why would you expect it 
to be particularly localized?
    General Riley. I think that's what the borings are finding, 
the underground borings that they are looking through in the 
old research. Our study will go further to determine the full 
extent of that.
    Senator Vitter. What about the Industrial Canal? Where is 
that new design which is a dramatically different design being 
implemented?
    General Riley. Sir, I don't know of any dramatically new 
design on the Industrial Canal. It was clearly an overtopping 
there. So they've got the challenge to determine again what 
were the exact storm conditions. But what we are authorized to 
bring it to, clearly, is the design----
    Senator Vitter. I was there Sunday and at least for the 
breach area, they are implementing a dramatically new design 
which is an inverted T wall going down much deeper than ever 
before with angled supports under the T. That's very different. 
So what I'm asking is, where is that new design being built? 
All along the length of the canal on both sides or not?
    General Riley [continuing]. I do not have those specifics. 
I would have to get back to you on that.
    Senator Vitter. OK, if you could. My concern obviously is 
that we do the new design only where it breached and it was 
pretty accidental that it breached in point A and not in point 
B or point C. So that by next June, in fact, all those other 
points are going to be basically just as vulnerable as point A 
was right before Katrina.
    General Riley. We have the exact same concern, yes, sir.
    Senator Vitter. That flows into the next question, which is 
what is your definition of pre-Katrina levels?
    General Riley. Sir, what we want to do is bring it to 
design levels. So even pre-Katrina, where there are certain 
areas that weren't to design level, they had either subsided 
and they needed another lift, our goal is to bring those all up 
to a proper design level. So even a little bit more than pre-
Katrina in some cases, in some breaches of the levees.
    Senator Vitter. So you would include in that building back 
up what has fallen from subsidence?
    General Riley. Yes, sir, absolutely. So certainly clearly 
in the repaired areas, the Public Law 84-99 is very clear in 
flood control that you bring that back up to design level, 
which was above where it has subsided to.
    Senator Vitter. In a whole lot of areas, that is going to 
be several feet above where I was?
    General Riley. Yes, sir, I agree.
    Senator Vitter. Now, let's take a next step. When that 
system was originally designed, a lot of things were different, 
including the wetland buffer outside the system. Are you going 
to take that into account and buildup to the true protection 
that was supposed to be which it no longer offers because of 
those changes?
    General Riley. Sir, we need to take all that into account. 
We are not there yet, though. We don't have that level of 
detail.
    What we have now is the level of detail of the design that 
it was before the storm. So what you are talking about is a 
design after the storm as a result of that. We don't have that, 
but it is clearly necessary to do.
    Senator Vitter. But will you have that and do it by next 
June?
    General Riley. Sir, I don't know. On that one, I really 
haven't given that much thought on the impact of loss of 
wetlands and what we can do because of that before June of next 
year.
    Senator Vitter. Well, it's a pretty major question if you 
all can get back to me. It seems to me you have present 
authority to do that, because that is not going beyond the 
original mandate of the system. It is updating the system to 
that original mandate.
    Mr. Dunlop.
    Mr. Dunlop. Yes, sir, if I could address that. I don't mean 
to be a Johnny one-note, but you know, I have mentioned three 
times the $250 million reallocation specifically to attend to 
those kinds of things. It might be of interest to you, if you 
would indulge me showing you some photographs that I'm sure you 
might have already seen, sir.
    Here's an example of what you are talking about. Here is a 
photograph of a wetland area near Fort Pike. This area that you 
can see in green is where there is vegetation. The darker area 
is where the storm scoured away the vegetation. We would 
probably use some of that $250 million to go into and get some 
sediment on top of this before it, or in places like this, if 
not this particular place, this is all over the coast where you 
have had the scouring, where we could prevent this from turning 
into open water, which would address the kind of thing you are 
talking about.
    Senator Vitter. Would you also use some of that money to 
upgrade the system to take into account 30 years of that sort 
of activity?
    Mr. Dunlop. Yes, sir, I would think that the $250 million 
that I'm referring to isn't the additional $1.6 billion to tend 
to the structures and levees and things. But specifically to 
the coastal wetlands.
    Another example, and I don't mean to over-speak, but here 
are some barrier islands before. Some of that $250 million 
might be used in certain areas to fix some of these barrier 
islands. It would be maybe a little bit of a drop in the 
bucket.
    Senator Vitter. Just to be clear, you agree you have the 
authority to do that if we can get you the money?
    Mr. Dunlop. Well----
    Senator Vitter. I think that's what you just told me.
    Mr. Dunlop [continuing]. If we get the money----
    Senator Vitter. You said if we get the money, this is what 
we are going to do.
    Mr. Dunlop [continuing]. If we get the money in the 
appropriations reallocation, I think there is a standard 
assumption that those funds would be de facto then authorized 
to be used for that purpose. Because the nature of the request 
says that the Secretary of the Army could use these funds to do 
these kinds of things.
    Now, specifically doing this, or here's another example 
that might address your question specifically, there is a 
structure at Canaravan, which is north of New Orleans. It is a 
flood control structure. It is authorized by Congress to move 
water into this area here where you see the green in the event 
of a flood. It is not authorized by Congress to move sediment. 
That is how granular we get in some of these authorizations.
    So what we would do is use some of that $250 million to go 
in and you can see that before, the green was where there was 
vegetation, the blue is now where it's open water. We believe 
that if we could begin to take actions now with some of that 
$250 million, we could rescue this back to where maybe we could 
get this vegetation back if we could move some sediments and 
things like that in.
    Specifically, we are not authorized under current uses of 
the Canaravan structure to move sediment. But we believe if we 
got an appropriation of the sort I have talked about, the 
reallocation of existing appropriations, and it was done in the 
fashion that we have asked, making the money available to the 
Secretary to use it for these funds, we could do this kind of 
thing.
    Senator Vitter. OK. Final question, because I am way over 
my time, I want to get to Senator Jeffords, will you do the 
same thing if we get you the money with regard to upgrading the 
levee protection system to its original design grade, given the 
degradation of wetlands and other things in the last 30 years?
    Mr. Dunlop. I think General Riley's testimony is to the 
extent that we have information and data that would inform 
that, that would certainly be our intentions.
    Senator Vitter. Senator Jeffords.
    Senator Jeffords. General Riley and Mr. Dunlop, can you 
comment on the degree to which having a dedicated revenue 
source for Louisiana flood protection would affect your ability 
to complete a comprehensive project in a timely manner?
    General Riley. Sir, I guess your question goes to dedicated 
and appropriation. I am not sure if we need a dedicated 
appropriation. Clearly we've got some authorities now, we are 
looking for other authorities in the coastal Louisiana 
hurricane protection system for those areas. I guess that would 
be the extent of dedication. I am not sure if I am getting to 
your question or not, though, Senator.
    Senator Jeffords. Well, let us work together on that and 
make sure you get what you need.
    General Riley. Yes, sir, thank you.
    Senator Jeffords. Ms. Mittal, it is worth noting that the 
Barrier Plan experienced significant local opposition at the 
time documented in part by an informal poll conducted by 
Congressman Livingston, which showed that 62 percent of New 
Orleans residents either opposed the barrier or wanted to wait 
to construct it until studies were completed.
    I ask unanimous consent to submit for the record a complete 
record of the House hearing discussing these issues.
    [The referenced material was not submitted at the time of 
print.]
    Senator Jeffords. Ms. Mittal, can you describe what GAO 
found out as to the reasons for the corps' abandoning the 
Barrier Plan?
    Ms. Mittal. After the court order that enjoined the corps 
from constructing the barrier part of the Barrier Plan, until 
they prepared a revised environmental impact statement, the 
corps considered several things. One was how much time it would 
take to complete the environmental impact studies that would be 
necessary to address the court's concerns. What they told us at 
that time was that they did not have the in-house expertise to 
conduct those studies, and that in order to complete the 
environmental impact studies, it would take a lot of resources 
and a lot of time.
    The other issue was, as you just mentioned, the local 
opposition. This project is a joint partnership between the 
Federal Government and State and local sponsors. the corps 
takes into consideration the extent to which the local sponsors 
are supportive of the project as part of their decisionmaking. 
The local sponsors, as you just noted, were very much against 
building the barriers because of the effect, the detrimental 
effects that they believed that the barriers would have on the 
Lake Pontchartrain ecosystem.
    The third issue that the corps considered in the mid-1980's 
when it changed its decision was the cost of the plan. the 
corps usually goes with the most cost-effective plan. What they 
found was that because of the time it had taken to build the 
Barrier Plan, the Barrier Plan had increased in cost 
significantly. It had become nine times more expensive to build 
the Barrier Plan.
    And the High Level Plan was no longer the more expensive 
plan. It was actually the most cost-effective plan. So there 
were three factors. One was the environmental impact statement 
that they had to prepare, the second was the local opposition 
and the third was the cost-effectiveness of the High Level Plan 
versus the Barrier Plan. That was what caused the corps to 
change its decisions.
    Senator Jeffords. General Riley, the NAS report released 
today expresses some concern about the completeness of the 
corps' restoration plans for coastal Louisiana. I know the 
corps has completed more extensive analysis on a more 
comprehensive plan before the Administration insisted that it 
be scaled back. Can you describe the difference between the 
original, more comprehensive plan and what was proposed to 
Congress earlier this year?
    General Riley. Sir, I think as part of the planning 
process, we looked at the entire system across the coast and 
looked at comprehensively integrating all aspects of that. What 
the Administration said was, OK, you've got this overall 
conceptual blueprint, is really what it was, now let's propose 
to Congress what we can do now and quickly in the near term to 
move this project forward quickly.
    So I think that is the essential difference, take your 
large, comprehensive concept that you have and then what can 
you do and what can we offer to Congress to authorize and 
appropriate in the near term.
    Senator Jeffords. General Riley, I have a question that I 
have tried a couple of times to get an answer to regarding 
notification and emergency planning. I am going to ask it again 
as I believe that it has national implications for Corps flood 
control features. What process did the corps have in place 
prior to Katrina for providing notice and warning to Federal, 
State and local officials about the status of the levees before 
the storm arrived and after the levees failed?
    General Riley. Senator, from two aspects, first, we conduct 
annual inspections. We turn the levees over to the locals, so 
the locals operate and maintain the levees. We conduct annual 
inspections, they are out there daily and weekly maintaining 
the levees. We conduct a joint annual inspection with them and 
make those inspection results public.
    So that is a notification on the status of the levees pre-
storm.
    During the flood, again the local levee boards will all be 
along a flood levee observing and participating in 
communications. Of course, during a hurricane you can't do 
that, you have to evacuate. So in this case, in the particular 
case, instant case in New Orleans, they had the local citizens 
that were there on the ground that they called in to the State, 
I was in the State EOC, the local sheriff's department and the 
director of homeland security for the city called into the 
State.
    I was right there with the State sheriff, so there was 
immediate notification that went out post-levee breach of the 
levee breaches that went out through the city, through that 
system that they had with the available communications that we 
had. So we were there, Corps, FEMA, Federal agencies right 
there in the State emergency operations center where some 
initial reports came in and immediate notification went back 
out.
    Senator Jeffords. General Riley, as a follow-up question, 
was that process used effectively and have you made any changes 
as a result of Katrina, and have you applied these lessons 
learned to other flood control features such as the Waterbury 
Dam in Vermont, where thousands of people live minutes 
downstream?
    General Riley. One thing we clearly learned, I think all 
the Government agencies learned and locals, was the difficulty 
of communications when a massive storm comes in and you wipe 
out your cell phone network. Even our satellite phones, after 2 
days, had difficulty.
    So an improvement in our communications ability clearly is 
important for that kind of notification. Then in close 
conjunction, working with the local levee boards to make sure 
if they can get out on the levees to get out and watch them 
over time. In a hurricane, it is a different story, though, and 
you have to rely on people that are in bunkers and hurricane 
protected bunkers to get out and observe as soon as they can 
get out when the storm passes.
    Senator Jeffords. Thank you.
    Senator Vitter. Thank you. I just have a few follow-up 
questions before we go to the second panel.
    I am very happy to hear everybody talking about a new, 
integrated approach. I have been preaching this for a while, so 
I hope this is a developing consensus. It seems to me this is 
not going to happen unless we have a new and different 
structure to make all this happen. Is the Administration going 
to propose such a structure, such a fundamentally different 
structure to make sure this new, integrated approach happens on 
a more streamlined basis?
    Mr. Dunlop. Well, Mr. Chairman, I think what we are trying 
to do in the chief's report and the leadership that you 
yourself have provided in the Louisiana coastal area wetlands 
restoration program, we have tried to take that, the lessons 
that we learned from the Florida Everglades restoration 
activity, and we put together a system of partnerships with the 
State and other Federal agencies and other local entities to 
manage the way in which we are redoing the Florida Everglades.
    We tried to take those lessons learned and apply them to 
the Louisiana coastal area restoration activity. We believe 
that the legislation that you have passed from your committee 
and which is awaiting consideration in the Senate has a lot to 
commend to it as a mechanism to move forward on that front.
    As regarding the structures that we have been discussing, 
the levees and the storm protection structures, the process 
that we are taking now is, as I indicated in my testimony, part 
of what the White House has put together as a cabinet council 
coordination activity. We believe that with the existing 
authorities of different agencies of Government that we can 
effectively carry out those activities if we get appropriate 
authorizations and appropriations to undertake the work.
    Senator Vitter. All of that is way shy of what Senator 
Clinton and I were suggesting in terms of a different 
structure, a commission to have clear programmatic authority to 
get this done on a region-wide basis. Are you all, meaning the 
Administration, going to suggest such a new structure? Because 
it seems to me without that, talk of this new integrated 
approach means we go to a bunch of conferences and talk to a 
bunch of different agencies, and then day to day it devolves 
into the same fragmented way of doing things.
    Mr. Dunlop. Yes, sir, it could happen that way. I am sure 
you are correct. Although I do believe that if we take some of 
these programmatic approaches, my testimony would be that the 
Secretary of the Army, with appropriate oversight from 
Congress, of course, and all the rest, would be able to be most 
effective in executing those types of decisions to do those 
things without a new layer of bureaucracy and a new layer of 
Government.
    But ultimately that will be Congress' judgment to make, 
because we execute those laws that you enact. We do it 
faithfully, we trust.
    Senator Vitter. OK. Ms. Mittal, I want to ask this question 
for the chairman. He wanted your thoughts for the record on, 
was the GAO testimony before the House Appropriations Committee 
correct involving the choices between different hurricane 
protection plans in the past?
    Ms. Mittal. For the record, sir, when we prepared that 
statement, there was very little known about what actually 
caused the levee breaches. In the last 4 weeks, there has been 
a lot more information that has become available on what caused 
the levees to actually breach. When we prepared our statement 
today, we tried to incorporate that information, and therefore 
we revised the statement that we prepared in September.
    Senator Vitter. Again for the record, highlight the 
differences between what you are saying now versus that House 
testimony.
    Ms. Mittal. In the September testimony, we obtained some 
general information from the corps about funding levels and 
also construction status as well as some general opinions from 
Corps officials about what they believed had caused the 
breaches. We now know that there are many more reasons that 
resulted in the breaches and that's why we made the changes to 
our current statement.
    Senator Vitter. OK, Senator Isakson has arrived. Senator, 
do you have questions?
    Senator Isakson. I apologize for missing the testimony. I 
will save my questions for the second panel. Thank you for 
being here.
    Senator Vitter. Senator Jeffords?
    Senator Jeffords. Ms. Mittal, did the High Level Plan 
barriers fail?
    Ms. Mittal. The High Level Barriers on the lake side, 
according to the preliminary results, indicate that those 
actually performed very well after Hurricane Katrina. The part 
of the High Level Plan that failed would be along the drainage 
canals, and that I believe the corps is still in the process of 
investigating why those breaches occurred.
    But the parts of the High Level Plan that were along the 
lake front, those actually performed very well, according to 
preliminary results.
    Senator Jeffords. Thank you.
    Senator Vitter. Thank you all very much.
    Now we will have our second panel, if they will approach 
the witness table. As our next panel of witnesses approaches, I 
am going to go ahead and introduce them. We have Mr. Windell 
Curole, General Manager of the South Lafourche Levee District; 
Mr. Peter Brink, Senior Vice President for Programs with The 
National Trust for Historic Preservation; Mr. Scott Faber, a 
Water Resources Specialist with Environmental Defense; and Mr. 
Steve Ellis, Vice President of Taxpayers for Common Sense.
    We will begin with Mr. Curole. Windell, thank you for 
joining us.

 STATEMENT OF WINDELL CUROLE, GENERAL MANAGER, SOUTH LAFOURCHE 
                         LEVEE DISTRICT

    Mr. Curole. Thank you very much for the opportunity to 
testify here today.
    Being the only person from Louisiana besides yourself, my 
whole life ancestry is coastal Louisiana. Seven generations in 
south Louisiana, five generations living on the coast. 
Hurricane of 1893 hit, I had 7 out of my 8 great-grandparents 
living on the coast, they retreated 12 miles inland as far as 
45 miles inland. In 1915, they retreated 15 miles inland and 
continued to retreat inland.
    So these five generations of living on the coast line, yet 
here in Louisiana when you look at oil support, seafood, 30 
percent of the oil in the 48 States, you look at the trade on 
the port, the reasons to build the coast line are still there. 
But we are the only community in the United States basically 
with a population that is still retreating from the coast line. 
Some people say, why are you there? We are there because that 
is where the business is. But we have Port Fourchon, which 
supports 75 percent of all deep offshore oil. U.S. Treasury 
gets $5 billion from that support every year. Yet at that port, 
you virtually have no one living there. They all live 22 miles 
further inland in the levee system that we have constructed.
    The other thing about our area is that the uniqueness of it 
ties in culturally and also geographically. Culturally, I am 
the first generation of those seven generations to learn 
English before French. When I grew up, our communities in south 
Louisiana, along our bayou, were French-speaking. Now they have 
converted to English. But it is because this area is so unique, 
with all the tremendous productivity. The only place that can 
match it might be Alaska as far as making it really easy just 
to get a meal. Like one gentleman said, if you are ever hungry 
in south Louisiana, it is because you are on a diet.
    But you look at the geography of south Louisiana, it is the 
understanding that this major river, people forget how 
important the Mississippi River is, that the force of that 
river draining 41 percent of the United Sates built south 
Louisiana. South Louisiana is a gift from the river. It was 
actually built by the flooding of the river. Basically the Gulf 
of Mexico and the river have been in a battle to the river 
building land and the Gulf trying to take it back. We find 
ourselves today, after the 1927 flood, we became very good at 
stopping the flooding of the river, although that was actually 
the life blood that actually built the land to begin with.
    So with this situation, I think 1947 was the last time we 
had a major crevasse. You talk about major flooding, New 
Orleans' biggest threat, even when this tremendous disaster 
took place, flooding from the Mississippi River at high river 
would be more of a disaster because the water would continue 
flowing for maybe months at a time, and not just the lower 
areas in New Orleans flooding, but the entire city.
    So you look at this place, this geography, and it makes 
things very different, a different approach. It is very 
important to understand why we are there. We are a pass-
through. When you look at 30 percent of the oil and gas coming 
into this Country, the energy needs to come through there. The 
area that I am involved with, in my district that I work, we 
have the only deep offshore oil port, 1.2 million barrels a day 
of foreign oil comes through our parish. It provides good taxes 
and energy to the rest of the Country.
    Senator Jeffords. What were those figures again?
    Mr. Curole. One point two million barrels a day. Actually, 
that structure was designed for only a million barrels a day. 
But the demand is so large. In fact, I sit on their safety 
panel. They were talking where the storms had hit, they have 
had their customers, 80 of these supertankers backed up because 
of the problems.
    Right alongside that pipeline, the Morris pipeline from 
deep offshore oil, was producing about 350,000 barrels a day. 
But because of the damage from Katrina, no oil is coming 
through there. But in the same corridor, British Petroleum is 
about to put in the Mardi Gras line and this is supposed to be 
about 600,000 barrels a day.
    So the importance of why we are where we are is the support 
of these things that provide for the rest of America.
    We looked at the 1927 flood. Although when New Orleans was 
first established there was a need for levees, and they started 
building levees immediately, there has always been the need to 
improve that levee protection. But until the 1927 flood, the 
success wasn't great. Since that time, we have been very good 
at it. They did form a new commission, a new way of doing 
business. It changed the way the United States looked at that 
flood protection. We think what has happened here, we need to 
do the same type of thing, we need to look at it differently.
    What I find in dealing with most of the professionals in 
Government, very good people, very good. But they are more 
research and planning. They do a good job. But when you have a 
business, research and development does their research and 
development, but the chairman says when you move forward. I 
think what we do is we mix sometimes the research and 
development mentality gets to the leadership. That's why I 
think some type of separate group with the marching orders to 
move forward, sometimes doing 70 percent of an answer is enough 
to move forward.
    Especially with the battle that we have in south Louisiana, 
we have a very changing--the environment changes very quickly. 
We need to get things done.
    I need also to mention that I am the manager of a Corps of 
Engineers project, local sponsor, the Larose to Golden Meadow 
project. We were the only system south of the intercoastal that 
didn't flood. Now, it was a combination of things. First, we 
were lucky. You get a category 5 hurricane, there is no place 
on the United States coast line that wouldn't be devastated. 
You look at Waveland, MS. They are talking about water 
elevations up to 30 feet.
    In fact, I was reading a book on the 1938 hurricane that 
hit Providence, RI. Fifteen feet of water in Providence, RI, 
with about 700 people losing their lives.
    So No. 1 of the things we need to understand, major 
hurricanes will cause damage anywhere they hit in the coastal 
United States. But understanding the comprehensive work that 
needed to be done to handle the flooding of the Mississippi 
River, I think we look now in trying to deal with those issues 
the same way in coastal Louisiana.
    Again, growing up in the area, if you are a community in 
south Louisiana, it makes sense to have your hurricane 
protection, your hurricane evacuation routes, your navigation, 
your businesses, also the natural production that you have, the 
great estuaries that we have on the Barataria side and the 
Terrebonne side, that these things have to work together. It is 
just common sense.
    I have been trying to promote this idea for a number of 
years. But you know, it almost takes disaster to make things 
happen. Even in the Netherlands, where they spent 600 years 
taking land from the Zeiderzee, it took the 1953-54 flood for 
them to get very serious about it.
    Well, now I think the mule has been hit in the head with a 
two by four. We need to do comprehensive planning to go 
forward. Thank you.
    Senator Vitter. Thank you very much.
    Mr. Brink.

 STATEMENT OF PETER H. BRINK, SENIOR VICE PRESIDENT, PROGRAMS, 
            NATIONAL TRUST FOR HISTORIC PRESERVATION

    Mr. Brink. Thank you very much for the opportunity to 
testify. I am representing The National Trust for Historic 
Preservation, America's largest private preservation 
organization actually chartered by Congress in 1949.
    As the people of the Gulf Coast move to restore countless 
historic homes, buildings, and landscapes damaged by Katrina, 
there are critical roles that Congress can and should play to 
ensure that historic properties and neighborhoods in this 
region are afforded the maximum possible protection against 
catastrophic storms.
    This part of the Country has an enormously rich history 
with one of the largest concentrations of historic buildings in 
the United States. These are important for their own sakes, but 
historic preservation is also a powerful force in the local, 
State and national economy. In Louisiana, culture means 
business.
    This is why we are participating in the national advisory 
board that Lieutenant Governor Mitch Landrieu has put together 
to develop a detailed action plan to rebuild Louisiana, relying 
on its cultural and historic assets. Prior to Katrina, his 
office conducted a comprehensive study that showed that the 
cultural economy was growing faster and creating more jobs than 
any other sector of the State's economic clusters. This 
powerful force should be one of the tools we use to attract 
reinvestment in the hurricane damaged areas.
    A pre-storm survey shows that 28 percent of those visiting 
Louisiana came to enjoy its distinctive neighborhoods and visit 
individual historic properties. With regard to New Orleans, 
10.1 million people visited in 2004 and spent $5.5 billion. 
Seventy-five thousand people in New Orleans are directly 
employed by the travel industry.
    Louisiana ranks sixth in the Nation in rehabilitation 
activity using the Federal Historic Rehabilitation Tax Credit. 
Contrary to some misconceptions that historic preservation's 
benefits are lost on those of low and moderate income, over 60 
percent of America's national register historic districts 
overlap census tracts where the poverty rate exceeds 20 
percent.
    Moreover, the Rehab Tax Credit can be used in conjunction 
with housing and new markets tax credits to spur the creation 
of affordable housing and revitalized neighborhoods serving 
business corridors. This is exactly what we need to do.
    I visited southeastern Louisiana in September. I might also 
mention that I led the preservation effort in Galveston, TX for 
17 years. So I have been through hurricanes and disaster 
response on the ground. The damage in New Orleans to buildings 
is catastrophic. In New Orleans alone, the National Trust 
onsite survey teams estimate that Katrina's devastating winds, 
rain and subsequent flooding have in some way affected the 
38,000 contributing structures in the city's historic 
districts.
    In New Orleans, unlike almost any other American city, 
there are 20 National Register districts that cover more than 
half of the land area of the city. These are made up of 
residents of every income level.
    I saw first-hand that the world-known French Quarters and 
Garden Districts are largely intact. That was wonderful news. 
But the downtown heart of the city beats in lesser-known 
neighborhoods, such as Holy Cross, Tremay, Broadmore and Mid-
City, where designated historic districts have the creole 
cottages, corner stores and shotgun houses that are essential 
ingredients in the rich architectural mix that is New Orleans. 
Preserving as many of them as possible is essential to 
preserving the city's very character.
    In order to save that history from being lost forever, the 
Trust urges the committee to safeguard coastal Louisiana's 
legacy by supporting the following four basic principles. One, 
provide the best infrastructure for the Nation's premier 
historic area. Congress should provide all necessary resources 
to rebuild a levee system that recognizes the need to protect 
the Nation's richest inventory of historic treasures.
    This includes the city's levees and completing a 
comprehensive system of hurricane protection in the whole area 
once and for all. It should anticipate the worst, a category 5 
hurricane as well as a slow, drenching storm.
    Two, restore and redevelop protective wetlands. Natural 
water resources must complement man-made infrastructure to 
mitigate the damaging effects of future catastrophic storms. 
Erosion along Louisiana's coast has eliminated over one million 
acres of wetlands.
    As a result, the Army Corps' own hurricane protection 
levees have become more vulnerable. They were built with the 
understanding that they would be buffeted from winds and storm 
surges by 40 to 50 miles of protective swamp and marsh. The 
communities these levees protect are now constantly vulnerable.
    Three, assure full compliance with the National Historic 
Preservation Act's Section 106 requirements. Thorough Section 
106 review must be part of any Corps work. This is a process 
that protects and balances the different interests involved.
    Four, use historic preservation as a tool for revitalizing 
coastal Louisiana's economy wherever feasible. In this, we have 
introduced, and I would be glad to answer in Q&A, specific 
suggestions for preservation grants, streamlining of tax 
incentives and a pilot homeowner's tax credit.
    All in all, we think historic preservation is a framework 
for everything that should be done in the recovery, and I would 
be glad to talk more about how that can be done.
    Thank you.
    Senator Vitter. Thank you, Mr. Brink. Mr. Faber.

     STATEMENT OF SCOTT FABER, WATER RESOURCES SPECIALIST, 
                     ENVIRONMENTAL DEFENSE

    Mr. Faber. Thank you, Mr. Chairman. I just want to echo 
your opening statement, the notion that we have to quickly, 
very quickly identify ways to improve our existing flood 
control infrastructure, that we have to quickly identify 
opportunities to relocate vulnerable homes and businesses in 
harm's way, and that we must at least begin the thorough 
restoration of our lost coastal wetlands and barrier islands.
    Our fear is that nothing less than the future of New 
Orleans is at stake. If we can't provide assurances that we can 
provide a category 5 level of protection to New Orleans and the 
surrounding parishes, our fear is that business leaders, 
community leaders will not reinvest in the city's future once 
again. I just want to summarize by making four central points.
    One is something you have alluded to, Senator Clinton 
alluded to, the notion that we need to create an independent 
commission to develop a comprehensive plan to provide a 
category 5 level of protection for New Orleans and surrounding 
parishes. In our view, the Congress should immediately create, 
or authorize the creation of a commission of three national 
experts of national reputation appointed by the President after 
consultation with the Governor to develop a comprehensive plan 
that provides the required level of protection.
    Our sense is that a commission can do more and provide more 
resources, provide more expertise than the Army Corps of 
Engineers alone can provide today, and that it will provide the 
accountability that many Americans, many Members of Congress 
are seeking as we make a major reinvestment in the region.
    The second point I would like to make is that we should 
make an immediate down payment of $10.5 billion in the next 
supplemental appropriations bill to begin the restoration of 
our lost coastal wetlands and barrier islands and to begin 
efforts to improve our levees and other flood control 
infrastructure. Contrary to what you might have heard, we can 
begin today and build many of the restoration projects, 
diversions, pipelines, other projects that can today begin to 
restore much of what has been lost in the last 75 years.
    This is one of many volumes of a draft study that was not 
released in 2003 that identifies literally scores of projects 
that could be built today to help begin the long overdue 
restoration of this natural hurricane buffer system. We 
shouldn't wait another day to begin those efforts.
    As you have heard before, these wetlands are critically 
important to the protection of our homes, our businesses, our 
oil and gas infrastructure. For every 2.7 linear miles of 
wetlands that we restore, and I brought a copy of a report by 
an LSU professor, Greg Stone, that I am sure you have become 
aware of. For every 2.7 miles of wetlands we restore, we can 
reduce storm surge by approximately 1 foot. If we had begun to 
restore lost coastal wetlands and barrier islands 30 years ago, 
when scientists first began to understand the consequences of 
the loss of our natural hurricane buffer system, then the storm 
surge created by Hurricane Katrina would have been dramatically 
reduced.
    The third point I would like to make is that we should not 
wait to close the Mississippi River Gulf Outlet. As I speak 
here today, we are in the process of repairing the levees along 
MRGO, also known as the hurricane highway. It seems irrational, 
frankly, to reload the shotgun, to rebuild those levees, to 
continue to leave those parts of New Orleans vulnerable to a 
storm surge that has been increased anywhere from 20 to 40 
percent by the construction of MRGO.
    If there were a significant amount of traffic on the 
waterway, then I think there would be an argument perhaps that 
we should keep it open. But given the low levels of traffic, 
given the fact that traffic has fallen to less than 50 percent 
of what the corps predicted when the project was constructed, 
it simply makes no sense to continue to operate a waterway that 
poses such a significant threat to people and property.
    The last point I would like to make is a general point. We 
need to set much clearer priorities for our water resources 
spending. At the same time that overall spending on Army Corps 
construction and maintenance increased from $3.2 billion to 
$4.7 billion, we saw a significant decrease in the amount of 
money that we were spending to upgrade New Orleans' levee 
protection system from roughly about $15 million a year to 
about $5 million a year. That seems to me a case of seriously 
misplaced priorities.
    I think it is important for this committee to create an 
interagency council to help the corps and the Administration 
and the Congress make better judgments about what our national 
civil works priorities ought to be. We should only be building 
the most important projects, worthy projects. We should subject 
our most costly and controversial projects to independent 
review. We should prioritize those projects to make sure that 
we are putting people and property first.
    So let me just close by saying that as we rebuild, we think 
it is critically important that we provide a higher level of 
protection than we had just 3 months ago. Thank you, Senator.
    Senator Vitter. Thank you. Mr. Ellis.

STATEMENT OF STEVE ELLIS, VICE PRESIDENT, TAXPAYERS FOR COMMON 
                             SENSE

    Mr. Ellis. Thank you. Good morning, Mr. Chairman, Senator 
Jeffords, Senator Isakson. I am Steve Ellis, Vice President for 
Programs at Taxpayers for Common Sense, a national, non-
partisan budget watchdog.
    I would like to commend the chairman and the committee for 
holding this series of hearings.
    In the Gulf Coast region, we are faced with a significant 
challenge: the need for speed and the need to do it right. As a 
budget watchdog, I would add that we need to do it fiscally 
responsibly as well. The outpouring of individual support for 
this relief effort, which has already reached $2 billion, shows 
just how important this issue is to the American people. We owe 
it to the American people to spend their tax dollars wisely, to 
rebuild effectively and intelligently.
    The fundamental responsibility of Government is to take 
care of its citizens. In the area of flood and storm damage 
reduction, it is clear that the Government has failed. We spent 
$123 billion on flood control projects in the last century, but 
annual costs from flood damages have increased from $2.6 
billion annually in the first 50 years of the 20th century to 
more than $6 billion per year over the last decade of that same 
century.
    Right after Katrina flooded New Orleans, the airwaves were 
full of Army Corps of Engineers officials stating that the 
levees and floodwalls performed as expected. They provided 
category 3 protection and Katrina was a category 4 storm. But 
according to recent testimony and what we heard today, Katrina 
was no longer a category 4 hurricane when it hit New Orleans. 
Independent engineering panels found that the levees and flood 
walls did not perform to design or promise.
    If it is true that the levees were brought down by shoddy 
craftsmanship, we need to know whether this was an isolated 
case or whether this is just one of many projects nationwide 
that we should be concerned about. We need to take a close look 
at how the corps supervised construction. In one of my jobs 
with the Coast Guard, I was the contracting officer's technical 
representative for a boat construction contract. In that 
capacity, I learned that inspection and oversight is as 
important as the initial construction itself.
    the corps' failures in overseeing the New Orleans flood 
protection is quite possibly the most troubling incident in the 
Agency's recent history. Here are a few principles that TCS 
would urge the committee, Congress and the Administration to 
consider.
    Rethink the level of protection. First, New Orleans must 
get the category 3 level of protection that it was promised 
before Katrina. However, we cannot expect any levee to 
automatically meet all our needs just because the corps has 
deemed it a category 3 or even a category 5. Mother Nature is 
very creative, versatile and powerful.
    We can mitigate risks with levees, floodwalls and 
constructed wetlands. But the risk of catastrophic flood damage 
will always be there. We should endeavor to obtain significant 
protection from a variety of threats, not just a repeat of 
Katrina.
    Identify what to rebuild. Although it will be a difficult 
process, we will have to identify areas that are too damaged or 
so vulnerable to future storms that they should not be rebuilt. 
Just like after the great Midwest flood of 1993, this is a 
difficult task that has to be managed and led by Louisianans.
    But the Federal Government needs to be clear that if 
individuals want to rebuild in high-risk areas, they should do 
it without the aid or encouragement of Uncle Sam. In past 
crises, some affected towns have responded by relocating out of 
the flood plain. Also, critical infrastructure should be moved 
out of the flood plain where possible.
    Reevaluate our policies. Our Nation's water resources 
policies are antiquated. The Principles and Guidelines, the 
rules governing the Corps of Engineers' project design and 
selection, are more than two decades old. We need to update 
those rules to fully account for all costs and benefits of 
Corps projects, modernize economic procedures, and remove 
biases toward large construction projects.
    We have a $58 billion backlog of Corps of Engineers 
projects and the Agency has a roughly $5 billion budget. Rather 
than pumping up the corps budget, as some insist, we must 
establish a system of prioritizing project investments so we 
don't squander precious tax dollars maintaining waterways with 
no traffic, rather than constructing essential flood damage 
reduction projects.
    Flood insurance has been a failure. FEMA estimates that 
flood insurance claims this year will exceed $22 billion, more 
than in the whole history of the program. But the National 
Flood Insurance Program has the capacity to pay about $2 
billion per year.
    Further, our policies discourage adequate flood protection. 
Since the typical homeowner does not have to buy flood 
insurance if they have 100 year flood protection, we have 
essentially dumbed down our flood protection to the 100 year 
level.
    Let the economy help itself. Congress has already been 
asked to fund the do everything for everyone approach. Small 
business, the oil and gas industry, fishing industry, the port 
all are seeking significant Federal support to get them back on 
their feet. We strongly urge the incentives to be small, 
targeted and short in duration. Some businesses or 
infrastructure may have been inappropriately located at high 
risk from storms. Taxpayers should not subsidize them to be 
built right back into harm's way.
    Forward thinking. There are a lot of plans on the books for 
providing flood protection for New Orleans and Louisiana. We 
must resist an urge to simply dust them off and get building. 
Our approach to providing adequate flood protection must be 
integrated and multi-faceted, and it must be tailored to 
include lessons learned from this unthinkable tragedy. A czar 
overseeing Federal reconstruction has precedent and makes 
sense.
    Finally, the major concern for Taxpayer for Common Sense: 
cost. The Nation needs to set some investment priorities in the 
Gulf Coast region. We cannot afford to protect everything 
everywhere and pay everyone to come back. We had a $317 billion 
budget deficit last year. We are fighting a war. New Orleans is 
important and the Gulf Coast is an important, valuable 
investment. But we have to target our funding wisely.
    Thank you very much for inviting me here to testify. I 
would be happy to answer any questions you might have.
    Senator Vitter. Thank you very much. Now we will get to 
questions.
    Mr. Curole, could you share with the committee your 
experience in building the Leonteria lock?
    Mr. Curole. Well, it's a long and depressing story. Back 
when the study was first done for the Larose to Golden Meadow 
hurricane protection project, the floodgate in Golden Meadow 
was looked at and even mentioned that it might have to convert 
to a lock. We completed the construction of that floodgate in 
1985.
    By 1990 it was obvious that this floodgate, which was 
designed to close only during hurricanes, due to subsidence 
problems it was allowing flooding to take place. South winds 
were blowing, water was getting into the system where we had to 
start closing the floodgate to stop the waters from coming in 
and inundating the communities.
    Once we closed those floodgates, we stopped our oystermen, 
our crabbers. The fuel, the drilling mud and the other things 
that go to Port Fourchon, again, that support 75 percent of all 
deep offshore oil in the Gulf. So that became a problem. We 
were able to document that problem. In 1996, we asked the corps 
to move forward with working toward getting this completed. 
They wrote back saying that they would have a study done, and 
probably within a year, have the study complete. The study was 
completed, I think, 2 months ago.
    We could not afford to wait on that situation. In 1999, we 
had requested Congressman Tauzin to help us in urging the corps 
to move forward. There was some language in the WRDA bill with 
the intent to urge the corps to move forward. Our project was 
not on the back burner. It was probably evidently behind the 
stove. So we were doing everything we could to move it forward.
    With that interpretation of the 1999 WRDA, they looked at 
it as new authorization and basically it just caused more 
problems for the project. We finally had to say, well, we hired 
a local engineer and are sort of designing the project 
ourselves, started the report. There were Corps individuals who 
did work with us in getting this done. The report has been 
done, the corps has been doing oversight and that has worked 
out well.
    We are actually in the process of building the structure 
right now with zero dollars from the corps. We hope to have it 
in place next year. It was just a problem, it obviously is a 
problem that helps the national need. It was talked about in 
our original authorization. Yet all these years later, and we 
still haven't resolved that issue. But we will build it and we 
will put it in place.
    Senator Vitter. Thank you for all your leadership there on 
the ground. I am going to bounce around during my time. Mr. 
Ellis, some have quite frankly suggested that New Orleans as a 
significant city should not be rebuilt in the same place. What 
is your reaction to that?
    Mr. Ellis. Well, I have a personal tie to New Orleans. I 
actually flew my wife down there to get engaged. So I certainly 
have a great affection for the city and for the area. I think 
New Orleans----
    Senator Vitter. I am sure Taxpayers for Common Sense won't 
let that impact their policies. So why don't we go to that 
organizational viewpoint?
    [Laughter.]
    Mr. Ellis. The organizational viewpoint is that significant 
portions of New Orleans were not damaged in this hurricane. New 
Orleans is always going to be vulnerable to hurricanes, and 
that is something that it is going to have to be dealt with. 
But I think that absolutely we should be looking at rebuilding, 
and maintaining that great city. That is my personal and our 
organization's view.
    That said, I don't think it will look exactly the same that 
it did before Katrina. I think that is responsible.
    Senator Vitter. You also talked about prioritizing what we 
do there. Where on that priority list should be a more robust 
system of hurricane and flood protection?
    Mr. Ellis. I think that in looking at some of the lessons 
learned from previous large natural disasters, for instance, 
the flood of 1993, the recommendations there are that if you 
have highly urbanized, densely populated areas that are at 
flood risk, they should receive the highest level of protection 
possible. I think that is exactly going to be the wisest 
approach, and it should be a significantly high priority, you 
know, we will have to look at it compared to everything else.
    Everybody I have heard seems to agree that getting to level 
3 by next hurricane season is the first and highest priority 
and then we go from there identifying what we are going to do 
to get to a significantly higher level of protection. I fully 
recognize that there may be some investments that we are going 
to make in the next several months, in doing that, that's going 
to be lost. Because of the change or whatever, or going to 
category 5, those investments are going to be lost. But I think 
that is the responsible approach, at least in the short term.
    Senator Vitter. Given those priorities, what is your 
reaction, or Taxpayers for Common Sense's reaction to the fact 
that we have now appropriated almost $70 billion or spent, 
counting tax issues, almost $70 billion? Not a penny of that is 
for higher level protection.
    Mr. Ellis. Right. Although in the President's recent 
recommendation, he was essentially reallocating some of the $60 
billion in appropriations that has not been spent and is not 
expected to be spent out of the disaster relief fund during 
that time. I think that is a wise decision, to shuffle that 
deck.
    Senator Vitter. But none of that reallocation goes to a 
higher level of protection.
    Mr. Ellis. Right. We are going to have to go forward from 
there. One of the things that our organization did when we 
first started hearing the estimates that it is going to be a 
$200 billion cost for reconstructing in the Gulf was come up 
with our own offset proposal. We provided our own, it is on our 
web site, www.taxpayer.net, and it has basically every other 
organization's that we could find, offset proposals to try to 
find a way to offset the cost of what we are going to have to 
bear.
    Senator Vitter. Thank you. Senator Jeffords.
    Senator Jeffords. I would like Mr. Faber and Mr. Curole to 
comment on the interaction between natural features and man-
made features as part of a comprehensive flood control plan. 
What role do natural features such as wetlands and barrier 
islands play?
    Mr. Curole. It's a very important, critical point. I have 
been dealing with actually wetlands issues since about 1975 and 
levee issues since 1980. It was always a battle to get people 
involved in wetlands issues, all the way until about the 
1990's. I found it surprising that we have gotten to the point 
right now where a lot of people interpret wetlands restoration 
in the place of hurricane protection. We have statistics 
showing that there is no doubt having wetlands projects helping 
out in reducing storm surge.
    But there is, I have been told by the National Hurricane 
Center, some of their modelers over there, they believe when 
you are talking about a powerful hurricane, marsh elevations 
will not make a big difference. Now, what is different when we 
are talking about the natural terrain in south Louisiana, we 
always had not only marshes, but we had ridges, chenieres, we 
call them, ridges that would develop higher areas.
    We have right now, with all the negative things, a delta 
being constructed south of Morgan City, Louisiana, because we 
have 30 percent of the Mississippi River going into shallow 
water. The flood elevations we saw in Morgan City were a lot 
lower than on either side of Morgan City, even though Rita was 
to the west of Morgan City. But you have not just marshes being 
built, you have this shoaling area where you get elevations of 
four to five feet.
    So basically they do work together. On the everyday issue, 
we have, our levee district has built marsh, we call them marsh 
aprons, alongside of our levee that can reduce the effects of 
everyday wave action in causing erosion along our levees. So 
they do work together.
    But we absolutely need levees to protect where we live. We 
also have a subsidence issue that even with all the restoration 
our communities are still going to have less elevation. So the 
levees are definitely needed. Any restoration we do will help 
the effects and the performance of those levees.
    Senator Jeffords. Mr. Faber.
    Mr. Faber. I would agree with Mr. Curole. There is 
obviously a combination of structural protection enhancing 
existing levees, building new levees, perhaps reevaluating 
other structural solutions that needs to be a part of this 
future picture. In addition, there needs to be a real 
commitment to implement the restoration plan for Louisiana's 
barrier islands and coastal wetlands as it has been developed 
by the State and by the corps of Engineers.
    I think in both cases, both of these efforts have suffered 
from a critical lack of urgency. I think sadly the people in 
this room are among the few thousand who fully understood what 
would happen when a category 4 or category 5 storm would 
strike. Despite our best efforts, we were unable to really 
alert the Nation to the costs of our failure to act. Again, if 
we had really begun in earnest to address this issue 10 years 
ago or even 5 or 6 years ago when Governor Foster first kind of 
really put this on the Nation's radar screen, we would be in a 
much better position to prepare for the next hurricane.
    Mr. Curole. One other thing about structures, we talked 
about the Barrier Plan across Lake Pontchartrain, that barrier 
that was objected to by the locals. Since I have been working 
with the Levee Board Association on comprehensive hurricane 
protection, we have involved the foremost environmental group 
in the Lake Pontchartrain Basin, and they now support a barrier 
across. Of course, done in a way that the flow of water stays 
at a normal pace until you have to close for hurricanes. So 
there has been good cooperation over the years and more trust 
between, let's say the Corps of Engineers and some of the 
environmental groups. So there is progress in making those 
things work together better.
    Mr. Faber. I will just add, another critical piece that is 
missing right now, one is obviously the funding to quickly 
repair levees, to begin coastal restoration. But another 
critical piece that is missing is the funding necessary to 
relocate vulnerable, frequently flooded homes and businesses 
where that is the choice of a homeowner or business owner.
    There have been some changes in the Stafford Act since the 
great flood of 1993 that are making it significantly harder for 
parishes and for State officials to relocate people who want to 
get out of harm's way and get to higher ground. In particular, 
there are owners' cost share requirements, we no longer set 
aside 15 percent of all disaster relief to help move or elevate 
structures so that they are better positioned when the next 
hurricane strikes.
    So there are things that the Congress can do right now to 
amend the Stafford Act to make the voluntary relocation of some 
of these structures that in retrospect should not have been 
built in these certain places to make that relocation possible.
    Senator Jeffords. Mr. Brink, you mentioned the role of 
historic preservation in economic recovery. My colleagues from 
Louisiana recognize this, and they have proposed $150 million 
in grants for historic preservation in Louisiana, with $25 
million earmarked for your organization.
    Can you expand on how these resources could be used to 
drive economic development in low income communities?
    Mr. Brink. The idea of the request for preservation grant 
money, and thank you, Senator Vitter and also Senator Landrieu, 
for including that amount in your joint bill. Our request was 
more modest at $60 million that takes into account the 
authorization level of the historic preservation fund. We will 
be happy to have more.
    These would be grants that we hope will tip the balance 
when a homeowner is making the decision as to whether the 
economics work for them to rehab as opposed to demolish. They 
would be available in the 20 National Historic district areas. 
They are not for the high style fancy house as much as they are 
for the middle income, more modest house.
    We see the providing of overall character in the city as a 
key element of its ongoing heritage tourism attraction. The 
French Quarter, of course, is well known. But having that alone 
is not going to continue to draw the 10 million people a year 
that New Orleans previously drew. The real attraction of New 
Orleans beyond the French Quarter is food, jazz, the mix of 
people, the mix of architecture. It is a marvelous city, and it 
needs to be a living city, not a stage set that only has the 
French Quarter.
    Senator Jeffords. Thank you.
    Senator Vitter. Thank you. Senator Isakson.
    Senator Isakson. Mr. Faber, your independent commission to 
develop a comprehensive plan to quickly assure businesses and 
folks that restoration will take place quickly and competently 
implies a couple of things. But the first thing that it implies 
is that they would actually have the authority to expend the 
money.
    Mr. Faber. That's right.
    Senator Isakson. Let me ask you a question, then, if that 
is right, what is it about the way that we set our civic works 
priorities and the way OMB and the Congress function that you 
find faulty?
    Mr. Faber. Any member or Senator, I am sure, shares the 
frustration with the pace at which we design, plan and 
construct flood control and restoration projects. This is an 
extraordinary circumstance. It seems to me that we need to find 
a new way to make the resources available to prepare for the 
next hurricane, which could be as soon as next June.
    What we would propose is to have a commission of three 
national experts with a staff taken from the Federal 
Government, from various Federal agencies, including the corps 
and other agencies, but that would also have the power to reach 
into the private sector to get the best minds from our 
engineering firms, to reach into our universities to get the 
best minds from our institutions of higher learning. Put the 
best minds to work right away so that we can devise a 
comprehensive plan that addresses the needs of structural 
infrastructure, that addresses the need of lost barrier islands 
and wetlands.
    I have only positive things to say about the great work of 
the Army Corps of Engineers. I think they would admit that they 
simply lack the resources and the capability to meet this 
particular task. This is a task that we are undertaking that 
has been like no other in the history of this Agency. It is 
inconceivable that the number of people who are sitting today 
in the New Orleans district or in Vicksburg or in Memphis or 
even here in Washington on their own could solve this problem.
    I am not proposing to replace the corps, but I am proposing 
that we supplement their expertise and their capacity with 
others within the private sector and the universities to get 
this job done as quickly as humanly possible.
    Senator Isakson. Again, that does beg the question that you 
appropriate a lump sum of money and then tell them to spend it, 
is that correct?
    Mr. Faber. That's exactly right. In our view, if it were 
Presidentially appointed and they were people of national 
reputation and integrity, that would I hope provide the 
assurances that you and others would want that this money would 
be wisely spent.
    Senator Isakson. Mr. Ellis, what would your organization 
think about that?
    Mr. Ellis. We would have concerns about a large lump sum 
appropriation for this. I think that you could have some 
controls over the process with congressional check-in and 
Administration check-in. I think that as some have envisioned, 
that having a large fund that has been removed from 
congressional appropriations control, from the Administration's 
control is of concern to our organization.
    That is not to say that the idea of having some body that 
drives this process, that elevates its level of attention in 
Congress and in the Administration's eyes it not worthwhile. I 
think that makes a lot of sense, there is precedent in our 
history. President Coolidge tapped Secretary of Commerce Hoover 
to lead the effort after the flood of 1927. I think that is an 
interesting model at least to try and elevate the process so 
that it is somebody that the President pays attention to and 
that Congress pays attention to.
    Senator Isakson. My last thing is more of a comment than a 
question. Mayor Nagin was here a week ago and I brought this up 
to him. I don't believe I heard any of you reference the local 
parish Government or the city Government. There was an oblique 
reference to the Governor.
    One of the important things in how we restore is going to 
be what the future land use recommendations are of the local 
Governments. I am going to keep saying this, David, because I 
really commend you on what you have done, but there are so many 
things you can do in the future planning for New Orleans and 
the other coastal parishes and Mississippi that would directly 
impact the way in which the corps or any independent commission 
or any czar would redo the infrastructure.
    This is not a chicken or egg question. The first thing is 
the people of New Orleans and those parishes are going to have 
to decide on what it is they want New Orleans and that area to 
look like understanding what can happen when a category 3 or 4 
storm hits with the infrastructure they had.
    I was a developer for years in the real estate business and 
I get very--I know the levee man is nodding his head down 
there--frustrated when everybody talks about independent 
commissions and quickly responding. I never hear anything about 
what local decisions are being made on the future redevelopment 
that would lessen the impact of flooding if it ever happened in 
a natural disaster. So that's a statement, not a question, but 
I just had to say that.
    Mr. Ellis. In our written testimony, I address this issue. 
I agree. All these decisions about local redevelopment need to 
be local decisions. I completely agree.
    Senator Isakson. They need to be the first decisions.
    Mr. Ellis. Absolutely. I completely agree. I think we need 
to give those local decisionmakers a real choice where there 
are homes that are under 20 feet of water that may not be 
rebuilt or might be relocated or elevated. We are not giving 
them the resources to make those decisions today.
    I think the important thing is how do we integrate, who can 
integrate. I don't think today we have created a body that can 
integrate those local judgments with the broader judgments 
about where to build levees, where to raise levees, where to 
build new infrastructure, where to restore wetlands, where to 
build diversions to restore wetlands.
    That is a big puzzle that no single Agency that is sort of 
sitting in this picture today can really pull together. I think 
that is the problem we are trying to solve.
    Senator Isakson. My time is up, but I have to say one 
thing, and this addresses the historic preservation and the 
levees and everything else. This is a terrible tragedy. Lives 
were lost, fortunes were lost, money was lost, a lot of things 
like that.
    But if there is a silver lining, with the amount of money 
that is going to be invested, if there is a quality, 
comprehensive plan, the new New Orleans and the new coast can 
be greater than the old New Orleans and the old coast. People 
are going to come back if they have a belief that the problems 
that were borne out by this storm in fact have been corrected 
for the future redevelopment of the city.
    Senator Vitter. Thank you, Senator. Senator Thune.
    Senator Thune. Thank you, Mr. Chairman. I want to 
congratulate you for holding this hearing and also for the 
exceptional leadership that you have provided in light of what 
was an unprecedented and devastating tragedy in your State and 
for the light that you have shed and the direction that you 
have provided to us as a Congress and steps that we need to be 
taking to respond.
    I agree with the Senator from Louisiana that more needs to 
be done in New Orleans. I understand that investigations and 
reviews are underway concerning the levee breaches. I support 
an expedited process for the water resource needs in Louisiana. 
The question I think that I have and that we need to answer is 
to ensure that we have a full understanding of what went wrong 
before the hard construction begins. I am curious to know if 
there is a priority ranking of projects so that we can ensure 
that critical projects in New Orleans can begin without waiting 
for a full analysis of other projects in the region. Does 
anybody know if those sorts of things have been established?
    Mr. Faber. the corps has, and I am sure if General Riley 
was still here, or the Assistant Secretary could address it. 
the corps has a list of priorities for which levees they are 
going to repair first. They are trying to repair all these 
levees with great urgency. So that is underway.
    I think, and people may disagree about this, but it strikes 
me that there certainly or apparently were design flaws with 
some of the levees. Getting to the bottom of that should not 
get in the way of immediately devising a comprehensive plan to 
provide a higher level of protection.
    Those design flaws, at least according to the ASCE 
preliminary report that you have seen and your staff have seen 
seem isolated in terms of the materials that were used, the 
assessment of those sites, the designs of those particular 
levees. These are not problems associated with the footprint on 
which you would build a better levee system or potentially a 
tidal barrier or build more wetlands and barrier islands.
    I don't think we need to wait 8 months to devise a plan. I 
don't think we need to wait 1 month to begin to raise some 
levees, to begin to restore some wetlands, to begin to relocate 
some vulnerable homes. It terrifies me, I sense your 
frustration, Senator Vitter, that we are going to wait that 
long to really begin this effort in earnest.
    Mr. Curole. If I could make one comment, the focus, if we 
don't do it while the focus is here, we will lose it. Betsy hit 
40 years ago September 9th. Some of these levees were 
authorized that year and were not completed. If we lose focus, 
if we do not move quickly and at least get the plan set and 
then try to get some type of funding, right now the major press 
have forgotten. They are Katrina tired. Soon this will happen 
here. If we do not set it right, we are setting ourselves up 
for more problems.
    I am optimistic that New Orleans and the Gulf region can be 
much better than it was. It takes very hard decisions here in 
Washington but also in Baton Rouge and MS. I am trying to work 
both ends, I am missing a couple of meetings right now. It is 
critical, but it is a great opportunity. New Orleans can be the 
hottest little city in the United States if it is all done 
correctly. There is some optimism on that.
    Senator Thune. I think, and many of us share the 
frustration that Senator Vitter has articulated in how things 
are moving and the concerns about are we doing the things we 
can do now. Obviously knowing full well that there are issues 
that need to be studied so that we do this right. I think that 
is a concern that taxpayer groups and others have voiced and 
clearly a concern to a lot of us as well.
    I want to come back to the discussion that was being held 
earlier here with respect to the independent commission within 
the Office of the Secretary of the Army that you all have 
suggested. It seems to me at least that there is already, you 
have this what would appear to be an ideally situated 
commission called the Mississippi River Commission that could 
lead the comprehensive plan. Clearly, navigation, flood control 
programs on the river will have to be coordinated with both 
hurricane protection and coastal restoration.
    I guess the question is, why would we want to create 
another layer of Government do to what that commission can and 
should be doing? They have a century-long record of outstanding 
service to the Nation. Would you comment on that?
    Mr. Faber. It is an excellent question. I think there are 
two reasons that the Mississippi River Commission is the wrong 
body.
    One is that the membership of the Mississippi River 
Commission does not include engineers, hydrologists, scientists 
of great national reputation and great national integrity. I 
don't think the MRC would provide the level of accountability, 
quite frankly, that you would want, that other Members of 
Congress would want if you are going to provide significant 
resources to help with this effort to and increase flood 
protection.
    The second reason is that the Mississippi River Commission 
has a very different role. Among the roles that the MRC plays 
is they decide what to do in the event of a major flood on the 
Mississippi River. They are actively involved in the day to day 
management of the Mississippi River.
    The commission we envision would not exist forever. It 
would be a commission that would be term limited or time 
limited, that would have a specific job, which is to figure out 
how it is we provide a category 5 level of protection to this 
major urban center and to help begin the execution of that 
plan. I don't imagine this is a body that exists 75 or 100 
years from now and is intimately involved in the management of 
all these decisions.
    Mr. Ellis. The only other thing I would add on the 
Mississippi River Commission, some concerns that I would have, 
the president of the Mississippi River Commission is the 
division commander of the Mississippi Valley Division. The only 
other Federal Agency that is represented on it is NOAA, the 
National Oceanographic and Atmospheric Administration.
    So if it was to be the body, it would have to be broader, 
and I would think that you would want to bring in, you would 
want to have a separate head than just having it driven by the 
corps. I think decisions about redeveloping in this area are 
broader than the corps.
    Obviously, flood damage reduction, storm damage reduction 
is a major focus and it is probably the primary focus 
initially. But all the other economic development incentives 
and activities are going to have to be a key part of it.
    Last, I think that it should have a recognizable titular 
head that is at the point of this activity that is the person 
that can communicate with the President. I think elevating it 
out of the Department of Homeland Security or DOD is key to 
really having the attention on the whole Gulf Coast region in 
this initiative.
    Mr. Curole. I think it is critical that we have some body, 
some entity that is going to work just as hard when the sun is 
shining as when there is a threat. That is the problem. We lose 
focus. Things get in the way, everyday business, from the local 
Government to State Government to the Federal Government. Other 
business, health care, other things get in the way. You need to 
have someone that can at least tap into the power structure to 
say, look, we need to get this done because it happened to us, 
it happened to us again.
    New Orleans in 1915 flooded, 1947, 1965, there was nothing 
to say that New Orleans wasn't going to flood again. Yet I 
guarantee you, we were fighting hard to keep that focus. The 
risk was there and it was a difficult battle. I guess you could 
say we lost.
    Mr. Faber. I don't think anyone is proposing that the corps 
would not be the central player in the design and execution of 
this comprehensive plan. the corps controls this 
infrastructure, they have jurisdiction over the infrastructure, 
they have the expertise. All we are suggesting is that there is 
other expertise and other capability that resides outside the 
corps, and that we need someone to pull all of these pieces 
together.
    That is not the role of the Secretary of the Army. There 
needs to be somebody of national reputation who is thinking 
about this 24 hours a day and is making sure that this plan is 
implemented before disaster strikes again.
    Senator Thune. I appreciate that. My understanding was that 
the Mississippi River Commission is very specialized and does 
have many of the noted experts in the field of water resource 
protection, including engineers. I also understand the 
importance of having someone that is very focused on the issue 
at hand.
    Thank you, Mr. Chairman.
    Senator Vitter. Thank you, Senator. If I can just 
participate in the discussion and wrap it up. I would agree 
with some of our panelists, I have concerns that the 
Mississippi River Commission is not the precise right group of 
persons to do this. But I think it is an extremely important 
model and precedent. Because basically, it is what Congress 
created after the 1927 flood.
    Senator Thune. I agree.
    Senator Vitter. Huge flood, huge national event, not just 
in Louisiana, all up and down the river, catastrophic losses. 
Congress created this commission and said, look, make sure this 
never happens again. Make sure you come up with a plan and get 
it done in a streamlined way so this sort of loss never happens 
again.
    They created the commission and basically it has never 
happened again in that way. So in a very general sense but 
important sense, I think it is a precedent and a model that we 
need to follow in the same way, so that we put together a body 
with the corps at the center but with other folks involved and 
tell them, make sure this never happens again, give us a 
comprehensive, integrated plan. Do it on a streamlined basis so 
this $100 billion event never happens again.
    I would also point out, there has been a lot of discussion 
about priorities of Corps projects, for instance, and well, 
money shouldn't have been spent here, it should have been spent 
on the levee system. Some of that may be true. But I also point 
out, all of the major breaches that caused the flooding in the 
city were to elements of the levee system that were complete. 
It wasn't ongoing construction. It was done. It was clearly 
inadequate and/or flawed design. It is not as if we are waiting 
on money to finish that project. It was done.
    By the way, there are other parts of south Louisiana which 
aren't done. We were just lucky that the storm didn't go there. 
So there are plenty of other places that aren't protected even 
on paper to category 3.
    Mr. Faber. I think that is an excellent point. It is 
probably worth noting that, I think the Congress in 1999 asked 
the corps to figure out, how do we provide a category 5 level 
of protection for New Orleans. To my knowledge, we haven't 
begun that study. So I think you are right, we have made some 
wise investments, but there are obviously some priorities, this 
would seem to be a significant priority that is just being put 
behind the stove.
    Mr. Curole. In fact, the study was hurricane protection in 
Louisiana, and it has been sorely under-funded. You look at 
authorization for Morganza to the Gulf. In our area, just to 
the side of Terrebonne Parish, we had zero flooding inside the 
system, two storms, zero flooding. They were subject to the 
same water elevations, they had 10,000 homes flooded.
    Senator Vitter. As I noted to Mr. Ellis, all the activity 
we have done so far and the dollars appropriated, none of that 
has gone to constructing anything beyond the present system.
    However, at least with regard to designing it, the study 
you are talking about, and getting a full design for a higher 
category 5 system, I am very hopeful that before we leave this 
year, that is going to be fully funded.
    Mr. Ellis. Mr. Chairman, I would just say that the issue on 
priorities goes beyond Louisiana, it goes beyond Katrina in 
that we have to, our opinion is that the lack of priorities 
within the Corps of Engineers budget that enables this type of 
process. It means that money that should be going potentially 
to provide flood protection and storm damage protection in 
Louisiana isn't going there because it is going somewhere else 
in the Country to a lower priority project.
    If we don't establish some sort of system of priorities, we 
are going to have the exact same problem in other parts of the 
Country. I think the biggest thing that is incumbent on all of 
us, and particularly Congress and the Federal agencies, is to 
learn from this disaster so it doesn't repeat, not only in New 
Orleans and Louisiana, but it doesn't repeat in other places 
around the Country. Shame on us if we don't put in place those 
processes.
    Senator Vitter. Great. Do we have any wrap-up questions 
from Senator Jeffords or Senator Thune?
    Senator Jeffords. No.
    Senator Vitter. In that case, we want to thank our second 
panel and thank all of our participants today. The hearing is 
adjourned.
    [Whereupon, at 11:47 a.m., the committee was adjourned.
 Statement of Hon. Tom Carper, U.S. Senator from the State of Delaware
    I am pleased that the committee has called this hearing. It is time 
to start applying what we know went wrong during Hurricane Katrina to 
the development of a rebuilding plan. We also need to explore the 
implications of the failures in New Orleans on the state of other flood 
control systems across the Nation.
    In previous hearings with the Corps of Engineers, we have been told 
that it was unclear whether the levees failed to perform as designed or 
if they were overwhelmed. In other words, we didn't know if the levees 
get overwhelmed by a storm that was larger than they were designed to 
withstand--or if they simply failed.
    Last week, at a hearing of the Homeland Security and Government 
Affairs Committee, we were told that they simply failed.
    Representatives of the teams researching the floodwall breaches--
including experts from Louisiana State University, the National Science 
Foundation and the American Society of Civil Engineers--informed us 
that the storm surge and winds that Hurricane Katrina brought to the 
Lakefront area of New Orleans were that of a category 1 hurricane. 
Though the levees and floodwalls were designed to handle a category 3 
storm, many of the floodwalls failed.
    Numerous factors seem to have contributed to these failures. This 
includes the differing floodwall heights and construction materials 
used in different parishes (controlled by different levee boards). It 
also appears that floodwalls were anchored into weak ground and not 
deep enough.
    Clearly, we need to take a look at the way the corps determines the 
appropriate design for floodwalls. We also must review how the corps 
prioritizes projects and conducts their cost-benefit analysis.
    Moreover, we need to know the impact of dividing the responsibility 
for maintaining levees and floodwalls within one flood control project 
between various local levee boards.
    From a broader perspective, we must review other flood control 
projects across the region--and the Nation--to ensure that the same 
problems did not occur elsewhere and that we have the flood protection 
we expect.
    Some responsibility may lie in the way Congress and the 
Administration authorizes and funds flood control projects. If so, 
changes will need to be made there as well.
    While I know we must spend a little longer looking at the failures 
that occurred in New Orleans during Hurricane Katrina, I look forward 
to moving into a more proactive mode. Identifying the changes is 
essential if we are to avoid this kind of failure in the future in New 
Orleans or any place else in the country.
                                 ______
                                 
 Statement of Hon. Hillary Rodham Clinton, U.S. Senator from the State 
                              of New York
    Thank you, Mr. Chairman. I appreciate you holding this hearing, as 
well as the stakeholder meeting that preceded it.
    It is critical that this committee be both expeditious and 
thoughtful in its approach to these critical issues.
    I think this hearing is a key step in that process, and I commend 
you for holding it.
    I want to say at the outset that I hope we don't waste any time on 
the mistaken point that some have made, in trying to blame 
environmentalists for the failure of the levee system.
    I think that since that charge was initially raised, it has been 
thoroughly rebutted. I ask consent that a report prepared by the Center 
for Progressive Reform be entered into the record. The report does an 
excellent job of telling the full story about why design changes were 
made in the 1970s, and truth is that a suit by fisherman and 
environmental groups one small factor of many.
    Though blaming environmentalists misses the mark, it does attempt 
to answer one of the critical questions: why did the levees fail?
    Until we have an ironclad answer to this question, any solution 
that we propose runs the risk of simply creating new failures.
    So coming to a firm understanding of what went wrong is one 
critical, if obvious, step that we need to take.
    I know that the corps is currently analyzing what went wrong, and 
this work will be reviewed by the National Academy of Sciences as well 
as a team from the American Society of Civil Engineers.
    I have called for a Katrina Commission to comprehensively analyze 
what went wrong, because I think it is desperately needed.
    But I am pleased that at least in this case of the levee failures, 
there are outside experts who will be involved.
    As for today's hearing, and the path forward for the committee, it 
seems that there is some degree of consensus on principles that should 
guide us.
    First, we need a comprehensive approach that considers flood 
control, ecosystem restoration, and navigation. This approach needs to 
consider the role of coastal wetlands in flood protection, something 
that our witnesses will discuss today.
    Second, local redevelopment decisions must by integrated into any 
Federal plans, and those decisions should be based on broad input from 
residents.
    How we answer these questions with respect to flood control and 
other activities within in the jurisdiction of this committee needs to 
be linked to broader discussions about how we guide recovery efforts in 
the Gulf.
    Mayor Nagin was here last week. He and Governor Blanco both have 
commissions that are looking at how to rebuild. The President has 
recently asked FDIC Chairman Donald Powell to head Federal recovery 
efforts down there.
    I look to Senator Landrieu and others for their ideas about how 
best to try to integrate local, State and Federal recovery decisions.
    But in terms of flood control and the other issues under this 
committee's jurisdiction, I think it is important that we seek to 
provide immediate protection in advance of next year's hurricane 
season.
    At the same time, we cannot rush to a solution which--like the one 
in place on August 24--is doomed to fail when the next huge storm makes 
landfall near New Orleans.
    Thank you, Mr. Chairman. I look forward to the testimony of our 
witnesses.
                                 ______
                                 
Statement of George Dunlop, Principal Deputy Assistant Secretary, Civil 
                            Works, U.S. Army
    Mr. Chairman and members of the committee, I am George Dunlop, 
Principal Deputy Assistant Secretary of the Army for Civil Works. I am 
pleased to appear today with Major General Don Riley, Director of Civil 
Works, to discuss the role of the Department of the Army and the U.S. 
Army Corps of Engineers in the recovery and rebuilding efforts that lie 
ahead for the Gulf Coast.
    The Administration stands ready to work with local and State 
officials as they plan for the future of New Orleans, parishes in 
southern Louisiana, MS and other parts of the Gulf Coast. As we know, 
New Orleans has a particular challenge because much of the city lies 
below sea level. Thorough analysis, much thoughtful consideration of 
alternatives and careful attention as to how to best integrate future 
flood and storm damage reduction objectives with one another and with 
the effort to address the needs of the coastal wetlands ecosystem will 
guide future consideration and decision making, to be sure. The Corps 
of Engineers will work with the State, City, and Parish officials to 
design and build a flood and storm damage reduction system that is 
better than before the storm; and these local officials will have a 
large part in the engineering decisions to come.
                 corps role in current federal efforts
    The Corps of Engineers, in collaboration with FEMA, will be an 
integral member of the close Federal partnership with the States of 
Louisiana and Mississippi, the city of New Orleans, and other Gulf 
Coast cities, parishes, and counties. the corps stands ready to provide 
advice to assist their recovery and rebuilding in a way that provides 
full consideration of all relevant factors.
    Federal funds are being made available to help cover the costs of 
repairing public infrastructure in the disaster zones, from roads and 
bridges to schools and water systems. If called upon, the Corps of 
Engineers stands ready to execute a broad array of engineering, 
construction and contract management services.
    The President has established, by Executive Order, the Gulf Coast 
Recovery and Rebuilding Council to further strengthen Federal support 
for the recovery and rebuilding effort through effective, integrated, 
and fiscally responsible support from across the Federal Government to 
State, local, and tribal Governments, the private sector, and faith-
based and other community humanitarian relief organizations.
    Beyond immediate recovery tasks such as removing debris and 
providing utilities and ``blue roofs'' for homes and businesses, the 
corps is currently working on repairs to the storm damage reduction 
system that was in place in the city of New Orleans and other parts of 
the storm-affected area before the storm. Essentially, the corps is 
repairing existing levees and floodwalls before the onset of the next 
hurricane season to reduce the risk of damage in a future storm.
                           forensic analysis
    the corps is actively engaged in assessing the performance of the 
storm damage reduction projects that were in place at the time of the 
Katrina and Rita storm events. We will use these findings to ensure 
that repairs to existing features in the New Orleans area are 
technically sound, will have efficacy, and are accomplished in a way 
that is environmentally sustainable. Lessons learned will be integrated 
on an ongoing basis into the design, engineering and repair of these 
features, which is already underway.
    Indeed, the corps is already hard at work in this regard, having 
established an Interagency Performance Evaluation Task Force (IPET) to 
collect and assess information that can inform decisions to repair 
existing authorized structures. Also, an independent team from the 
American Society of Civil Engineers (ASCE) is already collecting 
information to apply to the development of design criteria for these 
features. Other organizations and individuals are doing important work 
in this regard, as well. To the extent practicable, all relevant data 
will be carefully considered and objectively assessed.
    In addition, the Secretary of Defense has directed the Secretary of 
the Army to convene a panel of experts under the auspices of the 
National Academies to evaluate the information collected by the IPET 
and other parties so as to provide an independent and peer reviewed 
assessment of the performance of the storm damage reduction system in 
New Orleans and the surrounding areas.
    The National Academies will assemble an independent 
multidisciplinary panel of acknowledged national and international 
experts from the public and private sectors and academia. This National 
Academies panel is to be drawn from the membership of the National 
Academy of Sciences and the National Academy of Engineering. The panel 
will issue a final set of findings based primarily on the forensic data 
gathered by the Interagency Performance Evaluation Task Force and the 
American Society of Civil Engineers Independent Review Panel, and will 
draw upon information and assessments provided by other sources.
    The National Academies will report directly to the Assistant 
Secretary of the Army (Civil Works). The study is expected to take 
approximately eight months to complete. All reports generated by these 
panels will be made available to Congress and to the public.
    Following the forensic analysis, we will need to evaluate a broad 
range of options before developing recommendations as to the best ways 
to reduce the risk of future storm damages for the City of New Orleans 
and surrounding parishes.
                     coastal ecosystem restoration
    The Administration has also recommended the reallocation of $250 
million of the Emergency Supplemental funds already provided by 
Congress to fund activities related to the restoration of natural 
coastal features that will help reduce the risk of storm damage in the 
greater New Orleans metropolitan area. Specifically, barrier islands 
and coastal marshes can provide a natural buffer against some storm 
surges, and thus serve as the foundation upon which projects to reduce 
the risk of storm damage to the urban areas of the coast are 
constructed.
    The Administration is working with Congress and the State of 
Louisiana to develop an appropriate, generic authorization for the 
Louisiana Coastal Area Ecosystem Protection and Restoration Program 
that will expedite the approval process for projects and their 
implementation while providing greater flexibility in setting future 
priorities and increased opportunities for application of adaptive 
management decision making. Such an integrated, programmatic approach 
to coastal wetlands protection and restoration is essential for program 
efficiency and efficacy.
                         support to navigation
    Finally, I mention with pride the great work that the corps has 
done to restore waterways in the region to navigable condition. 
Although much work is ongoing, particularly dredging and repairs to 
locks and bridges, most of the Gulf Coast's waterways have already 
resumed normal operations.
                               conclusion
    Mr. Chairman, this concludes my statement. I look forward to 
working with you and the Ranking member and other committee members on 
matters of mutual interest and concern. Following Major General Riley's 
statement, I would be pleased to answer any questions you or the other 
committee members may have.
                                 ______
                                 
    Responses of George Dunlop to additional Questions from Senator 
                                Jeffords
    Question 1. Mr. Dunlop, during the stakeholders meeting we held in 
this committee, and during last week's hearing with Mayor Nagin, one of 
the major points was that local redevelopment plans must drive Federal 
investments. For example, it may be possible to redevelop the city in 
such a manner that the highest levels of flood control are not required 
everywhere. The Mayor and the Governor both have planning processes 
underway. I realize that time is of the essence in rebuilding, but you 
don't want to spend huge amounts of resources rebuilding flood control 
in an area where no one is going to live. How is the corps 
participating in the local process to set up a redevelopment plan, and 
are you coordinating your decisions regarding repair of the existing 
projects with these groups?
    Response. As MG Riley stated in his response, the corps is 
repairing the damaged hurricane protection system to provide the level 
of protection authorized by Congress prior to Katrina, as has been 
directed by Congress and supported by the Administration. the corps is 
coordinating the repair of the existing system with local and State 
officials, thereby enabling public interest and business investment 
decisions to be made. Corps of Engineer employees is assigned as 
liaisons with both the City of New Orleans and the State--Louisiana 
Recovery Authority to ensure full communication and awareness in the 
planning efforts. We have met with representatives of the New Orleans 
business community and are participating in local planning meetings 
when we are invited to do so.

    Question 2. On November 9, 2005, the NAS released a report on the 
coastal Louisiana restoration plan. One of its major recommendations 
echoes themes we have heard about local redevelopment plans--they 
recommend the development of an explicit map of the expected future 
landscape of coastal Louisiana. Without this, it will be difficult to 
move forward with coastal restoration and flood control in a targeted 
manner. Can you give me your response to this recommendation and your 
thoughts on how it should be implemented in Louisiana?
    Response. the corps' traditional approach to water resources 
planning was designed to facilitate problem solving and decision making 
for specific sites and projects. Today, the corps is being asked to use 
its planning capability to facilitate, convene, advise, and work 
collaboratively with other Federal and State programs in developing 
solutions and integrating programs, policies, and projects across 
public agencies. Collaboration is the keystone of the corps watershed 
approach. Collaborative planning includes Corps participation as a team 
member in other Federal, State, or local agencies planning activities 
where there may be no expectation of construction or other work by the 
corps as a result. By bringing together the expertise and programs of 
all the appropriate Federal agencies, collaborative planning will solve 
problems at the proper scale, integrate solutions across purposes and 
business programs, and leverage Federal and other funds. Monitoring and 
adaptive management are an essential component of such planning. 
Adaptive management takes into account the uncertainties that exist 
regarding decisions and allows the decision making and implementation 
process to proceed with the understanding that progress will be 
assessed and evaluated and that some structural or operational changes 
may be necessary to achieve the desired results. As an example, the 
Administration is working with Congress and the State of Louisiana to 
develop an appropriate, generic authorization for the Louisiana Coastal 
Area Ecosystem Protection and Restoration Program that will expedite 
the approval process for projects and their implementation while 
providing greater flexibility in setting future priorities and 
increased opportunities for application of adaptive management decision 
making. Such an integrated, programmatic approach to coastal wetlands 
protection and restoration is essential for program efficiency and 
efficacy.

    Question 3. One of the key themes we have heard is that cost-
benefit analysis procedures should be revised--most significantly to 
account for potential loss of life. What are your views on the revision 
or abandonment of cost-benefit analysis as a decision-making tool for 
the corps?
    Response. The cost-benefit analysis is still an effective decision 
making tool for the corps, but it is the use of the tool that must be 
monitored and periodically adapted to changing socio-economic 
conditions. the corps has recently released guidance on planning in a 
collaborative environment which reflects improvements to the corps' 
approach to water resources planning. It is designed to facilitate 
problem solving and decision making for specific projects as well as a 
more collaborative and systems-based approach to working with other 
Federal and State agencies in developing solutions that integrate 
programs, policies, and projects across public agencies. All Corps 
planning studies will evaluate, display, and compare the full range of 
alternative plans' effects across four accounts (National Economic 
Development (NED), Environmental Quality (EQ), Regional Economic 
Development (RED) and Other Social Effects (OSE)). NED account shows 
effects on the national economy. The EQ account shows effects on 
ecological, cultural, and aesthetic attributes of significant natural 
and cultural resources that cannot be measured in monetary terms. The 
RED account shows the regional incidence of NED effects, income 
transfers, and employment effects. The OSE account shows urban and 
community impacts and effects on life, health and safety. The 
discussion and display of benefits will address each of the four 
accounts and will not be limited to one account. For example, 
evaluation of inland navigation improvements should not only address 
effects on transportation savings but also security, safety and 
environmental advantages or disadvantages with respect to other modes 
of transport. After considering a plan's beneficial and adverse effects 
across all four accounts, the plan may be a candidate for selection if 
it has, on balance, net beneficial effects.
                                 ______
                                 
 Statement of Major General Don T. Riley, Director of Civil Works U.S. 
                        Army Corps of Engineers
                              introduction
    Mr. Chairman and distinguished members of the committee, I am Major 
General Don T. Riley, Director of Civil Works. I am honored to be 
testifying before your committee today, along with the Principal Deputy 
Assistant Secretary of the Army Mr. George Dunlop on the involvement of 
the Corps of Engineers in the Federal recovery and rebuilding effort 
for New Orleans and the surrounding areas. My testimony today will 
provide a brief status of our activities in the storm impacted area, 
and describe how the Corps of Engineers can assist in this effort.
                   emergency response support to fema
    We are continuing to execute the corps FEMA-related missions of 
debris management and roofing in the impacted area. Through October, we 
had removed over 14 million cubic yards of debris from areas of 
Louisiana, Mississippi, and Alabama impacted by Hurricane Katrina. We 
have installed nearly 107,000 temporary roofs. the corps has completed 
over 200 temporary public structures in Mississippi, including police 
and fire stations, city halls, post offices and other governmental 
buildings. Corps employees are also putting children back in classrooms 
throughout Mississippi, helping to bring towns back to a bit of 
normalcy.
                     repairs to the existing system
    With our contractors, we are working around the clock on the repair 
of levees and floodwalls to reduce the risk of damage through the 
remainder of this hurricane season, which continues until the end of 
November, and the rainy season that the city normally experiences in 
December and January. Our goal is to complete this phase of the effort 
before the start of the next hurricane season, which begins in June 
2006. Twenty-eight contracts have been, or currently are, advertised 
(13) or awarded (15), with an estimated value of approximately $175 
million. Any delays in contract awards could impact our ability to 
complete work by June 2006. We are also actively gathering data and 
information to learn from the recent storms, and have begun an after 
action assessment of the existing storm damage reduction system.
          investigating the performance of the existing system
    There is no single answer to the questions as to why there were 
failures in the storm damage reduction system as there were multiple 
breaches of levees and floodwalls at a number of locations. We have not 
yet determined the failure mechanism or mechanisms, which are likely to 
vary in each case. The answer to these questions will follow from a 
further investigation and thorough analysis of the data we are now 
collecting. In some cases, e.g. the Inner Harbor Navigation Canal, we 
have observed evidence of overtopping that may have played a role. In 
other cases, e.g. the 17th Street Canal, we have observed evidence of 
massive soil movement that could have been a factor in how these levees 
failed. There is a need for considerable analysis to answer this 
question.
    The Chief of Engineers has commissioned an Interagency Performance 
Evaluation Task Force (IPET) to perform the engineering evaluation. The 
IPET includes engineers and scientists from the Engineering Research 
and Development Center from Vicksburg, MS, as well as from other 
Federal agencies, such as the Bureau of Reclamation and the National 
Oceanic and Atmospheric Administration. The data collection teams have 
been performing field work in the New Orleans area to obtain as much 
data as possible related to the performance of the levees and 
floodwalls and to ensure that data is collected before it is covered 
over or lost by cleanup or as a result of repair efforts. Over the next 
eight months, the IPET will examine and analyze the data and rationally 
test various hypotheses about the behavior of the infrastructure. The 
IPET will use collected data, laboratory testing, and modeling 
activities in its analysis. The work currently planned includes 
assessing the Geodetic Reference Datum; performing storm surge and wave 
modeling and interior drainage/flooding modeling; evaluating 
hydrodynamic forces, floodwall and levee performance, and pumping 
station performance; and conducting a consequence analysis and a risk 
and reliability assessment.
    Until we can compare the evidence to an understanding of the 
hydrodynamic environment that resulted from the storm, the forces 
generated by the resulting surge and waves, how those forces were 
applied to individual structures and how the structures, given their 
design intent and capacities, should respond to those forces, we will 
only be speculating as to why they failed. Nevertheless, I want to 
emphasize that we will not wait until the study is complete to begin 
applying what we are learning. As we learn, we will immediately act to 
incorporate those findings into the ongoing work in which we are 
engaged.
    The American Society of Civil Engineers (ASCE) is supporting our 
efforts with an External Review Panel, which will provide an 
independent oversight of the IPET evaluation. The final IPET report 
will be released in June 2006. However, any important findings will be 
shared on an ongoing basis before then with those who are involved in 
the design, engineering, and repair of the existing New Orleans levees 
and floodwalls.
    We are making all findings available to the public and invite the 
public and the scientific and engineering community to share any 
information they may have. On October 29th, the corps began publicly 
releasing available data by posting it on a publicly accessible 
website, https://ipet.wes.army.mil. Additional data will be added to 
the website as it becomes available. The IPET is collecting pre-Katrina 
documentation (design and construction drawings, soil sample records, 
etc.), post-Katrina documentation (hydrographic surveys, soil samples, 
concrete cores, etc.) and other performance data (eyewitness accounts, 
photographs, etc.). The data being released will include design 
memorandums dating back to the 1960s, and the associated reports for 
the Lake Pontchartrain, Louisiana and Vicinity High Level Plan, which 
includes 17th Street Outfall Canal and London Avenue Outfall Canal. 
This information includes the project plan, hydrology and hydraulics, 
geology, foundation investigation and design (including the field 
exploration, soil borings, and laboratory testing) and the structural 
design.
    In addition to the IPET effort, the Secretary of Defense has 
directed the Secretary of the Army to convene an independent panel of 
national experts under the direction of the National Academies to 
evaluate the performance of the storm damage reduction system in New 
Orleans and the surrounding areas. The National Academies will assemble 
a multidisciplinary (e.g., engineering, atmospheric sciences, etc.) 
panel drawn from the public and private sectors and academia. The 
National Academies Panel will perform a high-level review and issue 
findings and recommendations based primarily but not solely on the data 
gathered by the IPET and the ASCE Independent Review Panel. The 
findings of the National Academies Panel will be subject to a peer 
review process before being released under the imprimatur of the 
National Academies.
    This forensic study is to focus on existing levees and/or 
floodwalls that were overtopped, breached, or failed during Hurricane 
Katrina, and whether such situations were the result of design, 
construction, or operation and maintenance issues, soil and geo-
technical conditions, changed assumptions upon which the design or 
construction were based, the severity of Hurricane Katrina, or other 
factors. The National Academies Panel is expected to produce its final 
report by July 2006. All reports generated by these panels will be made 
available to the public.
                                 ______
                                 
Responses of Don T. Riley to additional questions from Senator Jeffords
    Question 1. General Riley, can you articulate more extensively the 
parameters of the current levee inspection regime in this country, 
describe the role of the Corps of Engineers, and describe whether or 
not national standards exist for levee construction that will ensure 
performance?
    Response. The Rehabilitation and Inspection Program, through P.L. 
84-99, is the corps program that provides for inspections of flood 
control works (FCW), the rehabilitation of damaged FCW, and the 
rehabilitation of Federally authorized and constructed hurricane or 
shore protection projects (HSPP). FCW that are eligible for inclusion 
in the program include: Federally authorized and constructed HSPP's; 
Federally constructed, locally maintained levees and floodwalls; non-
Federally constructed, locally maintained levees and floodwalls that 
provide a minimum of a 10-year level of protection with 2 feet of 
freeboard to an urban area, or a minimum of a 5-year level of 
protection with 1 foot of freeboard to an agricultural area; Federally 
constructed, locally maintained flood control channels; non-Federally 
constructed, locally maintained flood control channels that provide a 
minimum of a 10-year level of protection. [NOTE: Interior drainage 
channels within the protected area of a levee system are not flood 
control channels.]; Pump stations integral to FCW; Federally 
constructed, locally maintained flood control dams; and non-Federally 
constructed, locally maintained flood control dams.
    An initial eligibility inspection is used to establish the 
acceptable and minimum performance levels for non-Federal FCW to gain 
an Active status in the Program. The inspections are conducted by Corps 
technical staff experienced in FCW design, construction, maintenance, 
and damage investigations. Initial eligibility inspections are not 
conducted on Federal FCW's. Federal FCW's are considered to be in an 
Active status when the corps turns over the project to the public 
sponsor for operation and maintenance. Within two years of Active 
status, the first continuing eligibility inspection is conducted. 
Continuing eligibility inspections will normally be conducted 
biennially for non-Federal FCW. For sponsors of projects with 
historically good ratings, the district may extend the frequency of 
inspection to a triennial basis. The continuing eligibility inspections 
are conducted at least biennially for Federal FCW, unless Corps 
regulation permits a longer period. The inspection is used to verify 
that the FCW continues to meet minimum acceptable performance levels 
for the Program. The flood control levees in the New Orleans area are 
inspected by both the corps and the local levee district, together and 
independently. Corps inspections are conducted annually by the New 
Orleans District Engineer and his staff, and representatives of the 
State of Louisiana and the respective Levee Districts. The local levee 
districts patrol the system between the annual joint inspections. A 
joint Corps/Levee District/State inspection of the Orleans area was 
completed in June 2005. At present, national standards do not exist for 
levee construction.

    Question 2. General Riley, in response to my question about 
notification regarding levee failure, you said the following:

    ``During the flood, again the local levee boards will all be along 
a flood levee observing and protecting in communications. Of course, 
during a hurricane you can't do that, you have to evacuate. So in the 
case, in this particular case, in New Orleans, they had the local 
citizens that were there on the ground that they called into the State, 
I was in the State EOC, the local sheriff's department and the director 
of homeland security for the city called into the State.''

    Does this mean that whenever a hurricane strikes an area such as 
New Orleans, which is dependent on hurricane protection and flood 
control provided by Corps of Engineers' levee systems, the corps 
depends on average citizens who are ordered to evacuate but choose not 
to, to notify the State police that the levee system has failed? If 
this is not the case, can you explain again what system the corps has 
in place today to monitor levee integrity and provide notification to 
local officials and citizenry that a breach or failure has in fact 
occurred?
    Response. Local authorities, not the Corps of Engineers, are 
responsible for monitoring the levees and their practice is to increase 
the level of this activity as tropical storms approach. We were not 
asked for assistance with this as Katrina drew near on Monday morning 
and respected their jurisdiction for this activity. Under the 
restricted mobility and communications following landfall, we did not 
credibly confirm any breach until Monday evening. Once we did, we 
immediately notified affected parties in accordance with established 
procedures.

    Question 3. During the hearing, you also said, ``so there was 
immediate notification that went out post-levee breach of the levee 
breaches that went out through the city, through that system that they 
had with the available communications that we had. So we were there, 
Corps, FEMA, Federal agencies right there in the State emergency 
operations center where some initial reports came in and immediate 
notification went back out.'' Who provided the ``immediate 
notification''? Did that happen as planned? Through what means and to 
whom did the immediate notification go back out?'' Was news media 
notified? Through what means did you intend the citizens who did not 
evacuate New Orleans to learn that the levees had failed? Did the corps 
inform the State and local agencies that a renewed evacuation order 
should be issued?
    Response. Who provided the ``immediate notification''? Once the 
corps confirmed a breach, we immediately notified local and State 
representatives in the State emergency operations center, which is 
responsible for the flow of information.
    Did that happen as planned? Yes, but due to the restricted mobility 
and communications following landfall, we did not credibly confirm any 
breach until Monday evening, August 29th.
    Through what means and to whom did the immediate notification go 
``back out''? The State emergency operations center was responsible for 
the flow of information.
    Was news media notified? The State emergency operations center was 
responsible for the flow of information.
    Through what means did you intend the citizens who did not evacuate 
New Orleans to learn that the levees had failed? Notification of State 
officials of flooding was provided immediately on confirmation of the 
compromises in the hurricane protection system. The notification of 
citizens is the responsibility of State and local Governments.
    Did the corps inform the State and local agencies that a renewed 
evacuation order should be issued? Evacuation of citizens and issuance 
of evacuation orders are the responsibilities of the local 
jurisdictions, and by mid-afternoon Saturday, August 28th, officials in 
Plaquemines, St. Bernard, St. Charles, Lafourche, Terrebonne and 
Jefferson parishes had called for voluntary or mandatory evacuations. A 
voluntary evacuation was issued for New Orleans early Saturday evening 
and a mandatory evacuation was issued Sunday morning. Post event 
evacuation orders as a result of flooding and other consequences of the 
hurricane were also issued by local officials.

    Question 4. Based on the answers to the above questions, and the 
experience of Hurricane Katrina, have the corps, the city, and the 
State developed a revised notification plan? If not, what is the 
timeline for doing so?
    Response. Notification of State officials of flooding was provided 
immediately on confirmation of the compromises in the hurricane 
protection system. The notification of citizens referred to above is 
the responsibility of State and local Governments. The initial actions 
of prevention, mitigation, preparedness, and response and recovery 
operations are conducted by local Government. Per the State of 
Louisiana's 2005 Emergency Operations Plan, the Parish and Municipal 
Governments' Chief Executive has overall responsibility by law for the 
direction and control of emergency/disaster operations and is assisted 
by a Local Homeland Security and Emergency Preparedness Director. My 
understanding is that a revised emergency notification plan is under 
development by the State and will be available in about 1 month.

    Question 5. Can you describe the notification plan you have in 
place at the Waterbury Dam in Vermont?
    Response. The Waterbury Dam is a non-Federal project, and as such, 
the local authorities, not the Corps of Engineers, are responsible for 
monitoring the levees and for the notification plan.

    Question 6. General Riley, there has been much discussion of the 
Mississippi River Gulf Outlet and the effect it had in magnifying the 
storm surge that reached New Orleans. There is very little traffic on 
this navigation channel, and many have urged that we close it 
immediately to prevent it from causing additional flooding during 
another hurricane. Is the corps evaluating this option in the wake of 
Hurricane Katrina, and if so, what have you found?
    Response. There are four ongoing efforts related to the Mississippi 
River Gulf Outlet (MRGO)--a re-evaluation of the MRGO navigation 
project, two efforts to address ecosystem restoration needs for the 
MRGO under the Louisiana Coastal Area (LCA) authority, and a storm 
surge analysis being conducted by an interagency performance taskforce 
commissioned by the Chief of Engineers. All but the storm surge 
analysis predated Katrina. Preliminary analysis of the flooding in St. 
Bernard and Orleans Parishes do not indicate that the existence of the 
MRGO caused flooding or the compromising of the hurricane protection 
system. The reevaluation study of the MRGO referenced above will be 
revised to consider the new information. A report will then be 
available for Congressional consideration as to the future of MRGO. 
Appropriate actions will be taken once Congressional consideration and 
direction has been provided. Meanwhile, additional initiatives are 
described below.
    During FY 2005, the corps was preparing a reevaluation of the MRGO 
to determine whether there is an alternative to the present project 
that would be more beneficial to the nation. When Hurricane Katrina 
struck Louisiana, the report was preliminarily updated to note that the 
with- and without-project conditions in the study area were changed by 
the hurricane. These changes included significant property damage to 
port facilities, loss of coastal wetlands, and disruption to deep-draft 
navigation due to deposition of sediment in the MRGO. An additional 
assessment that considers current conditions as well as likely future 
conditions in the study area is necessary. the corps plans to conduct a 
comprehensive analysis of MRGO that would include not only economic 
factors but also environmental measures.
    A feasibility cost sharing agreement is being negotiated for the 
LCA MRGO Critical Shoreline Stabilization project. This project would 
address the stabilization of the existing land bridge shoreline between 
Lake Borgne and the MRGO. This wetland feature is a critical element in 
any future effort to achieve channel closure as well as the 
implementation of a higher level hurricane protection system.
    the corps is also developing a project management plan (PMP) for 
the longer-term MRGO Ecosystem Restoration study. The PMP will outline 
the range of the alternative analysis, including channel closure or 
reduction options, as they relate to ecosystem restoration and trade 
offs with economic activities across the entire study area.
    The post-Katrina interagency performance evaluation taskforce is 
performing storm surge and wave modeling and interior drainage/flooding 
modeling. The results of this analysis will indicate what role, if any, 
the Mississippi River Gulf Outlet (MRGO) played in the flooding. If it 
is found that the MRGO, or any other physical feature in the area, 
caused or augmented the flooding, the appropriate engineering solution 
will be developed to address the condition.
    An opportunity exists to analyze the effects of storm surges in the 
channel with funding provided in the FY 2006 Energy and Water 
Development Appropriations Act for a hurricane study for South 
Louisiana.

    Question 7. General Riley, during the stakeholders meeting we held 
in this committee, and during last week's hearing with Mayor Nagin, one 
of the major points was that local redevelopment plans must drive 
Federal investments. For example, it may be possible to redevelop the 
city in such a manner that the highest levels of flood control are not 
required everywhere. The Mayor and the Governor both have planning 
processes underway. I realize that time is of the essence in 
rebuilding, but you don't want to spend huge amounts of resources 
rebuilding flood control in an area where no one is going to live. How 
is the corps participating in the local process to set up a 
redevelopment plan, and are you coordinating your decisions regarding 
repair of the existing projects with these groups?
    Response. the corps is repairing the damaged hurricane protection 
system to provide the level of protection authorized by Congress prior 
to Katrina, as has been directed by Congress and supported by the 
Administration. This effort is not dependent on State and local 
redevelopment plans, nor can it be in view of the mission to complete 
the restoration by 1 June 06. We are coordinating the repair of the 
existing system with local and State officials, thereby enabling public 
interest and business investment decisions to be made. We are also 
participating, when invited, in local planning meetings and have met 
with representatives of the New Orleans business community, to share 
the Federal plans for restoration of the hurricane protection system. 
We have individuals assigned as liaisons with both the City of New 
Orleans and the State--Louisiana Recovery Authority to ensure full 
communication and awareness in the planning efforts.

    Question 8. General Riley, we have heard informally from some 
experts who have laid out a specific plan for water resources, post-
Katrina. It includes:

    <bullet> replacing barrier islands
    <bullet> restoring wetlands
    <bullet> closing MRGO
    <bullet> fill in canals
    <bullet> move pump stations in New Orleans to higher ground.

    Based on your experience and the impact of Hurricane Katrina, is 
this a reasonable set of actions to take?
    Response. Funds have been provided through the FY 2006 Energy and 
Water Development Appropriations Act to undertake the investigations 
that would directly answer this question. Some options, such as 
replacing barrier islands and restoring wetlands, are universally 
considered reasonable components of a stronger hurricane protection 
system. Others need to be evaluated in more detail. These detailed 
analyses will be coordinated with an ongoing investigation of the 
current hurricane protection system by an interagency performance 
evaluation taskforce. The taskforce is presently examining and 
analyzing data from the storm and will rationally test various 
hypotheses about the behavior of the hurricane protection 
infrastructure. The taskforce will use collected data, laboratory 
testing, and modeling activities in its analysis. The work currently 
planned includes providing an updated and accurate vertical geodetic 
datum, performing storm surge and wave modeling; determining the 
hydrodynamic forces created by the storm, analyzing the floodwall and 
levee performance when subjected to these forces; conducting interior 
drainage/flooding modeling to include pumping station performance; and 
conducting a consequence analysis and a risk and reliability 
assessment.

    Question 9. General Riley, can you give us your reaction to recent 
findings that repeated modes of failure in Katrina were problems at 
transition sections where two different levee systems joined together 
which would seem to suggest a more consolidated approach to managing 
levee systems is warranted?
    Response. We did experience compromises at some of the transition 
sections; however, the compromises were a function of technical 
considerations (i.e., crossings, structure type, etc) not 
jurisdictional factors. As part of the repair of the existing system, 
we are strengthening transition zones where levees and floodwalls abut 
via longer transition zones and embedment depths, hardened scour zones 
and deeper piles. Most of the transitions referred to are within a 
single system where specific field conditions required transitions 
between types of construction such as a concrete closure structure for 
a road crossing in a levee. A consolidated approach to management of 
the system could result in more of a communication benefit than a 
technical benefit

    Question 10. General Riley, I understand that you do not intend to 
have completed your analysis of what happened with the levees until 
next spring. I also know that you are planning to rebuild the existing 
levee system to category three protections by next June. If design 
flaws were part of the cause of failure, how can you rebuild until you 
have the ability to define and correct those flaws? Can you describe 
the design changes you are implementing during the levee repairs based 
on preliminary findings of failure modes of the levees?
    Response. We are rebuilding the system to its congressionally 
authorized level, which is to withstand a hurricane with 100 MPH winds, 
a barometric pressure of 27.4 Hg, and a forward speed of 11 MPH. This 
is not the same as a ``Category 3 hurricane'', notwithstanding 
references to Category 3 for simplicity purposes. We must not wait 
until the performance evaluation is complete to begin applying what we 
learn. As we learn we will immediately act to incorporate those 
findings into the work in which we are engaged. In the interim, results 
are being shared on an ongoing basis with the team responsible for the 
repair of the existing levees and floodwalls. As the data collection 
teams have been completing their work, they have been convening exit 
briefings with representatives of the New Orleans District. Some of the 
design changes that we are already implementing include: replacing 
damaged I-walls with T-walls and L-walls and increasing the depth of 
sheet pile seepage barriers in the breached areas; strengthening 
transition zones where levees and floodwalls abut via longer transition 
zones and embedment depths, hardened scour zones and deeper piles; 
hardening surfaces susceptible to scour; and hardening surfaces around 
points where pipelines or other features penetrate levees.

    Question 11. On November 9, 2005, the NAS released a report on the 
coastal Louisiana restoration plan. One of its major recommendations 
echoes themes we have heard about local redevelopment plans--they 
recommend the development of an explicit map of the expected future 
landscape of coastal Louisiana. Without this, it will be difficult to 
move forward with coastal restoration and flood control in a targeted 
manner. Can you give me your response to this recommendation and your 
thoughts on how it should be implemented in Louisiana?
    Response. the corps' traditional approach to water resources 
planning was designed to facilitate problem solving and decision making 
for specific sites and projects. Today, the corps is being asked to use 
its planning capability to facilitate, convene, advise, and work 
collaboratively with other Federal and State programs in developing 
solutions and integrating programs, policies, and projects across 
public agencies. Collaboration is the keystone of the corps watershed 
approach. One way that a map of the expected future landscape could be 
created is through shared vision planning. Shared vision planning is a 
planning process that incorporates collaboration (including public 
participation), sound technical analysis, and tried and true planning 
principles into a practical forum in which resource management 
decisions are made. The State of Louisiana is developing a 
comprehensive plan for coastal protection and restoration. the corps is 
an integral part of this process and will be working closely with the 
State in the development of this plan.

    Question 12. GAO noted in 1982 that the corps had experienced local 
pressure to reduce the level of hurricane protection provided. The GAO 
report States that in 1982, the Orleans Levee District recommended that 
the corps lower its design standards to provide more realistic 
hurricane protection to withstand a hurricane whose intensity might 
occur once every 100 years rather than building a project to withstand 
a once in 200-300 year storm. The GAO reported that the Levee District 
believed this would make the project more affordable, provide adequate 
protection, and speed project completion. How did this dynamic affect 
the design of the canal levees?
    Response. the corps did not lower the design standards of the 
protection system. As part of a re-evaluation report completed in July 
1984, the corps changed its recommendation from the ``barrier plan'' 
which included levees, floodwalls, and three barrier structures to a 
``high level plan'' that would include an increased height of levees 
and floodwalls, but no barriers. This addressed environmental concerns 
with the project, reduced the overall project cost, and maintained the 
300-year level of protection. the corps did not recommend construction 
of parallel levees along the lengths of the 17th St, London St. and 
Orleans outfall canals. Rather, closure structures known as ``butterfly 
gates'', placed at the mouths of the canals were recommended by the 
corps, thereby tying into the levee systems to be constructed along 
Lake Pontchartrain. The local sponsor preferred plan was the 
construction of parallel protection along the lengths of the outfall 
canals. While the cost/benefit ratio of the corps and local plans was 
close, closure structures as proposed by the corps were more economical 
as well as preferred on an engineering basis for both the London Canal 
(where flooding occurred) and the Orleans Canal (where no flooding 
occurred). Nevertheless, Congress directed the construction of the 
parallel protection structures in lieu of the closure structures 
recommended by the corps. Private architecture and engineering firms 
were hired to design the floodwalls and the designs were approved by 
the corps.
                                 ______
                                 
 Statement of Anu Mittal, Director, Natural Resources and Environment, 
                   U.S. General Accountability Office
    Mr. Chairman and members of the committee, we are pleased to be 
here today to discuss the U.S. Army Corps of Engineers (Corps) Lake 
Pontchartrain, and Vicinity, Louisiana Hurricane Protection Project. 
This project, first authorized in 1965, was designed to protect the 
lowlands in the Lake Pontchartrain tidal basin within the greater New 
Orleans metropolitan area from flooding by hurricane-induced sea surges 
and rainfall. As you know, the effects of Hurricane Katrina breeched 
the levees that are part of this project and flooded a large part of 
New Orleans. In my testimony, I will discuss (1) the purpose and 
history of the project and (2) funding of the project. This statement 
is based on GAO's past reports on the Lake Pontchartrain and Vicinity, 
Louisiana Hurricane Protection Project and on the corps' flood control 
efforts in general, which we updated as necessary.\1\
---------------------------------------------------------------------------
    \1\GAO, Cost, Schedule, And Performance Problems Of The Lake 
Pontchartrain And Vicinity, Louisiana, Hurricane Protection Project, 
GAO/PSAD-76-161 (Washington, D.C.: Aug. 31, 1976); GAO, Improved 
Planning Needed By The Corps Of Engineers To Resolve Environmental, 
Technical, And Financial Issues On The Lake Pontchartrain Hurricane 
Protection Project, GAO/MASAD-82-39 (Washington, D.C.: Aug. 17, 1982); 
and GAO, Army Corps of Engineers: Lake Pontchartrain and Vicinity 
Hurricane Protection Project, GAO-05-1050T (Washington, D.C.: Sept. 28, 
2005).
---------------------------------------------------------------------------
    In summary, the Lake Pontchartrain hurricane project was designed 
to protect areas around the lake from flooding caused by a storm surge 
or rainfall associated with a standard project hurricane, which is 
roughly the same as what is now classified as a fast moving Category 3 
hurricane. The project, when designed in the mid-1960s, was expected to 
take about 13 years to complete and cost about $85 million. Over the 
years, the project has undergone some significant design changes as a 
result of a successful court challenge, local opposition to certain 
aspects of the proposed design, and changed Corps thinking about the 
most cost-effective approach. None of these changes, however, affected 
the level of protection provided to New Orleans because the alternative 
design selected was expected to provide the same level of protection. 
As of early 2005, the project was not expected to be completed until 
2015--nearly 50 years after it was first authorized--and cost about 
$738 million, much of the cost increase is due to inflation over the 
years and changes to the scope and design of the project. In recent 
years, questions have been raised about the ability of the project to 
protect the New Orleans are from hurricanes greater than Category 3. 
This issue was only beginning to be studied by the corps when Hurricane 
Katrina hit the area in August 2005.
                               background
    Since its founding in 1718, the city of New Orleans and its 
surrounding areas have been subject to numerous floods from the 
Mississippi River and hurricanes. The greater New Orleans metropolitan 
area, composed of Orleans, Jefferson, St. Charles, St. Bernard, and St. 
Tammany parishes, sits in the tidal lowlands of Lake Pontchartrain and 
is bordered generally on its southern side by the Mississippi River. 
Lake Pontchartrain is a tidal basin about 640 square miles in area that 
connects with the Gulf of Mexico through Lake Borgne and the 
Mississippi Sound.
    While the area has historically experienced many river floods, a 
series of levees and other flood control structures built over the 
years were expected to greatly reduce that threat. The greatest natural 
threat posed to the New Orleans area continues to be from hurricane-
induced storm surges, waves, and rainfalls. Several hurricanes have 
struck the area over the years including Hurricane Betsy in 1965, 
Hurricane Camille in 1969, and Hurricane Lili in 2002. The hurricane 
surge that can inundate coastal lowlands is the most destructive 
characteristic of hurricanes and accounts for most of the lives lost 
from hurricanes. Hurricane surge heights along the Gulf and Atlantic 
coasts can range up to 20 feet or more and there is growing concern 
that continuing losses of coastal wetlands and settlement of land in 
New Orleans has made the area more vulnerable to such storms. Because 
of such threats, a series of control structures, concrete floodwalls, 
and levees, was proposed for the area along Lake Pontchartrain in the 
1960s.
   purpose and history of the lake pontchartrain and vicinity flood 
                            control project
    Congress first authorized construction of the Lake Pontchartrain 
and Vicinity, Louisiana Hurricane Protection Project in the Flood 
Control Act of 1965\2\ to provide hurricane protection to areas around 
the lake in the parishes of Orleans, Jefferson, St. Bernard, and St. 
Charles. Although Federally authorized, it was a joint Federal, State, 
and local effort with the Federal Government paying 70 percent of the 
costs and the State and local interests paying 30 percent. the corps 
was responsible for project design and construction and local interests 
were responsible for maintenance of levees and flood controls. The 
original project design, known as the barrier plan, included a series 
of levees along the lakefront, concrete floodwalls along the Inner 
Harbor Navigation Canal, and control structures, including barriers and 
flood control gates located at the Rigolets and Chef Menteur Pass 
areas. These structures were intended to prevent storm surges from 
entering Lake Pontchartrain and overflowing the levees along the 
lakefront. The original lakefront levees were planned to be from 9.3 
feet to 13.5 feet high depending on the topography of the area directly 
in front of the levees.
---------------------------------------------------------------------------
    \2\Pub. L. No. 89-298, ' 204, 79 Stat. 1073, 1077.
---------------------------------------------------------------------------
    This project plan was selected over another alternative, known as 
the high-level plan, which excluded the barriers and flood control 
gates at the Rigolets and Chef Menteur Pass complexes and instead 
employed higher levees ranging from 16 feet to 18.5 feet high along the 
lakefront to prevent storm surges from inundating the protected areas. 
In the 1960s, the barrier plan was favored because it was believed to 
be less expensive and quicker to construct. As explained later in my 
statement, this decision was reversed in the mid-1980s. The cost 
estimate for the original project was $85 million (in 1961 dollars) and 
the estimated completion date was 1978.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



    The original project designs were developed to combat a hurricane 
that might strike the coastal Louisiana region once in 200-300 years. 
The basis for this was the standard project hurricane developed by the 
corps with the assistance of the United States Weather Bureau (now the 
National Weather Service). The model was intended to represent the most 
severe meteorological conditions considered reasonably characteristic 
for that region. The model projected a storm roughly equivalent to a 
fast-moving Category 3 hurricane. A Category 3 hurricane has winds of 
111-130 miles per hour and can be expected to cause some structural 
damage from winds and flooding near the coast from the storm surge and 
inland from rains.
    Even before construction began on the project, it became evident 
that some changes to the project plan were needed. Based on updated 
Weather Bureau data on the severity of hurricanes, the corps determined 
that the levees along the three main drainage canals, that drain water 
from New Orleans into Lake Pontchartrain, would need to be raised to 
protect against storm surges from the lake. The need for this 
additional work became apparent when Hurricane Betsy flooded portions 
of the city in September 1965.
    During the first 17 years of construction on the barrier plan, the 
corps continued to face project delays and cost increases due to design 
changes caused by technical issues, environmental concerns, legal 
challenges, and local opposition to various aspects of the project. For 
example, foundation problems were encountered during construction of 
levees and floodwalls which increased construction time; delays were 
also encountered in obtaining rights-of-ways from local interests who 
did not agree with all portions of the plan. By 1981, cost estimates 
had grown to $757 million for the barrier plan, not including the cost 
of any needed work along the drainage canals, and project completion 
had slipped to 2008. At that time, about $171 million had been made 
available to the project and the project was considered about 50 
percent complete, mostly for the lakefront levees which were at least 
partially constructed in all areas and capable of providing some flood 
protection although from a smaller hurricane than that envisioned in 
the plan.
    More importantly during the 1970s, some features of the barrier 
plan were facing significant opposition from environmentalists and 
local groups who were concerned about environmental damages to the lake 
as well as inadequate protection from some aspects of the project. The 
threat of litigation by environmentalists delayed the project and local 
opposition to building the control complexes at Rigolets and Chef 
Menteur had the potential to seriously reduce the overall protection 
provided by the project. This opposition culminated in a December 1977 
court decision\3\ that enjoined the corps from constructing the barrier 
complexes, and certain other parts of the project until a revised 
environmental impact statement was prepared and accepted. After the 
court order, the corps decided to change course and completed a project 
reevaluation report and prepared a draft revised Environmental Impact 
Statement in the mid-1980s that recommended abandoning the barrier plan 
and shifting to the high-level plan originally considered in the early 
1960s. Local sponsors executed new agreements to assure their share of 
the non-Federal contribution to the revised project. The level of 
protection provided to New Orleans was not expected to change because 
the high-level design was expected to provide the same level of 
protection as the original barrier design.
---------------------------------------------------------------------------
    \3\Save Our Wetlands v. Rush, Civ. A. No. 75-3710 (E.D. La. Dec. 
30, 1977).
---------------------------------------------------------------------------
    As of 2005, the project as constructed or being constructed 
included about 125 miles of levees and the following major features:

    <bullet> New levee north of Highway U.S. 61 from the Bonnet Carr 
Spillway East Guide Levee to the Jefferson-St. Charles Parish boundary
    <bullet> Floodwall along the Jefferson-St. Charles Parish boundary
    <bullet> Enlarged levee along the Jefferson Parish lakefront
    <bullet> Enlarged levee along the Orleans Parish lakefront
    <bullet> Levees, floodwalls, and flood proofed bridges along the 
17th Street, Orleans Avenue and London Avenue drainage canals
    <bullet> Levees from the New Orleans lakefront to the Gulf 
Intracoastal Waterway
    <bullet> Enlarged levees along the Gulf Intracoastal Waterway and 
the Mississippi River-Gulf Outlet
    <bullet> New levee around the Chalmette area.

    The project also includes a mitigation dike on the west shore of 
Lake Pontchartrain.
    The pre-Katrina estimated cost of construction for the completed 
project was $738 million with the Federal share being $528 million and 
the local share $210 million. The estimated completion date as of May 
2005 for the whole project was 2015. Prior to Katrina, the project was 
estimated to be from 60-90 percent complete in different areas. The 
work in Orleans Parish was estimated to be 90 percent complete with 
some work remaining for bridge replacement along the Orleans Avenue and 
London Avenue
    drainage canals. The floodwalls along the canals, where the recent 
breaches occurred, were complete. Jefferson Parish work was estimated 
to be 70 percent complete with work continuing on flood proofing the 
Hammond Highway bridge over 17th Street and two lakefront levee 
enlargements. Estimated completion for that work was 2010. In the 
Chalmette area work was estimated to be 90 percent complete with some 
levee enlargement work and floodwall work remaining. In St. Charles 
Parish work was 60 percent complete with some gaps still remaining in 
the levees. Closure of these gaps had been scheduled to be completed by 
September 2005.
    Post Katrina, four investigation teams sponsored by the American 
Society of Civil Engineers, the corps, the State of Louisiana, and the 
National Science Foundation, began gathering forensic data to determine 
what caused the levee breaches in New Orleans. Preliminary reports from 
these teams indicate that they found a number of different mechanisms 
that caused failures in the levee system, including scour erosion 
caused by overtopping, seepage, soil failure, and internal erosion 
(also known as piping). On November 4, 2005, the corps told us that it 
was too soon to determine whether the change in project design had any 
impact on the levee breaches that occurred in New Orleans, and the 
Agency is still in the process of assessing whether the change in the 
project design had any impact on the breaches. However, the 
investigations necessary to address this question are not planned to be 
conducted by the corps as part of its ongoing examination of the 
performance of the existing project. Instead these investigations would 
be included in future analyses of any modifications to the existing 
hurricane protection system.
                 recent funding history for the project
    Federal allocations for the project totaled $458 million as of the 
enactment of the fiscal year 2005 Federal appropriation. This 
represents 87 percent of the Federal Government's responsibility of 
$528 million with about $70 million remaining to complete the project 
in 2015. Over the last 10 fiscal years (1996-2005), Federal 
appropriations have totaled about $128.6 million and Corps 
reprogramming actions resulted in another $13 million
    being made available to the project. During that time, 
appropriations have generally declined from about $15-20 million 
annually in the earlier years to about $5-7 million in the last three 
fiscal years. While this may not be unusual given the state of 
completion of the project, the corps' project fact sheet from May 2005 
noted that the President's Budget request for fiscal years 2005 and 
2006 and the appropriated amount for fiscal year 2005 were insufficient 
to fund new construction contracts. Among the construction efforts that 
could not be funded according to the corps were the following:

    <bullet> Levee enlargements in all four parishes
    <bullet> Pumping station flood protection in Orleans Parish
    <bullet> Floodgates and a floodwall in St. Charles Parish
    <bullet> Bridge replacement in Orleans Parish.

    the corps had also stated that it could spend $20 million in fiscal 
year 2006 on the project if the funds were available. the corps noted 
that several levees had settled and needed to be raised to provide the 
design-level of protection. For the last few years, the project 
generally received the amount of funds appropriated to it and was not 
adversely affected by any corps reprogramming actions.
    In recent years, questions have been raised about the ability of 
the project to withstand larger hurricanes than it was designed for 
such as a Category 4 or 5, or even a slow-moving Category 3 hurricane 
that lingered over the area and produced higher levels of rainfall. 
Along this line, the corps completed in 2002 a reconnaissance or pre-
feasibility study on whether to strengthen hurricane protection along 
the Louisiana coast. A full feasibility study was estimated to take at 
least 5 years to complete and cost about $8 million. In March 2005, the 
corps reported that it was allocating $79,000 to complete a management 
plan for the feasibility study and a cost-share agreement with local 
sponsors. The President's fiscal year 2006 budget request did not 
include any funds for the feasibility project.
    In closing, the Lake Pontchartrain hurricane project has been under 
construction for nearly 40 years, much longer than originally 
envisioned and at much greater cost, although much of that can be 
attributed to inflation over these years, and the project is still not 
complete. Whether the state of completion of the project or the change 
in design played a role in the flooding of New Orleans in the wake of 
Hurricane Katrina in August 2005 is still to be determined as are 
issues related to whether a project designed to protect against 
Category 4 or 5 hurricanes would or could have prevented this 
catastrophe.
    Mr. Chairman, this concludes my prepared testimony. We would be 
happy to respond to any questions that you or members of the 
subcommittee may have.
                                 ______
                                 
 Responses by Anu Mittal to additional Questions from Senator Jeffords
    Question 1. GAO noted in 1982 that the corps had experienced local 
pressure to reduce the level of hurricane protection provided. The GAO 
report states that in 1982, the Orleans Levee District recommended that 
the corps lower its design standards to provide more realistic 
hurricane protection to withstand a hurricane whose intensity might 
occur once every 100 years rather than building a project to withstand 
a once in 200-300 year storm. The GAO reported that the Levee District 
believed this would make the project more affordable, provide adequate 
protection, and speed project completion. How did this dynamic affect 
the design of the canal levees?
    Response. GAO does not have information on whether the 1982 
comments made by the Orleans Levee Board had any impact on the design 
that was ultimately selected for the canal levees. As early as 1965, 
the corps became aware that the hurricane protection along the drainage 
canals would have to be strengthened; but in 1982, we reported that 
there was wide disparity between the corps and local sponsors about 
what solution could be provided under the project. In that report, we 
also concluded that the work at the drainage canals would present an 
additional financial burden to the local sponsors. Although at the time 
Corps officials believed that they could reach agreement with local 
sponsors by the end of 1982 on a solution for the drainage canals, this 
agreement was not reached until the early 1990s.

    Question 2. In the opinion of the lawsuit in question, the judge 
wrote. The foregoing opinion should in no way be construed as 
precluding the Lake Pontchartrain project as proposed or reflecting on 
its advisability in any manner. The Court's opinion is limited strictly 
to the finding that the EIS of August, 1974 for this project was 
legally inadequate. Upon compliance with the law with regard to the 
impact statement this injunction will be dissolved and any hurricane 
plan thus properly presented will be allowed to proceed.'' Ms. Mittal, 
can you comment on the speed and vigor with which the GAO found the 
corps proceeding to comply with the law?
    Response. In 1982, 5 years after the court's decision, we noted 
that there had been no strong effort on the part of the corps to 
complete this project, and the corps had not prepared a suitable 
revised environmental impact statement to get the injunction lifted. We 
reported that after the court injunction the corps attempted to revise 
the impact statement using an interdisciplinary approach and conducted 
hydrologic, biologic, and chemical studies of Lake Pontchartrain. At 
that time, the corps told us that the full impact of the plan on the 
ecological and aquatic composition of the lake could not be 
conclusively determined without additional studies. In 1982, the corps 
suspended several studies being done to analyze the environmental 
effects that the barrier structures would have on Lake Pontchartrain 
because the high-level plan appeared more viable. At the time, the 
corps told us that studies concerning the barrier plan would require 
considerable additional time and expense to complete, and a resulting 
impact statement could not be completed until November 1985. In 
December 1981, the corps directed its future study efforts to the high-
level plan because the corps believed that the high-level plan did not 
have the detrimental impacts of the barrier plan and it provided 
similar protection from a standard project hurricane by surrounding 
developed areas with higher levees.
                                 ______
                                 
   Responses by Anu Mittal to additional question to questions from 
                             Senator Inhofe
    Question 1. Army Corps Career Staff, Fred Caver, Former Deputy 
Director of Civil Works, Rob Vining, Former Chief of Civil Works 
Program management Division, and Joseph Towers, Former Chief Counsel, 
New Orleans District--have all made statements of the detrimental 
effect the environmental litigation had on New Orleans. How did the 
litigation and the persistent threat of litigation influence the corps 
decision?
    Response. As we reported in 1976 and 1982, the threat of litigation 
and the court injunction in 1977, were two of several factors that 
caused delays in the construction of the Lake Pontchartrain hurricane 
protection project according to the corps' schedule. In 1982, the 
corps' Office of the Chief of Engineers noted that because of the 
environmental litigation, the corps had a general reluctance to proceed 
with the barrier project, because it lacked the in-house capability to 
determine how to perform the required environmental studies to satisfy 
the court. In 1982, the corps also stated that this had contributed to 
project delays despite the high priority designation by the Agency. 
Based on Corps statements, it appears that the court case was also a 
factor that influenced the corps decision to shift from the barrier 
plan to the high-level plan in the mid 1980s. After the corps concluded 
that the high-level plan provided the same level of protection as the 
barrier plan and was more cost effective to build, it shifted to 
constructing the high-level plan and anticipated completing the project 
by 2015. Construction on the portion of the levee system that failed 
during Hurricane Katrina had been completed.

    Question 2. In your testimony before the House you reported a 
position on behalf of the corps about the two different hurricane plans 
stating that one was better than the other. Since then, GAO has changed 
their position because the evidence supporting this was called into 
question. Is that your understanding?
    Response. GAO's position about the level of protection provided to 
New Orleans by the two hurricane project alternatives has not changed. 
Both projects were designed to protect New Orleans from a standard 
project hurricane, thereby providing the same level of protection; this 
position is reflected in both our September and November 2005 
statements. In our September statement, we also accurately reported 
that some Corps district officials believed that the change in 
hurricane protection design did not cause the levee breaches and that 
flooding would have occurred with either design. This observation, we 
believe, was based on the general sense within the corps at that time 
that Hurricane Katrina had resulted in Category 4 level storm surges, 
which had caused the levees to be overtopped, and which in turn 
resulted in scouring that caused the levee breaches. However, between 
September and November, new information became available from the 
investigative teams studying the levee breaches, which indicated that 
not all of the breaches were caused by overtopping, especially those 
that occurred on the drainage canals, which were the breaches that led 
to most of the flooding in downtown New Orleans. A variety of other 
potential causes such as construction flaws and failure to fully 
consider subsoil conditions in the levee design, are now being 
evaluated as well. In addition, Corps officials in Washington told us 
that the statements made by the district did not reflect the corps 
official position and that it was too early to determine whether the 
change in design had any impact on the levee breaches. In light of this 
new information, and in an effort to provide the committee with the 
most current and relevant information, GAO slightly modified its 
statement for the November 9, 2005 hearing.

    Question 3. Is it fair to say that GAO has focused their analysis 
on the funding of the corps projects and not on technical issues?
    Response. For our September and November 2005 statements on the 
history, current status, and funding for the Lake Pontchartrain 
Hurricane Protection project, GAO relied extensively on information 
contained in issued reports from 1976 and 1982, as well as information 
obtained from Corps documents and officials regarding the current 
status and the funding requests and appropriations for the project 
during the last 10 years.
                                 ______
                                 
     Statement of Windell Curole, General Manager, South Lafourche 
                             Levee District
    To adequately discuss what to legislate in order to deal with 
Louisiana's water resources needs, we should first pause and reflect on 
the past. The purchase of New Orleans, and subsequently Louisiana, was 
based on the need to trade the goods and crops of the Midwest to the 
rest of the world. It is no less important today. Today the goods 
traded through South Louisiana have become more valuable to the Midwest 
and other segments of the United States Its importance has increased 
because of energy, seafood, refineries and petro chemical plants.
    In 1849 the Federal Government granted to Louisiana most of the 
Federal land in Louisiana so that revenues from the use and sale of the 
land would produce an economy which could produce income to the Federal 
Treasury. This proved to be beneficial to the Federal Government.
    Again, after the 1927 flood the Federal Government provided 
legislation which resulted in reduced flooding, which has produced both 
improved navigation and flood protection. This, in turn, has led to one 
of the most important economic river corridors in the world, that which 
is located between Baton Rouge and New Orleans.
    These important functions unintentionally led to increased threats 
from the tidal events and hurricanes by depriving the adjacent lands 
from the overflow of the river. Much of these lands, wetlands, marshes 
and ridges built and sustained by the river, have reverted to open 
water resulting in the loss of 2,000 square miles since 1930.
    Although the loss of support from the river had been critical, oil 
exploration, navigation canals and other development have also made 
South Louisiana more susceptible to tidal events. This loss in the 
latter half of the last century has been occurring at approximately 25 
to 35 square miles a year. Subsidence, the loss of elevation, has also 
affected South Louisiana. Some estimate a loss of three feet in 
elevation over the last 100 years. Since most of South Louisiana is 
below a 10 foot elevation above sea level, this has allowed the Gulf of 
Mexico closer to our communities.
    Hurricane protection projects have been constructed and have 
protected communities from the effects of subsidence and coastal 
erosion. A more comprehensive approach would result in more security 
not only for South Louisiana, but the goods and services that South 
Louisiana provides for the country.
    The platform which is South Louisiana is a working coast which 
produces energy, seafood, and trade which greatly benefits the United 
States. Investment by the United States should be considered because of 
what South Louisiana provides for the nation.
    Economic justification should again convince Congress that 
investment in Louisiana will result in a positive return on its 
investment.
    To invest properly and to insure the best return, the needed 
projects in flood protection, coastal restoration and navigation should 
be done in conjunction with each other and done quickly. To accomplish 
this, agencies like the corps must streamline its procedures which 
cause delays, cost increases, and diminished results.
    One of the reasons we have the human part of this natural disaster 
is loss of focus. Projects designed to mitigate the threat were 
ignored. We must design a position which has the capability on the 
local, State, and national level to involve the political leadership to 
work on issues which mitigate the risk from reoccurring natural 
disasters.
    To build the necessary flood protection in a timely fashion, we 
must devise a system which is true to environmental laws, yet does not 
cause people to suffer, and communities to flood while waiting as the 
environmental community ponders and delays work. We must do better in 
building environmental projects which are agreed upon quickly, 
economically, and built to last. In most instances today, our 
environmental projects fall short in service to our people.
    I mention money last because I believe changes must be made to 
reduce cost in order to build more protection, more efficiently. We 
must work as hard as possible to insure that as much money as possible 
reaches contractors who will build well designed protection. Over 
studying, investigating and planning will not stop or reduce flood 
damage. Only physical barriers, levees, and environmental 
infrastructure will give people and communities a chance of surviving a 
hurricane.
    We suggest that a funding stream based on a share of offshore oil 
revenues generated off the Louisiana coast would be the most reasonable 
approach to fund these projects. Some of the problems in South 
Louisiana have directly resulted from its support of the nation's 
energy needs. Most Americans would agree with the fairness of this 
approach. Most Americans will benefit from the proper attention to the 
flood problems of South Louisiana.
                                 ______
                                 
       Responses by Windell Curole to additional questions from 
                            Senator Jeffords
    Question 1. Mr. Curole, can you describe what you would anticipate 
the reaction would he by the local communities if the corps rebuilds 
flood protection to category three that is later found to be fatally 
flawed?
    Response. It would simply be an outrage, The Corp specifications 
are used as standards. Local sponsors are forced to follow and accept 
Corps recommendations or not build a project.
    Some projects are made so expensive that the projects cannot be 
constructed. the corps' procedure and process adds to the cost and time 
for construction without improving the safety or performance of a 
project.
    It is for this reason that to have a flawed project is hard to 
accept. The weakest part of the system is that between the corps 
inspector and the contractor. As a local sponsor to a Corps project, if 
the contractor was good and the inspector suspect or, the inspector was 
good and the contractor suspect, I had confidence that the job would he 
done well. If both were suspect, I tried to have one of my employees on 
the construction site at least on a daily basis.

    Question 2. During the stakeholders meeting we held in this 
committee, and during last week's hearing with Mayor Nagin, one of the 
major points was that local redevelopment plans must drive Federal 
investments. For example, it may be possible to redevelop the city in 
such a manner that the highest levels of flood control are not required 
everywhere. The Mayor and the Governor both have planning processes 
underway. I realize that time is of the essence in rebuilding, but you 
don't want to spend huge amounts of resources rebuilding flood control 
in an area there no one is going to live. Can you give me your 
impressions of how this process is proceeding?
    Response. Replacement and improvement of the levee system for the 
best economy would place that protection in generally the same area, 
Even if certain neighborhoods are not re-established, major 
infrastructure, like roadways, will need protection. The question of 
improved flood protection above category three would apply to the areas 
like St. Bernard. We expect people will move back to areas with 
category three protection., but those communities, without higher 
protection, will not realize full redevelopment.

    Question 3. Mr. Curole, can you give us your reaction to recent 
findings that repeated modes of failure in Katrina were problems at 
transition sections where two different levee systems joined together 
which would seem to suggest a more consolidated approach to managing 
levee systems joined together which would seem to suggest a more 
consolidated approach to managing levee systems is warranted?
    Response. Consolidation or a comprehensive approach has been 
needed, but some problems existed because of planned separations in the 
systems due to navigation canals. A comprehensive hurricane design is 
an area where the corps has been requested and could, with proper 
support, have a consolidated plan. The State is working toward a 
consolidated plan which we, the Levee Board Association, have been 
promoting since 1997. The Mississippi River levee system from Cairo, IL 
to the Gulf is an example of a comprehensive hurricane plan executed 
with local entities.

    Question 4. The USG has reported extensive wetlands losses post-
Katrina. How would you recommend the corps re-evaluate its 
recommendations for restoration of coastal Louisiana in terms 
feasibility given these wetlands?
    Response. The losers are in areas which already have had losses. 
The hurricanes took away what would be lost over the next 5 to 10 
years. The projects which are proposed for restoration continue to he 
useful. I believe that more aggressive projects may be able to be 
supported with a reduced need for study.

    Question 5. On November 9, 2005, the NAS released a report on the 
coastal Louisiana restoration plan. One of it major recommendation 
echoes themes we have heard about local redevelopment plans. They 
recommend the development of an explicit map of the expected future 
landscape of coastal Louisiana. Without this, it will be difficult to 
move forward with coastal restoration and flood control in a targeted 
manner. Can you give me your response to this recommendation and your 
thoughts on how it should be implemented in Louisiana?
    Response. This is a chicken and egg situation. We can draw a line 
if support for projects is provided. I would look at first protecting 
the wetlands around our ridges and work toward maintaining our barrier 
islands. Next is to maintain the marsh fringe around the bays and 
lakes. Leadership in Louisiana should prioritize wetlands which protect 
infrastructure and attempt to maximize the functions of an estuary. 
This means to have freshwater regime which gradually transform into 
intermediate brackish and salt water near the Gulf. I believe we can 
provide a map reflecting the future. I would create teams of scientists 
who have like beliefs to develop their different images of the future. 
I would then have the Governor's Advisory Committee on Coastal 
Restoration accept one map which reflects the consensus of the 
committee.

    Question 6. One of the Key themes we have heard is that cost-
benefit analysis procedures we should be revised most significantly to 
account for potential loss of life. What are your views on the revision 
or abandonment of cost-benefit analysis as a decision-making tool for 
the corps?
    Response. The cost-benefit concept is a valid method; the problem 
is the definition of what has value and its determination. Population 
has a place in benefit. The problem is the value of community. I do not 
know how to make the balance of the population, the economical value 
and the environmental value. It is difficult, but I believe that all 
three should have standing in cost-benefit calculations. Often projects 
for one local produce regional benefits which should also be included.

    Question 7. Given the corps' experience in Hurricane Katrina, can 
you tell us if you believe that the Federal Government should do more 
to ensure the safety of our Nation's levee program? For example, should 
safety standards and an inspection regime be established?
    Response. It appears that a need exists to insure that systems are 
built to specifications. I believe that Corps project managers should 
be made responsible for the performance of the projects of which they 
are designated. The State is presently planning for an inspection 
system. Previously the State assisted in the corps inspection program.

    Question 8. There has been much discussion of the Mississippi River 
Gulf Outlet and the effect it had in magnifying the storm surge that 
reached New Orleans. Can you give me your specific recommendations 
regarding this Outlet in light of what happened during Katrina?
    Response. The intersection of the Mississippi River Gulf Outlet 
with the Gulf Intracoastal Canal at a juncture where two levee systems 
funnel the water well logically cause higher water levels.
    A closure on the Mississippi River Gulf would reduce water levels, 
but or the large powerful storm, some damage may not be altered.
    A structure across the Intracoastal Canal just east of the 
intersection of the Mississippi Gulf Outlet would reduce the entry of 
storm water toward the industrial canal.
    I have no personal experience with the storm surges of that 
location and I base my comments on the run up of storm water at the 
intersection of the levees in my area. Please accept my comments on the 
Mississippi River Gulf Outlet in that perspective.
                                 ______
                                 
  Statement of Peter Brink, Senior Vice President, Programs, National 
                    Trust for Historic Preservation
                              introduction
    Chairman Inhofe and members of the committee, thank you for the 
opportunity to testify today on the recovery and rebuilding efforts 
underway in coastal Louisiana as you consider legislation on a 
comprehensive approach to the water resources needs of that area. As 
the people of the Gulf Coast move forward to restore countless historic 
homes, buildings and landscapes damaged by Katrina, let me emphasize 
the role that Congress can and should play in ensuring that historic 
properties in this region are afforded the maximum possible protection 
against catastrophic storms. This part of the country has an enormously 
rich history with one of the largest concentrations of historic 
buildings in the United States.
    In addition to fostering the stewardship of our Nation's heritage, 
historic preservation is a powerful force in the local and State 
economy. In Louisiana, culture means business and it relies upon the 
full development of a unique and irreplaceable heritage of historic 
districts, historic buildings, and places. A recent survey shows that 
28 percent of those who visit Louisiana typically come to enjoy its 
distinctive neighborhoods and visit individual historic properties. 
With regard to New Orleans, 10.1 million people visited in 2004 and 
spent $5.5 billion dollars there; 75,000 people were directly employed 
in the travel industry there. As attention shifts from rescue to 
reconstruction in New Orleans and the Gulf Region, we must answer the 
question of how, and in what form, the rebuilding will happen, and how 
its historic fabric will be protected for generations to come. If we 
get the response wrong, Katrina could turn out to be among the greatest 
cultural disasters the nation has ever experienced and a disaster from 
which Louisiana may never fully recover.
    For more than 50 years, the National Trust for Historic 
Preservation has been helping to protect the nation's historic 
resources. The National Trust is a private, nonprofit membership 
organization dedicated to protecting the irreplaceable. Recipient of 
the National Humanities Medal, the Trust provides leadership, education 
and advocacy to save America's diverse historic places and revitalize 
communities. Its Washington, D.C. headquarters staff, 6 regional 
offices and 26 historic sites work with the Trust's quarter-million 
members and thousands of local community groups in all 50 States. As a 
private nonprofit organization, the National Trust is the leader of a 
vigorous preservation movement that is saving the best of our past for 
the future. Its mission has expanded since its founding in 1949 just as 
the need for historic preservation has grown. When historic buildings 
and neighborhoods are torn down or allowed to deteriorate, we not only 
lose a part of our past forever, we also lose a chance to revitalize 
our communities.
                          saving our heritage
    In dealing with the Mississippi River floods of 1993, the 
Northridge earthquake of 1994, and numerous other natural disasters, 
the National Trust has learned that often, the first impulse of local 
officials is to tear down almost every damaged building in the name of 
public safety. We have also learned that this first impulse is almost 
always wrong. Obviously, some historic buildings--perhaps many of 
them--will necessarily be lost, but we should not lose more than we 
have to. Building inspectors in New Orleans are already at work and 
have evaluated the structural integrity of more than 50,000 of the 
city's roughly 110,000 homes damaged by the hurricane. While the 
inspectors' findings are not the final word, they indicate that 
thousands of New Orleans homeowners may face a tough decision between 
demolishing their homes and opting for new construction, or choosing to 
renovate.
    Some unfortunate demolitions have already taken place, including 
the hasty razing of the Naval Brigade Hall, a significant landmark in 
the history of New Orleans jazz. This 102-year old Warehouse District 
building, which the city had declared uninhabitable, was a site on the 
National Park Service's jazz tour. It was torn down on September 26th 
without permits or permission from the city or owner. This is why any 
building deemed unsalvageable and recommended for demolition must be 
reviewed by the State historic preservation officer in Baton Rouge, who 
will determine if the property needs a Section 106 review. This is 
essential for all buildings that might be considered historic.
    On the legislative front, the National Trust urges the committee to 
safeguard coastal Louisiana's historic legacy by following three basic 
principles:
    1. Provide the best infrastructure for the Nation's premier 
historic area.--Congress should provide all necessary resources to 
rebuild a levee system that recognizes the need to protect the nation's 
richest inventory of historic treasures. This includes the city's 
levees and completing a system of hurricane protection southward toward 
the Gulf and in the suburbs once and for all. It should anticipate the 
worst--a category 5 hurricane or the drenching slow-moving storm.
    2. The restoration and redevelopment of protective wetlands.--
Natural water resources must compliment man-made infrastructure to 
mitigate the damaging effects of future catastrophic storms. Erosion 
along Louisiana's coast has eliminated over 1 million acres of wetlands 
at an ever-quickening pace. As a result, the Army Corps' own hurricane 
protection levees have become more vulnerable. They were built with the 
understanding that they would be buffered from winds and storm surges 
by 40 to 50 miles of protective swamp and marsh. The communities these 
levees protect are now constantly vulnerable with higher surges and 
stronger wind-driven waves.
    3. Full compliance will the National Historic Preservation Act's 
(NHPA) Section 106 requirements.--Thorough Section 106 review must be 
part of any Army Corps of Engineers work and in all Federal Agency 
actions related to rebuilding Louisiana's infrastructure. Section 106 
provides a process that requires those agencies to ``take into 
account'' the effects of their decisions and their projects on historic 
properties, and to work with States, tribes, and local communities to 
seek ways to lessen the effects of those projects. It requires a 
process, not an outcome. The goal is not to save every historic site 
but to make sure that they are considered and that their value is 
weighed against other public values.

    Furthermore, the National Trust sees historic preservation as a 
critical component of revitalizing the Gulf Coast Region's economy and 
making its neighborhoods whole again. We, along with the American 
Institute of Architects (AIA) are asking Congress to pass a package of 
tax incentives and grants to restore and rehabilitate historic 
structures affected by Katrina, and we urge your support. I will 
provide you with details on our proposals, but let me describe the 
magnitude of the situation first.
                        background and overview
    I recently visited southeastern Louisiana; the damage and loss to 
buildings is catastrophic, affecting Federally, State, and locally 
designated historic treasures. In New Orleans alone the National Trust 
estimates that Katrina's devastating winds, rain, and subsequent 
flooding have in some way affected the 38,000 designated structures 
across the city's historic districts.
    The scope of the crisis is so great because the Gulf Coast Region 
itself has one of the Nation's largest collections of historic 
buildings. Since the French crown established settlements to make a 
permanent presence close to the Mississippi starting with Biloxi Bay in 
1699, the area has been home to a blend of cultures, traditions, 
buildings, and landscapes unlike those found anywhere else in the 
United States. So much of its architectural uniqueness was influenced 
by the convergence of a rich antebellum planter society and a powerful 
commercial economy driven by river, port, and Gulf. Nowhere is this 
more apparent than New Orleans, once the largest city west of the 
Appalachians and the nation's third largest by 1830. The city contains 
20 National Register historic districts encompassing half of its total 
area, the largest concentration of historic districts in the United 
States. This is why we must make every effort to rebuild and restore 
this area, and why we must acknowledge the special character of this 
entire region. Failure to do so would compound the devastation that has 
already occurred.
    What is needed first are conscientious, comprehensive surveys 
conducted by experts in construction, architecture, engineering and 
preservation--people who can examine an older building's condition, 
evaluate its historic and architectural significance, and determine the 
feasibility or advisability of saving it. With generous funding 
assistance from the Getty Foundation, American Express Foundation, and 
other sources, the National Trust has already sent survey teams into 
Mississippi and New Orleans. The final decision on what buildings can--
and should--be saved will be made by property owners, city officials 
and FEMA, but the work of the survey teams will give them the facts 
they need to make informed decisions and rational recovery plans.
    I saw first-hand that the French Quarter and the Garden District 
are largely intact. That's good news, certainly, because these areas, 
with their imposing white columns and lacy cast-iron galleries, 
constitute the world-renowned public face of New Orleans. But the down-
home heart of the city beats in lesser-known neighborhoods such as Holy 
Cross, Treme, Broadmoor, and Mid-City, where officially designated 
historic districts showcase the modest Creole cottages, corner stores, 
and shotgun houses (long, narrow houses, usually only one room wide 
with no hallway) that are essential ingredients in the rich 
architectural mix that is New Orleans. Saving as many of them as 
possible is essential.
    I came away convinced that the vast majority of them can be saved 
and this conclusion is being confirmed by our survey teams as well. 
Most homes inspected so far, about 60 percent, have been judged to have 
some structural damage, but few are thought to be in danger of 
collapse.
    Many times in recent years, when communities were devastated by 
earthquakes, floods, tornadoes or hurricanes, we at the National Trust 
have worked with local officials and our preservation partners to 
determine the communities' needs and figure out how we could help most 
effectively whether by providing funds or technical assistance. But the 
unprecedented ferocity of this hurricane season has confronted us with 
a disaster like none we have experienced before, and it calls for 
solutions like none we have developed before. The NHPA and Section 106, 
however, should be fundamental in any strategy.
                     the importance of section 106
    Historic preservation is the process of identifying places, sites 
and resources that have survived from our past; evaluating the meaning 
and value they have for us now; and keeping, using and caring for those 
significant places, sites and resources so they will survive into the 
future. The preamble to the NHPA, as passed by Congress in 1966, 
reminds us that ``The spirit and direction of the nation are founded 
upon and reflected in its historic heritage;'' and that ``the 
historical and cultural foundations of the nation should be preserved 
as a living part of our community life and development in order to give 
a sense of orientation to the American people.'' Congress further 
clarified in 1980 that ``the preservation of this irreplaceable 
heritage is in the public interest.''
    The NHPA protects the rights and values of private property owners, 
local officials, and citizens across the United States, and gives them 
a place at the table when the actions of Federal agencies threaten to 
affect their historic properties and their communities. Section 106 
helps governmental agencies protect and cherish our American history as 
Congress intended.
         disaster assistance package for historic preservation
    To make saving historic buildings a reality, I urge Congress to 
provide targeted sources of Federal and State funding for the 
preservation of storm-damaged structures. A coalition of national 
preservation organizations led by the National Trust and the AIA are 
supporting a legislative package to direct Federal and State resources 
for preservation efforts in the disaster area. The immediate goal is to 
stabilize and repair damaged but savable buildings before weather and 
the elements lead to further erosion of the historic fabric. The first 
and most urgent part of these legislative measures would provide 
immediate Federal preservation grant assistance to historic property 
owners and supplement any funds from insurance companies, FEMA, and 
other sources. We have asked Congress for a two-year $60 million 
``Historic Preservation Disaster Relief Grants Program'' from the 
Federal Historic Preservation Fund to be administered by the States 
with no Federal match. Applicants would agree to rehabilitate their 
properties in accordance with agreed-upon preservation standards and 
principles. The National Trust is hoping to use a small portion of 
these grants $2 to $5 million to target key designated ``Main Street'' 
organizations with funds for preservation planning, technical, and 
business assistance. So much of this region's recovery will depend on 
making local, neighborhood-serving, commercial districts many of which 
are already designated ``Main Street'' communities viable once again.
    Second, the existing tax credit for rehabilitating historic 
commercial structures should be streamlined and adjusted to work 
vigorously as a targeted incentive for restoring damaged historic 
buildings, especially those that house critical neighborhood-serving 
retail in ``main street'' business communities. We have developed a 
list of recommendations that would accomplish this goal. While the 
existing tax credit program is commendable for its success in fostering 
the restoration of countless historic buildings across America, there 
are also a number of structural elements surrounding the program that 
Congress should address to make it more effective in the disaster area. 
National Park Service data show that last year, for example, Federal 
historic tax incentives for commercial properties leveraged over $3.8 
billion in private capital into the national economy. Louisiana ranked 
sixth in approved ``part two'' projects and Mississippi ranked 17th in 
this activity along with Alabama.
    Last, taking its cue from the existing tax credit program for 
income-producing, commercial properties, Congress should provide a new 
credit for homeowners of historic owner-occupied residential buildings, 
which are currently ineligible for any restoration incentives. Our 
``Disaster Relief Historic Homeowner Assistance Tax Credit'' proposal 
would provide a credit of 30 percent of qualified rehabilitation 
expenditures made by persons who substantially rehabilitate historic 
homes located in the Hurricane Disaster Area and used as a principal 
residence. It would be limited to $40,000 total per household.
    These longer-term tax incentives to rebuild would infuse private 
sector dollars in a region desperate for reinvestment and encourage 
property owners to return to these devastated places.
    For all these proposed grants and tax incentives, the framework and 
infrastructure created by the NHPA, the partnerships it establishes 
between the Federal and State Governments, and its reliance on close 
cooperation with local preservation organizations, can be an excellent 
mechanism to deliver our historic preservation assistance package that 
the region needs. What Congress must support, however, are these 
additional resources, adjustments, and innovations to make it work most 
effectively in responding to the disaster. The good news is that the 
NHPA has already created the core of any response to saving historic 
resources in the Gulf Coast Region. What began back in 1966 in response 
to a grassroots movement to protect America's architectural and 
cultural legacy, has become a strong Federal preservation program 
administered by the Department of the Interior. Its implementation 
relies on a strong link between the Agency and the State Historic 
Preservation Officers in every State and the territories. Congress 
should utilize it as a tool.
                               conclusion
    The economic role of historic preservation and the Federal, State, 
and local resources it bears are tantamount to revitalizing the 
commercial stability of the region and preserving it for future 
generations. Rising out of its past, the Gulf Coast remains one of the 
nation's most important centers of economic activity and so many 
historic buildings are where its people actually live and conduct daily 
business, commerce, and tourism. The goal of rebuilding efforts should 
be to allow displaced people to come home to communities that are 
healthy, vibrant, familiar places to live and work and Federal, State, 
and local Governments in the region--provided with adequate resources--
should make every effort to save those buildings where possible. From 
the fishing and shrimping industries, to the Port of South Louisiana, 
to the heart of the country's petrochemical industry, restoring 
historic structures is essential to restoring the well-being of so many 
communities in the States affected by Katrina. Mr. Chairman, ultimately 
the question of how the Gulf Coast region should be rebuilt is one that 
its residents must answer. Let us hope they get the chance to do so 
before their region's future is decided for them. This committee's role 
is critical to influencing that decision.
                                 ______
                                 
 Responses by Peter Brink to additional Questions from Senator Jeffords
    Question 1. Mr. Brink, can you give me your perspective on how we 
can balance the need to preserve historic structures and the need to 
ensure that the people affected by this disaster are able to meet their 
basic needs of food, clothing and shelter?
    Response. The National Trust believes historic structures are a key 
resource to provide shelter to people affected by the disaster. Thus:

    <bullet> In New Orleans along, there are 37,000 historic homes and 
other buildings in the city's National Register Historic Districts. 
These districts cover nearly half of the central land area of New 
Orleans; there are some grand houses, but the overwhelming majority is 
comprised of cottages, shot gun houses, and other vernacular buildings 
suitable for housing for low, moderate and middle-income families.
    <bullet> The great majority of these houses is savable to become 
homes again for their owners or residents. In Mississippi there are an 
estimated 1,000 historic homes damaged. In New Orleans, though we're 
awaiting completion of City inspections, work as of November 22 
indicated that throughout the city (not just historic areas) 3,600 of 
118,000 structures inspected were given Red Tags, or about 3 percent, 
as prohibiting entry. In addition there are many thousands of Yellow 
Tag buildings, which require work prior to being habitable.
    <bullet> The ULI Expert Team and Advisor Panel (Nov. 12-18) in New 
Orleans, of which I was a member, found a number of structures in the 
historic areas that were vacant prior to Katrina. A recommendation of 
their draft report was to quickly refurbish empty existing public 
housing units and use these for immediate housing for displaced 
persons. (The final ULI report will be submitted to the Mayor's Bring 
New Orleans Back Commission within the coming few weeks.)
    <bullet> The National Trust with the Preservation Resource Center 
of New Orleans has already begun work on four demonstration houses, and 
we are seeking 4 additional ones at this time. Our goal is to provide 
models and build momentum for home owners to undertake the necessary 
mold remediation and rehabilitation to make their homes livable again 
and return to them. This is feasible for most houses with moderate to 
medium flooding. Similarly in Mississippi, the Trust has partnered with 
the Mississippi Heritage Trust to undertake the structural repair of 4 
demonstration houses. The Trust is seeking to raise additional private 
funds to expand the number of demonstration houses throughout the 
disaster area.
    <bullet> In addition the Trust, with Gulf Coast partners, has 
requested a Federal appropriation of $60 million from the Historic 
Preservation Fund for grants to the Gulf Coast State Historic 
Preservation Offices for them to provide grants up to $40,000 apiece 
for rehabilitation of damaged homes in the extensive National Register 
Historic Districts. Such an appropriation would do much to enable 
savable historic homes to provide shelter to thousands of owners and 
residents in the disaster area. (In addition the request includes $2 2 
and a half million for the National Trust Main Street Center to provide 
grants to State and local Main Street programs in the disaster area.)

    Question 2. During the stakeholders meeting we held in this 
committee, and during last week's hearing with Mayor Nagin, one of the 
major points was that local redevelopment plans must drive Federal 
investments. For example, it may be possible to redevelop the city in 
such a manner that the highest levels of flood control are not required 
everywhere. The Mayor and the Governor both have planning processes 
underway. I realize that time is of the essence in rebuilding, but you 
don't want to spend huge amounts of resources rebuilding flood control 
in an area where no one is going to live. Can you give me your 
impressions of how this process is proceeding?
    Response. The pro bono ULI team invited by the Mayor's Bring Back 
New Orleans committee made the difficult recommendation that recovery 
should proceed in geographic stages. This was in recognition that the 
city will have a smaller population in the immediate coming years and 
that some areas of the city suffered significantly greater flood damage 
and are at greater risk for future damage than others. Thus the ULI 
team recommended viewing the city in terms of three major investment 
zones: Zone A most severely impacted; Zone B medium impact, with large 
numbers of historic houses; and Zone C least impacted and coinciding 
with the city's early historic development. The team recommended 
immediate support for property owners and City action to support 
remediation and rehab in Zones B and C. It recommended further study of 
Zone A regarding flood risk, environmental factors, and best future 
development and uses.
    The Trust concurs that the immediate and urgent goal is to achieve 
a full and absolute compliance with full Category 3 protection for New 
Orleans by this June and the upcoming hurricane season, as well as a 
longer range plan to enhance this protection as additional study shows 
needed. Following the ULI analysis, this building could be staged to 
reflect the zones identified.
    The Trust also believes that it is critical to initiate programs to 
rebuild the wetlands buffer that used to help protect New Orleans. Each 
2.7 miles of marshland reduces a storm surge by a full foot. (Michael 
Tidwell, author of the book Bayou Farewell in Orion, December, 2005). 
Reports indicate that since World War II a land area the size of Rhode 
Island has turned into water. (Ibid.) A full-scale program to rebuild 
this important part of New Orleans' protection is urgently needed. 
Katrina has accelerated projected loss of wetlands.
    Question 3. Mr. Brink, I understand that Louisiana ranks 6th in the 
nation in terms of the amount of historic tax credits granted. Data 
from 2004 shows that in Louisiana, this tax credit produced 15,000 
units of housing, 40 percent of which was affordable housing. The 
Senators from Louisiana recognize this and have proposed 150M in direct 
grants for historic preservation in Louisiana, including 25 million 
earmarked for the Trust. Can you describe how these types of resources 
for historic preservation could be used in Louisiana to drive economic 
development in low-income communities impacted by Katrina?
    Response. Last year Louisiana ranked sixth in the Nation in 
historic tax credit activity, but on average it places fourth. This is 
indicative of the vast inventory of historic resources eligible for the 
credit and the good work of the State Historic Preservation Office, the 
preservation community, and local developers. Actually, in 2004, the 
15,000 units of housing produced through the credit is a nationwide 
statistic, not specific to Louisiana, though we know that a good deal 
of housing is created in that State through the historic tax credit, 
especially when it is twinned with the Low-Income Housing Tax Credit to 
make housing affordable.
    Specifically, there were 36 projects in Louisiana last year 
totaling $52.5 million in certified expenses. That is a considerable 
sum in terms of private sector investment. This is why the Trust would 
like Congress to use historic preservation--in the tax credit and 
grants for historic buildings--to help in rebuilding the Gulf Region. 
Let me underscore that tax credits and grants are incentives, though. 
It is sometimes more expedient and less costly to tear down and build 
anew. To the maximum extent practicable, we do not want to see this 
happen in the Gulf Region, particularly in New Orleans. We want to 
preserve our historic treasures and at the same time, make sure that 
the economic benefits of preservation, rehabilitation, and restoration 
reach way down into the neediest neighborhoods through incentives like 
these.
    From a general perspective, historic rehabilitation projects create 
more jobs than new construction. Typically, in new construction half of 
the investment goes to materials and half to labor. In historic 
rehabilitation, 60 to 70 percent of the investment goes to labor 
creating more jobs. In comparing $1 million spent on new construction 
with $1 million spent on rehabilitation: five to nine more construction 
jobs will be created by a rehabilitation project than new construction; 
and 4.7 more new non-construction jobs will be created by a 
rehabilitation project.

    <bullet> Plus, rehabilitation will have a multiplier effect on 
local spending. The skilled labor that is needed for a rehabilitation 
project is often found locally. When jobs are created for local 
electricians, carpenters, painters, etc., they, in turn, will be 
spending their earnings locally. Local grocery and hardware stores, 
automobile dealers, and clothing stores will see the benefits as well 
as the county Government, which will benefit from the increased tax 
revenue. In a comparison of $1 million dollars of spending on new 
construction and $1 million dollars of spending in rehabilitation:

    --Household incomes in the community will increase by $107,000 more 
by a rehabilitation project than new construction.
    --Rehabilitation will cause retail sales to increase $34,000 more 
than with new construction.
    --$120,000 more will initially stay in the community in a 
rehabilitation project.
    <bullet> The existing Federal Historic Rehabilitation Tax Credit 
for income-producing properties has spurred private investment on a 5 
to 1 ratio, and it has become a powerful tool for job creation. These 
benefits are critical in rebuilding the communities ravaged by Katrina. 
Over $28.7 billion in private investment has been leveraged from its 
inception in 1976 until Fiscal Year 2002. Each project approved by the 
National Park Service creates on average 42 new jobs (principally 
local). In Fiscal Year 2002, 50,484 jobs were created by rehabilitation 
projects.
    <bullet> Dollar for dollar, historic rehabilitation creates more 
jobs than most other investments. According to a 1997 study by the 
Center for Urban Policy Research at Rutgers University on the economic 
impacts of historic preservation, ``preservation's benefits surpass 
those yielded by such alternative investments as infrastructure and new 
housing construction.''

    Question 4. On November 9, 2005, the NAS released a report on the 
coastal Louisiana restoration plan. One of its major recommendations 
echoes themes we have heard about local redevelopment plans they 
recommend the development of an explicit map of the expected future 
landscape of coastal Louisiana. Without this, it will be difficult to 
move forward with coastal restoration and flood control in a targeted 
manner. Can you give me your response to this recommendation and your 
thoughts on how it should be implemented in Louisiana?
    Response. The National Trust agrees that Federal, State, and local 
officials, with the public's involvement, need to take a broader look 
at where land in coastal Louisiana should and can be restored. It is 
simply logical that an explicit map of the desired future landscape of 
coastal Louisiana should be developed as soon as possible to guide the 
selection of more-integrated restoration projects in the future. Until 
more information becomes available, it would be premature to comment on 
the extent to which wetland loss contributed to the devastating effects 
of hurricanes Katrina and Rita.
    It seems that most of the individual projects in a U.S. Army Corps 
of Engineers proposal to reduce losses of coastal wetlands in Louisiana 
are scientifically sound, but taken together they do not represent the 
type of integrated, large-scale effort needed to accomplish coastal 
restoration in its most effective sense.
    The Trust looked at the NAS study. The projects in the report are 
only intended to lay a foundation for more aggressive efforts to 
preserve and restore coastal Louisiana. The study should be the 
precursor for a much more comprehensive, system wide plan for the 
entire coastal region. That is what is needed to design a clear, and 
articulate roadmap for the future distribution of land and ultimately 
restore coastal wetlands effectively.
    The National Trust's testimony focused on the economic benefits of 
historic preservation in a region with tremendous economic potential to 
the nation. Without a comprehensive map of a restored coastal 
Louisiana, it is difficult to determine how wetland renewal efforts may 
foster this economic potential in the long-term.

    Question 5. One of the key themes we have heard is that cost-
benefit analysis procedures should be revised--most significantly to 
account for potential loss of life. What are your views on the revision 
or abandonment of cost-benefit analysis as a decision-making tool for 
the corps?
    Response. The Trust believes that cost benefit analysis is an 
important tool and that it should fully take into account potential 
loss of life.

    Question 6. Given the corps' experience in Hurricane Katrina, can 
you tell us if you believe that the Federal Government should do more 
to ensure the safety of our Nation's levee program? For example, should 
safety standards and an inspection regime be established?
    Response. The Trust believes that the Federal Government should set 
safety standards and an inspection regime for all levees built in whole 
or in part with Federal funds. This should help prevent the type of 
breakdowns in the performance of levees experienced with such 
disastrous consequences in Katrina.

    Question 7. There has been much discussion of the Mississippi River 
Gulf Outlet and the effect it had in magnifying the storm surge that 
reached New Orleans. Can you give me your specific recommendations 
regarding this Outlet in light of what happened during Katrina?
    Response. The Trust has not studied first-hand the role of the 
Mississippi River Gulf Outlet with regard to Katrina. We have heard, 
especially during the ULI interviews that knowledgeable residents 
believe that the MRGO acted as a funnel enabling Katrina to shoot 
through it to reach the city in the shortest distance and time 
possible. We have also heard that the initial cost-benefit analysis by 
the Army Corps of Engineers projected usage of the MRGO well in excess 
of the reported 1 1/2 ships a day that were using the canal just prior 
to Katrina. These widespread beliefs would compel the corps to complete 
needed analysis of the impact of the MRGO regarding both risks to human 
life and potential benefits to commercial activity, and make a 
responsible decision prior to the coming hurricane season on whether to 
close the MRGO. In the meantime no funds should be spent on the repair 
of the MRGO.
                                 ______
                                 
  Statement of Scott Faber, Water Resources Specialist, Environmental 
                                Defense
    Hurricane Katrina was a terrible tragedy that has touched the lives 
of every American. As we rebuild, we must rebuild in a fashion that 
provides devastated communities with a higher level of flood protection 
when the next hurricane strikes. In particular, we must quickly engage 
experts to consider ways to improve existing levees and other flood 
control infrastructure, seek opportunities to move vulnerable homes and 
businesses from harm's way, and begin the long overdue restoration of 
coastal Louisiana's vanishing wetlands and barrier islands.
    Nothing less than the future of New Orleans and surrounding 
parishes is at stake. A meaningful rebuilding package must above all 
provide assurance that people and property will be secure in the 
future--or there is little hope that business and community leaders 
will invest in the region's future again.
    To be successful, flood loss reduction efforts must be integrated--
efforts to rebuild or expand levees must be integrated with decisions 
to build the diversions and pipelines needed to restore lost wetlands 
as well as local decisions to redevelop flooded neighborhoods.
    Most importantly, Congress and the Corps of Engineers must treat 
flood protection and wetland restoration efforts with far greater 
urgency than we have in the past. Before Katrina struck, Congress and 
the corps envisioned that we could replace lost wetlands and barriers 
islands in decades, not years. Before Katrina, Congress and the corps 
envisioned we could provide a higher level of structural flood 
protection in decades, not years.
    Today, in the wake of Katrina, every American recognizes the unique 
vulnerability of New Orleans and it surrounding parishes, and 
understands the role that Federal flood control and navigation projects 
have played in the loss of costal wetlands.
    Every year, more than 25 square miles of Louisiana's coastal 
wetlands are lost because Mississippi River sediments that once spread 
out and replenished the river's coastal delta are now funneled into the 
Gulf of Mexico by Federal flood control levees and navigation training 
structures. More than 1 million acres of coastal wetlands--or 1,900 
square miles--have been lost since 1930, and more than 300,000 acres of 
additional wetlands will be lost by 2050 if nothing is done. These 
wetlands and barrier islands play a critical role in the protection of 
our homes, businesses and critical infrastructure, reducing storm surge 
and absorbing wave energy.
    One of the lessons reaffirmed by Katrina is that altering the 
natural movement of sediment and water often has severe unintended and 
unwanted consequences. Lining the Mississippi River with levees has 
reduced the flood threat posed by the river--but has, by contributing 
to the loss of coastal wetlands, made the flood threat posed by 
hurricanes far greater. Destroying 20,000 acres of wetlands that once 
acted as a natural hurricane barrier to create the Mississippi River 
Gulf Outlet has instead created what local officials call a ``hurricane 
highway'' that increased Katrina's storm surge by 20 to 40 percent and 
velocities more than three-fold.
    Katrina also demonstrated that building levees to intentionally 
encourage development in harm's way--and using the projected 
``benefits'' of induced development in these wetlands to help justify 
the construction of levees--have catastrophic consequences when these 
levees fail. To justify the Lake Pontchartrain and Vicinity Hurricane 
Protection Project, for example, the corps extended levees to the east 
of New Orleans to encourage the development of wetlands, according to a 
1974 Corps report to Congress. Tragically, many of the homes built in 
these reclaimed swamps were filled to their rooftops when Katrina 
struck. Because so many Corps flood control projects induce development 
in harm's way, flood damages have more than tripled in real dollars in 
the past 80 years--even as the corps has spent more than $120 billion 
on flood control projects.
    In the wake of Katrina, we also recognize the importance of 
subjecting costly or controversial water projects to independent 
review. Levee design failures--design failures that might have been 
detected by independent experts--and the ``surge funnel'' created by 
the Mississippi River Gulf Outlet contributed to this tragedy. 
According to Peter Nicholson, a civil engineering professor testifying 
on behalf of the American Society of Civil Engineers before the 
Government Affairs committee last week, the ``funneling of the surge'' 
into the MRGO and, ultimately, the Inner Harbor Navigation Channel 
caused widespread overtopping of levees. Other levees, according to 
Nicholson, experienced a wide range of damage that could be attributed 
to the materials used in their construction, ``transitions'' between 
different sections of levees, and ``obvious soil failures within the 
embankment or foundation soils at or below the bases of the levees.'' 
In particular, three levee failures along the 17th Street and London 
Avenue canals were most likely caused by failures in the foundation 
soils underlying the levees, according to a preliminary report by the 
ASCE.
    This is not the first time the Corps of Engineers has relied on 
faulty science, engineering or economics. The Government Accountability 
Office has in recent years found that Corps studies have overestimated 
the number of vessels that would use an expanded waterway, 
overestimated the number of vessels that would use an expanded inlet, 
overestimated the number of homes and businesses protected by an 
expanded levee, and largely failed to mitigate for the environmental 
impacts of completed projects. The Army's own Inspector General found 
that senior Corps leaders intentionally exaggerated the benefits of 
longer Mississippi River locks, and both the National Academy of 
Sciences and the Congressional Research Service concluded that Corps 
studies overestimated expected traffic on the river. Last year, the NAS 
called for sweeping reforms and modernization of the corps' project 
planning process, including independent review of many studies.
    Until now, Congress and the corps have largely failed to address 
the corps' use of faulty science and economics, have largely failed to 
reform our flood control and insurance programs to discourage 
development in harm's way, and have largely failed to make the 
protection of population centers and critical infrastructure our 
highest civil works priority. Critical flood protection construction 
and maintenance have been delayed or abandoned so that the corps could 
build or maintain projects that return little benefit to the taxpayers. 
Projects designed to protect farm fields have received no greater 
priority than projects designed to protect people and critical 
infrastructure.
    Corps spending in Louisiana illustrates this problem. Congress 
invested nearly $2 billion on Louisiana water projects over the past 5 
years. But, much of these funds were invested in questionable projects 
that did nothing to avert the destructive impacts of Hurricane Katrina. 
While nationwide spending on the corps projects grew steadily during 
the past decade, from $3.2 billion in FY 1996 to $4.7 billion in FY 
2005, annual spending on levees designed to protect New Orleans from a 
Category 3 storm declined from roughly $15 million a year to roughly $5 
million a year, extending the project completion date for the city's 
structural hurricane protection project to 2015. A $12 million study to 
evaluate the benefits and costs of protecting New Orleans from a 
Category 5 storm has been delayed for years. This serious lack of 
prioritization is not limited to Louisiana. At the same time that the 
nation's civil works infrastructure faces a multibillion dollar backlog 
of critical maintenance needs, Congress continues to commit 30 percent 
of our waterway maintenance funding to waterways that carry 
approximately 3 percent of Nation's waterborne commerce.
          our organizations make the following recommendations
    First, Congress must act quickly to require the development of a 
comprehensive plan to raise existing levees, to relocate vulnerable 
structures, and to restore lost wetlands and barrier islands. This 
comprehensive plan should be developed by a team of hydrologists, 
scientists, and engineers, led by an independent commission of three 
experts of national reputation appointed by the President after 
consultation with the Governor. An independent commission will reassure 
business leaders that efforts to improve our natural and man-made flood 
protection infrastructure will be undertaken quickly and competently. 
Promises of future funding will not provide business and community 
leaders with appropriate assurances.
    The U.S. Army Corps of Engineers must play a central role in the 
design and construction of flood control and restoration projects, and 
we recommend that the commission be headquartered in the office of the 
Secretary of the Army. But, the commission should have the power to 
contract private engineering firms and institutions to supplement the 
corps' capacity and expertise. A task force of State and Federal 
officials should also be created to guide the commission's efforts.
    Second, Congress should appropriate, in the next disaster 
supplemental, $5.5 billion to begin the restoration of lost coastal 
wetlands and barrier islands and $5 billion to enhance existing flood 
control infrastructure to protect New Orleans from a Category 5 storm. 
As you know, the corps and the State of Louisiana have already 
developed an ambitious, peer-reviewed plan to begin the construction of 
diversions, pipelines and other projects that will restore our natural 
hurricane protection system. Many of these critical restoration 
projects can be constructed immediately with no impact on traditional 
uses of the Mississippi and Atchafalaya rivers. Indeed, some 
restoration projects offer the chance to dramatically improve 
navigation on the Mississippi River and flood protection. A summary of 
these and other restoration opportunities is attached.
    Third, Congress should immediately close the Mississippi River Gulf 
Outlet. Traffic on the MRGO has fallen by more than 50 percent since 
1986. Today, less than one oceangoing vessel per day, on average, uses 
this man-made short cut, which costs approximately $13 million annually 
to maintain. Like many waterways constructed by the corps, the MRGO has 
failed to attract as much traffic as the corps predicted when the 
project was constructed. In fact, only 2 of 14 waterways constructed 
since World War II have attracted as much traffic as the corps 
predicted. Rather than rebuilding the levees along the MRGO, the corps 
should immediately close the channel and devise a plan to prevent salt 
water intrusion and ongoing channel erosion.
    Fourth, Congress should reform FEMA mitigation and relocation 
programs to move flood victims from harm's way. Many flood victims 
would move their homes and business from harm's way, but current law 
requires State or local Government to share 25 percent of the cost of 
hazard mitigation--a requirement that no State or local agencies can 
meet in the wake of Katrina. Congress should waive the cost-sharing 
requirements for these hazard mitigation programs, and should reinstate 
FEMA's authority to use up to 15 percent of disaster assistance for 
these efforts.
    Finally, Congress should reform the civil works planning process to 
ensure that urgent, worthy civil works projects are given the highest 
priority by the Administration and Congress.
    To meet this goal, Congress should subject costly or controversial 
Army Corps projects to independent review and should require the corps 
to periodically update the Agency's planning tools to reflect the best 
available science and economics. Independent reviews could be 
undertaken at the same time as public review of draft studies, thereby 
ensuring that studies would not be delayed. Both of these reforms have 
been proposed by the National Academy of Sciences.
    Congress should also direct the corps to meet State standards for 
the replacement of wetlands and other habitats destroyed by worthy 
water projects--that is, Congress should direct the corps to meet the 
same standards as private developers. The GAO recently found that the 
corps failed to mitigate for nearly 70 percent of the civil works 
projects constructed since 1986, when modern mitigation laws were 
enacted. Our failure to mitigate for impacts of public and private 
water projects in the past have set the stage for the damage wrought by 
Katrina.
    Congress should direct an interagency council to establish 
priorities for the Nation's civil works spending. Although funds for 
the construction and maintenance of Army Corps water projects have 
steadily increased over the past decade to $4.7 billion annually, the 
backlog of authorized projects may soon exceed $70 billion. Many of 
these projects no longer address national priorities. Congress should 
direct an interagency council to set priorities for flood control 
spending so that scare resources are used to meet the nation's most 
critical flood damage reduction needs, to protect developed areas and 
critical infrastructure from flooding, to provide net economic 
benefits, and to avoid the needless destruction of wetlands and other 
environmental resources that serve as our first line of defense against 
hurricanes and floods. Critical flood control projects designed to 
protect people and public infrastructure should no longer take a back 
seat to projects designed to promote new development in frequently 
flooded floodplains.
    As we rebuild, we must also prepare for the next hurricane. We must 
restore our coastal wetlands and barrier islands, but faster and with 
more urgency than has been proposed in the past. We must enhance our 
levees and other flood control infrastructure to protect New Orleans 
from a Category 5 storm. We must ensure that the Corps of Engineers 
uses the best available science and economics, subjected to independent 
review, to plan and prioritize future water projects. And, we must take 
steps to avoid the needless destruction of our natural flood reduction 
system.
                                 ______
                                 
             attachment: critical restoration opportunities
    Based on our review of Army Corps and State planning documents and 
discussion with participating scientists, we propose immediate 
implementation of a series of projects and studies to begin the 
restoration of Louisiana's natural hurricane protection system. We 
recommend that Congress appropriate $5.5 billion in the next emergency 
supplemental appropriations bill for these projects and studies.
    The Final LCA report issued by the U.S. Army Corps of Engineers and 
the State of Louisiana in November 2004, and the draft PEIS completed 
in 2003, identified likely projects but lacked the sense of urgency 
Katrina has shown is needed--many critical sediment and freshwater 
diversion and barrier island restoration projects and studies were 
postponed for decades. We believe it is possible to dramatically 
accelerate the design and construction of potential diversion, pipeline 
and barrier island restoration projects.
the $5.5 billion in near-term funding, according to our analysis, would 
                        be allocated as follows

    <bullet> $3.1 billion to begin the restoration of coastal wetlands 
and barrier islands through a set of promising sediment pipelines and 
diversion projects east and west of the Mississippi River. These 
projects are described in more detail below.
    <bullet> $1 billion for land acquisition, easements (including 
easements on cypress swamp forests) and the voluntary relocation of 
infrastructure, including the voluntary relocation of the service 
centers and small communities south of Pointe a la Hache. The voluntary 
relocation of some infrastructure will enhance opportunities to quickly 
restore lost coastal wetlands and reduce future flood losses.
    <bullet> $1.115 billion to complete within 2 years the Mississippi 
River Delta Management Study proposed in the final LCA plan ($15 
million), and to relocate the main shipping entrance to the Mississippi 
River so that this project can be implemented quickly if found to be 
feasible ($1.1 billion).
    <bullet> $300 million to create a Science and Technology Program, a 
Demonstration Program, and to provide for beneficial use of dredged 
material, as envisioned in the final LCA plan.
    <bullet> $45 million to complete studies of other potential 
pipelines and diversions that are not identified below, to complete 
large-scale feasibility studies within four years of the Atchafalaya 
River third outlet, the ``Third Delta'' concept, and the Chenier Plain 
Freshwater and Sediment Management and Allocation Reassessment.

    In combination, these sediment and diversion projects and studies 
would quickly restore and nourish significant amounts of coastal 
wetlands near populated areas that need additional protection from 
storm surges as soon as possible. Construction of many diversion 
projects would also give managers the ability to operate different 
diversions under different flow conditions. We do not envision that all 
of these diversions would be operated simultaneously; rather, we 
envision that some diversions would be operated in some years and not 
other years.
    The cost estimates in this memo are based upon the 2003 Draft PEIS 
and the 2004 final LCA plan.
    Work at this rate will require engineering and scientific 
capability that would exceed the corps' existing resources. We 
therefore propose that the Administration ask Congress to create a 
three-member independent commission within the Department of the Army 
to oversee and accelerate restoration efforts. This Commission could 
contract not only with the corps and other Federal and State agencies 
and institutions but could also employ such mechanisms as private 
design competitions. To raise the profile and sense of urgency, we 
suggest that the Commissioners be appointed by the President following 
consultation with the Governor of Louisiana.
                 a summary of proposed projects follows

    <bullet> Sediment Pipelines--A series of sediment pipelines can be 
constructed east and west of the Mississippi River, including pipelines 
at Empire ($406M), Bastian Bay ($440M), American/California Bay 
($593M), Myrtle Grove ($127M), and Quarantine Bay ($734.9). These 
projects will rebuild lost wetlands in the shallow coastal bays that 
now abut the lowest reaches of the Mississippi River.
    <bullet> Construct Diversions--A series of freshwater diversions of 
at least 50,000 cfs can be constructed to nourish highly degraded fresh 
to brackish wetlands in shallow open water areas east and west of the 
Mississippi River. These projects include diversions at Myrtle Grove 
($143M), Fort Jackson/Boothville ($8M), Empire, Bastian Bay, American/
California Bay ($15M), Caernarvon ($2M), and White's Ditch ($35M).
    <bullet> Close the MRGO; Construct Sediment Pipelines--the corps 
should close the MRGO. Cost: $12 million. Pipelines and diversion 
should be constructed to rebuild wetlands north and south of the 
Mississippi River Gulf Outlet. Cost: $46.9 million and $25 million, 
respectively. the corps should also expand an existing diversion at 
Violet.
    <bullet> Improve Freshwater and Sediment Flows Into Maurepas 
Swamp--Federal and State agencies should proceed with several projects 
to reverse the decline of Maurepas Swamp. They should build a diversion 
at Hope Canal, construct the Convent/Blind River diversion, and 
construct gaps in the existing dredged material banks of the Amite 
River Diversion Canal to improve water quality and introduce nutrients 
and sediments into western Maurepas Swamp. Cost: $10 million, $28 
million, and $2.9 million, respectively.
    <bullet> Construct Atchafalaya River Diversion--This project would 
convey Atchafalaya River water to northern Terrebonne Parish via an 
Avoca Island levee diversion. Cost: $132.2 million. Congress and the 
Administration should also reserve $500 million to move additional 
water and sediment east from the Atchafalaya River into the northern 
reaches of Terrebonne Bay.
    <bullet> Bayou Lafourche Freshwater Diversion--This project would 
reintroduce flow from the Mississippi River into an existing bayou, 
reducing salinity levels and reducing loss rates between Bayou 
Lafourche and Terrebonne Bay. EPA, USACE, and other agencies should 
quickly assess whether this diversion project could be expanded to 
5,000 cfs capacity or more without impacting infrastructure, and should 
quickly assess whether some infrastructure could be elevated or 
relocated. Cost: $75.2 million.
    <bullet> Begin Barataria Barrier Shoreline Restoration--The project 
would mine offshore sediment source to reestablish barrier islands. The 
project would create a 3,000-foot-wide island, would restore critical 
portions of the original barrier island chain, and would aid the 
littoral movement of sediment to the remainder of the chain. Cost: $181 
million.
    <bullet> Begin Terrebonne Barrier Shoreline Restoration--This 
project would mine sediment to restore critical element of the barrier 
island chain, including Timbalier and Isles Dernieres barrier island 
chain. Cost: $84.8 million.
                                 ______
                                 
  Statement of Steve Ellis, Vice President, Taxpayers for Common Sense
    Good morning, thank you for inviting me here to testify. I am Steve 
Ellis, Vice President of Programs at Taxpayers for Common Sense, a 
national, non-partisan budget watchdog. First, I would like to commend 
the chairman and the committee for holding this series of hearings. I 
am confident that it will aid the committee as it develops the 
appropriate mix of water resource initiatives for the Gulf Coast and 
begins applying the lessons learned through Katrina and the other 
storms to our nation's water resource policy as a whole.
    In the Gulf Coast area, we are faced with a significant challenge 
the need for speed, and the need to do it right. As a budget watchdog, 
I would add that we need to do it fiscally responsibly as well. The 
outpouring of individual support for the relief effort, which has 
already reached $2 billion, shows just how important this issue is to 
the nation.\1\ We owe it to the American people to spend their tax 
dollars wisely on the relief effort, and to use that money to rebuild 
effectively and intelligently. Taxpayers have already spent $70 billion 
on relief to date, and we expect tens of billions more in the days to 
come.\2\
---------------------------------------------------------------------------
    \1\Brennen Jensen and Elizabeth Schwinn. Chronicle of Philanthropy. 
``Donations to Hurricane Relief Exceed $2 Billion, But Costs Soar.'' 
November 3, 2005. Available at http://philanthropy.com/free/update/
2005/11/2005110302.htm.
    \2\Senate Budget Committee Republican Staff. Budget Bulletin. 
October 4, 2005. Available at http://budget.senate.gov/republican/
analysis/2005/bb08-2005.pdf.
---------------------------------------------------------------------------
    The fundamental responsibility of Government is to take care of its 
citizens. In the area of flood and storm damage reduction, it is clear 
that Government has failed. We spent $123 billion on flood control 
projects in the last century, but annual costs from flood damage have 
increased from $2.6 billion annually in the first 50 years of the 20th 
century to more than $6 billion per year over the last decade.\3\
---------------------------------------------------------------------------
    \3\Taxpayers for Common Sense and National Wildlife Federation. 
Crossroads: Congress, the Corps of Engineers and the Future of 
America's Water Resources. March 2004. 20-21.
---------------------------------------------------------------------------
    Right after Katrina flooded New Orleans, the airwaves were full of 
Army Corps of Engineers officials stating that the levees and 
floodwalls performed as expected they provided category 3 protection 
and Katrina was a category 4 storm. But according to recent testimony, 
Katrina was no longer a category 4 hurricane when it hit New Orleans. 
Engineering panels sponsored by the National Science Foundation and the 
American Society of Civil Engineers found that the levees and 
floodwalls did not perform to design or promise. Additionally, these 
experts raised concerns that there may have been possible malfeasance 
on the part of individuals constructing flood control structures.\4\
---------------------------------------------------------------------------
    \4\ Senate Homeland Security and Governmental Affairs Hearing. 
Hurricane Katrina: Why Did the Levees Fail? November 2, 2005.
---------------------------------------------------------------------------
    This initial analysis should send shivers down all of our spines. 
If it is true that the levees were brought down by shoddy 
craftsmanship, we need to know whether this was an isolated case, or 
whether this is just one of many projects nationwide that we should be 
concerned about.
    We also need to learn more about the assumptions that Corps 
officials made when constructing and maintaining the London Street, 
17th Street and Industrial Canal flood protection projects, and we 
should take a good look at how construction was supervised. In one of 
my jobs with the Coast Guard, I served as the Contracting Officer's 
Technical Representative for a boat construction contract. In that 
capacity, I learned that inspection and oversight is as important as 
the initial construction itself. the corps' failure to oversee and 
predict the vulnerabilities in New Orleans flood protection is quite 
possibly the most troubling incident in the Agency's recent history.
    So where do we go from here. Here are a few principles that TCS 
would urge the committee, Congress and the administration to consider 
regarding rebuilding water infrastructure in the Gulf Coast and 
learning from Katrina.

    <bullet> Rethink the level of protection-Everyone agrees that we 
must give New Orleans at least the category 3 level of protection that 
it was supposed to have before Katrina. However, we cannot expect any 
levee to automatically meet all our needs just because the corps has 
deemed it ``category 3,'' or even ``category 5.'' Hurricanes are 
extremely dynamic entities. We should endeavor to obtain significant 
protection from a variety of threats, not just a repeat of Katrina.
    <bullet> Identify what to rebuild-Although it will be difficult 
process, we will have to identify areas that are too damaged or so 
vulnerable to future storms that they should not be rebuilt. Just like 
after the Great Midwest Flood of 1993, this is a tough task that should 
be managed and led by Louisianans. But the Federal Government needs to 
be clear that if individuals want to rebuild in hurricane-ravaged 
areas, they should do it without the aid or encouragement of Uncle Sam. 
In past crises, some affected towns have responded by relocating out of 
the floodplain.\5\ After the Flood of 1993, the post-event analysis 
recommended that damaged communities should move critical 
infrastructure out of the floodplain where possible.\6\ When 
floodwaters returned in 1995, the damage was far less.\7\ If relocation 
is not practical, infrastructure and densely populated areas should 
have the highest level of flood protection possible. This strategy 
makes sense, but we also have to realize that Mother Nature is very 
creative, versatile and powerful. We can mitigate the risks with 
levees, floodwalls and constructed wetlands, but the risk of 
catastrophic flood damage will always be there.
---------------------------------------------------------------------------
    \5\Jeanne Cummings. The Wall Street Journal. ``Swept Away: How 
Rhineland, MO, Saved Itself but Lost a Sense of Community.'' July 15, 
1999.
    \6\Interagency Floodplain Management Review Committee. ``Sharing 
the Challenge: Floodplain Management Into the 21<SUP>st</SUP>. 
Century''. June 1994.
    \7\Federal Emergency Management Agency. ``Success Stories from the 
Missouri Buyout Program''. August 2002.
---------------------------------------------------------------------------
    <bullet> Reevaluate our policies-The potentially shoddy levee 
construction in New Orleans should not be all that concerns us 
regarding levees. Our Nation's water resource policies are antiquated 
and often fail to adequately protect us. The Principles and 
Guidelines--the rules governing Corps of Engineers project design and 
selection--are more than two decades old. We need to update these rules 
to fully account for all costs and benefits of Corps projects, 
modernize economic procedures and remove biases toward large 
construction projects.

    We have a $58 billion backlog of Corps of Engineers projects and 
the Agency has a roughly $5 billion budget. Rather than pumping up the 
corps budget as some insist, we must establish a system of prioritizing 
project investment so we don't squander precious tax dollars 
maintaining waterways with no traffic, rather than constructing 
essential flood damage reduction projects.
    National flood policies also make little sense. Our 35-year 
experience with flood insurance has failed: FEMA estimates that flood 
insurance claims this year will exceed $22 billion, but the National 
Flood Insurance Program has the capacity to pay about $2 billion per 
year.\8\ Further, our policies discourage adequate flood protection. 
Since the typical homeowner does not have to buy flood insurance if 
they have 100-year flood protection, we have essentially dumbed down 
our flood protection to the 100-year level. Remember, there is still a 
1 percent chance that these areas would flood every year; people buy 
lottery tickets hoping to win with far worse odds than that. The 
convention of describing the level of protection by assigning it an x-
year level, be it 50-, 100-, or 500-year, is confusing and leaves 
individuals with an unrealistic view of their protection.
---------------------------------------------------------------------------
    \8\David I. Maurstad, Acting Director and Federal Insurance 
Administrator, Mitigation Division, Federal Emergency Management 
Agency. Testimony before the House Committee on Financial Services. 
October 20, 2005.
---------------------------------------------------------------------------
    <bullet> Let the economy help itself-Many private sector industries 
are now pleading with the Government to help them rebuild. Small 
businesses, the oil and gas industry, fishing industry, the port--all 
are seeking significant Federal support to get them back on their feet. 
We strongly urge the incentives to be small, targeted and short in 
duration. Katrina was an unthinkable tragedy, but it also provides an 
opportunity to let the market correct the mistakes of the past. For 
instance, some businesses or infrastructure may have been 
inappropriately located, at high risk from storms. Taxpayers should not 
subsidize them to be built right back in harm's way. The Federal 
Government should be trying the rev the Gulf Coast's economic engine, 
but if the Government's hand or handout is too heavy it will stifle 
innovation and economic incentives to reduce exposure to storm risk.
    <bullet> Forward thinking-There are a lot of plans on the books for 
providing adequate flood protection for New Orleans and Louisiana. We 
must resist the urge to simply dust them off and get building. Our 
approach to providing adequate protection must be integrated and multi-
faceted, and it must be tailored to include the lessons learned from 
this unthinkable tragedy. Our planning must be dynamic and we have to 
think outside the box, because traditional approaches will likely not 
succeed. We should look at ideas like Dr. Sherwood Gagliano's plan to 
divert some of the Mississippi River water and sediment to restore 
coastal marshes. This plan was highlighted in the Wall Street Journal 
recently.\9\ Furthermore, we need to make policy changes that will help 
provide the smarter floodplain development and protection incentives.
---------------------------------------------------------------------------
    \9\Betsy McKay. The Wall Street Journal. ``Moving the 
Mississippi''. October 29, 2005
---------------------------------------------------------------------------
    <bullet> Don't try to do everything-Congress has already been asked 
to fund the ``do everything for everyone'' approach. We shouldn't try 
to rebuild everything that was damaged by Katrina because the regions 
that were hit were obviously very exposed to storm damages. Funding and 
activity must be targeted to accelerate, but not dictate the rebuilding 
process. The Federal role in rebuilding will set precedents for future 
natural disaster response, so we must be judicious in our activities.
    That gets me to major concern for Taxpayers for Common Sense-cost. 
The Nation needs to set some investment priorities in the Gulf Coast 
region. We cannot afford to protect everything, everywhere and pay 
everyone to come back to New Orleans. We had a $317 billion budget 
deficit last year. We are fighting a war. New Orleans is an important 
and valuable investment, but we have to target our funding wisely.
    Thank you very much for inviting me here to today to testify and 
I'll be happy to answer any questions you might have.
                                 ______
                                 
 Responses by Steve Ellis to additional Questions from Senator Jeffords
    Question 1. Mr. Ellis, can you give me your perspective on how we 
can balance the need to preserve historic structures and the need to 
ensure that the people affected by this disaster are able to meet their 
basic needs of food, clothing and shelter?
    Response. Preserving historic structures in New Orleans is a 
laudable and important goal. However, meeting citizen's needs for food, 
clothing and shelter is obviously of the utmost importance. Part of New 
Orleans charm and attraction as a tourist destination is the 
architecture and historic buildings. If we are to maintain a stable 
economy in the region we cannot simply raze flood damaged historic 
structures and replace them with quickly built housing. As we rebuild 
New Orleans we must endeavor to replicate the character and the style 
that made this town one of the most culturally rich cities in the 
country. Further, we are going to have help citizens and organizations 
to rebuild and rehabilitate damaged buildings while providing for the 
displaced citizens.

    Question 2. During the stakeholders meeting we held in this 
committee, and during last week's hearing with Mayor Nagin, one of the 
major points was that local redevelopment plans must drive Federal 
investments. For example, it may be possible to redevelop the city in 
such a manner that the highest levels of flood control are not required 
everywhere. The Mayor and the Governor both have planning processes 
underway. I realize that time is of the essence in rebuilding, but you 
don't want to spend huge amounts of resources rebuilding flood control 
in an area where no one is going to live. Can you give me your 
impressions of how this process is proceeding?
    Repsonse. The President and others have supported funding for 
greater levee protection. We agree. We need to convince the residents 
that the Federal Government will commit to providing greater levee 
protection in the neighborhoods where it makes sense to rebuild. But, 
we have to recognize that because time is of the essence we could be 
rebuilding flood protection in some areas where it may not be necessary 
after full redevelopment plans are enacted. Also, in some places the 
immediate flood protection that we provide may have to be rebuilt or 
expanded in the future. The rebuilding of flood control and drafting of 
redevelopment plans is, like much of the rebuilding process, stumbling 
forward. I am not aware of a clear redevelopment plan or a flood 
protection plan beyond the U.S. Army Corps of Engineers proposal to 
rebuilding the pre-Katrina flood protection.

    Question 3. Mr. Ellis, given the preliminary conclusions of the 
different groups conducting a failure analysis of the flood control 
projects in New Orleans, can you describe your view on how the need to 
provide flood control for the next hurricane season should be balanced 
against the need to find out exactly what happened so that the corps 
does not rebuild ineffective flood control?
    Response. As quickly and accurately as possible, we need to 
determine how exactly our flood protection structures performed during 
Katrina, what failed and why. Because initial reviews are suggestion 
human error and ``negligence'' is to blame, the review process will be 
integral to inform our rebuilding process as it goes forward. Lessons 
learned by the engineering teams need to be applied tomorrow; we cannot 
afford to wait until the entire review is signed, sealed and delivered.

    Question 4. On November 9, 2005, the NAS released a report on the 
coastal Louisiana restoration plan. One of its major recommendations 
echoes themes we have heard about local redevelopment plans--they 
recommend the development of an explicit map of the expected future 
landscape of coastal Louisiana. Without this, it will be difficult to 
move forward with coastal restoration and flood control in a targeted 
manner. Can you give me your response to this recommendation and your 
thoughts on how it should be implemented in Louisiana.
    Response. We have to have a realistic vision of our future New 
Orleans and coastal Louisiana if we are to ever build a responsible, 
integrated system to protect it. I said ``realistic'' vision, because 
we have to recognize that these areas are always going to be vulnerable 
to Mother Nature and that we must be cognizant that a direct hit from a 
category five storm will wreak tremendous damage no matter what our 
defenses are. If something--critical infrastructure, dense population 
center--doesn't have to be in harm's way, we should relocate it. If it 
has to stay, then we should provide it the highest level of protection 
possible. We cannot afford to simply be beholden to development 
decisions from the past; they may no longer be relevant or even 
dangerous. Led by Louisianans, difficult decisions are ahead in this 
process and will have to be made.

    Question 5. One of the key themes we have heard is that cost-
benefit analysis procedures should be revised--most significantly to 
account for potential loss of life. What are your views on the revision 
or abandonment of cost-benefit analysis as a decision-making tool for 
the corps?
    Response. The discussion of abandoning the cost-benefit analysis 
because of its shortcomings is akin to ``throwing the baby out with 
bath water.'' It makes little sense to not conduct a benefit-cost 
analysis before investing billions of taxpayer dollars. What we must do 
is modernize that analysis to include--as best as possible--all of the 
costs and benefits associated with Corps projects. In too many cases 
some of the benefits and costs: social and economic, were simply left 
out the equation. We cannot afford to do that. Incorporating the 
potential cost of loss of life will be difficult. Rather than trying to 
attach a dollar figure, which would be controversial and heavily bias 
analysis results, we should instead increasingly prioritize projects 
that significantly protect against loss of life. In the end benefit-
cost analysis should be a dynamic entity that evolves as economics and 
the Nation's needs evolve.

    Question 6. Given the corps' experience in Hurricane Katrina, can 
you tell us if you believe that the Federal Government should do more 
to ensure the safety of our Nation's levee program? For example, should 
safety standards and an inspection regime be established?
    Response. We absolutely need to establish a system to a) ascertain 
the safety of existing levees around the country; b) determine whether 
the levees provide the appropriate level of protection, some levees may 
be no longer necessary, others may need to be strengthened, a benefit-
cost analysis should be performed; c) develop national safety and 
design criteria for levees; and d) create a system to regularly inspect 
levees and other flood protection.

    Question 7. There has been much discussion of the Mississippi River 
Gulf Outlet and the effect it had in magnifying the storm surge that 
reached New Orleans. Can you give me your specific recommendations 
regarding this Outlet in light of what happened during Katrina?
    Response. The Mississippi River Gulf Outlet (MRGO) should be closed 
immediately. It accommodates very little traffic to justify its 
existence and clearly creates a significant hazard for New Orleans and 
neighboring parishes. This is a case where a fair cost-benefit analysis 
would reveal the project to be a loser. Enormous potential costs in 
death and destruction and very little economic benefit. One idea that 
has been offered is to reduce the outlets draft and construct a vessel 
floodgate and storm surge barriers. This makes virtually no sense. We 
are going to spend an enormous amount of money to keep the outlet open 
when it has already proven to be an economic loser. Furthermore, part 
of this plan is to deepen, widen and lengthen the lock on the 
Industrial Canal (Inner Harbor Navigational Canal) to allow traffic to 
access the few port facilities served by the MRGO. So, when New 
Orleans, the Gulf Coast and the nation is scrambling for cash we are 
going to spend more than a billion dollars wasteful navigation schemes 
to keep MRGO open. That makes no sense. The outlet should be closed, a 
restoration project along it should be started and the new lock on the 
Industrial Canal should be deauthorized.



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



                                  <all>

</pre></body></html>
